<html>
<title> - THE PRESIDENT'S NEW NATIONAL OCEAN POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
    THE PRESIDENT'S NEW NATIONAL OCEAN POLICY--A PLAN FOR FURTHER 
         RESTRICTIONS ON OCEAN, COASTAL AND INLAND ACTIVITIES

=======================================================================


                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, October 4, 2011

                               __________

                           Serial No. 112-68

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
70-597                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 4, 2011.........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     2
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     3
        Prepared statement of....................................     5
    Pierluisi, Hon. Pedro R., the Resident Commissioner in 
      Congress from Puerto Rico, Statement submitted for the 
      record.....................................................    64

Statement of Witnesses:
    Bullard, John, President, Sea Education Association..........    35
        Prepared statement of....................................    37
    Coleman, W. Jackson, Co-Managing Director, National Ocean 
      Policy Coalition...........................................    11
        Prepared statement of....................................    12
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     6
        Prepared statement of....................................     8
    Gilmore, Jim, Director of Public Affairs, At-sea Processors 
      Association................................................    17
        Prepared statement of....................................    19
    Gorelnik, Marc, Board of Directors, Coastside Fishing Club...    31
        Prepared statement of....................................    32
    Guith, Christopher, Vice President for Policy, Institute for 
      21st Century Energy, U.S. Chamber of Commerce..............    22
        Prepared statement of....................................    23
    Lanard, Jim, President, Offshore Wind Development Coalition..    39
        Prepared statement of....................................    41
    Rutenberg, Barry, Chairman-Elect of the Board, National 
      Association of Homebuilders................................    27
        Prepared statement of....................................    28

Additional materials supplied:
    Robins, Richard B., Jr., Chairman, Mid-Atlantic Fishery 
      Management Council, Statement submitted for the record.....    64
    Spence, Captain Jay W., President, Passenger Vessel 
      Association, Letter and statement submitted for the record.    65
                                     



OVERSIGHT HEARING TITLED ``THE PRESIDENT'S NEW NATIONAL OCEAN POLICY--A 
      PLAN FOR FURTHER RESTRICTIONS ON OCEAN, COASTAL AND INLAND 
                             ACTIVITIES.''

                              ----------                              


                        Tuesday, October 4, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:04 a.m. in Room 
1324, Longworth House Office Building, The Honorable Doc 
Hastings [Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Duncan of 
Tennessee, Bishop, Lamborn, Wittman, Fleming, McClintock, 
Duncan of South Carolina, Tipton, Gosar, Southerland, Flores, 
Runyan, Markey, Holt, Bordallo, Sarbanes, Tsongas, Pierluisi, 
Garamendi, and Hanabusa.
    The Chairman. The Committee will come to order. The 
Chairman notes the presence of a quorum, which under Rule 3[e] 
is just a couple Members, and we have that easily.
    The Committee is meeting today to hear testimony on an 
oversight hearing on ``The President's New National Ocean 
Policy--A Plan for Further Restrictions on Ocean, Coastal and 
Inland Activities''. Under Rule 4[f], opening statements are 
limited to the Chairman and the Ranking Member. However, I ask 
unanimous consent that any Member who wishes to submit a 
statement provide that statement before the close of business 
today. Without objection, so ordered. I will now recognize 
myself for my opening statement.

STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE FROM 
                    THE STATE OF WASHINGTON

    The Chairman. In 2009, President Obama ordered the creation 
of an Interagency Ocean Task Force to establish a new policy 
for management of our oceans and coasts. From the onset, there 
are serious questions about the task force work and the 
recommendations. A bipartisan group of 69 Members of Congress 
wrote the Chairman of the task force expressing concerns that 
the effort was not balanced and failed to recognize the need 
for a multi-use policy--a multi-use policy that includes both 
the responsible use of our ocean resources and environmental 
stewardship.
    From fishing to energy production to recreation, our oceans 
are an integral part of our national economy that supports 
millions of jobs throughout the country. Any new regulations or 
changes to the management of our oceans should be done 
thoughtfully and in full collaboration with those affected.
    Despite expressions of concern from various sectors of our 
economy and bipartisan voices in Congress, President Obama last 
year signed an Executive Order to unilaterally implement the 
final recommendations of the task force. This was done without 
congressional approval and without specific statutory 
authority. With the stroke of a pen, President Obama created a 
new, huge, top-heavy bureaucracy that could override state and 
local authorities, and change the way activities on the oceans, 
coasts and far inland, as a matter of fact, will be managed.
    The Executive Order creates 10 national policies, a 27-
member national ocean council, an 18-member governance 
coordinating committee, and nine regional planning bodies. This 
has led to the creation of nine national priority objectives, 
nine strategic action plans, seven national goals for coastal 
marine spacial planning, and 12 guiding principles for coastal 
marine spacial planning.
    This tangled web of regulatory layers will only lead to 
increased uncertainty for many diverse sectors of the economy, 
and it will create demands for new spending by the Federal 
bureaucracies charged with executing and funding this Executive 
Order.
    Especially alarming is the mandatory ocean zoning order to 
be imposed. Disguised with the label of coastal marine 
planning, ocean zoning would place huge sections of the ocean 
off limits to activities not zoned as government approved. 
Ocean zoning is posed to impact commercial and recreational 
fishing, and energy development, including renewable energy, 
recreational activities, marine commerce, shipping, 
transportation, construction and manufacturing. It has the 
potential to stop economic growth and the jobs associated with 
that growth.
    Though labeled as ocean policy, the Executive Order scope 
goes way beyond the oceans. The order includes the Great Lakes 
where states could be dictated to by a regional planning body 
on where certain activities are allowed. Regional planning 
bodies are empowered to reach far inland to potentially 
regulate activities occurring on lands adjacent to rivers, 
tributaries, or watersheds that drain into the ocean or, in 
this case, the Great Lakes.
    None of the people, communities, and businesses most 
affected by this policy will have representation on the 
regional planning bodies. They have no seat at the table 
deciding their fate. The President's Executive Order places all 
the power in the hands of the government.
    So, let me be clear. The Administration can, and should, 
require Executive Branch agencies with jurisdiction over our 
ocean policies, to work in a coordinated manner, to share 
information, and reduce duplication of their work. However, 
this White House policy has been driven under the claim that it 
is only an ocean conservation measure when its actual effects 
could be far-reaching and economically hurtful to American jobs 
and businesses both at sea and well onshore.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    In 2009, President Obama ordered the creation of an Interagency 
Ocean Policy Task Force to establish a new policy for the management of 
our oceans and coasts. From the onset, there were serious questions 
about the Task Force's work and recommendations. A bipartisan group of 
69 Members of Congress wrote the Chairwoman of the Task Force 
expressing concerns that the effort was not balanced and failed to 
recognize the need for a multi-use policy. A multi-use policy that 
includes both the responsible use of our ocean resources and 
environmental stewardship.
    From fishing to energy production to recreation, our oceans are an 
integral part of our national economy that supports millions of jobs 
throughout the country. Any new regulations or changes to the 
management of our oceans should be done thoughtfully and in full 
collaboration with those affected.
    Despite expressions of concern from various sectors of our economy 
and bipartisan voices in Congress, President Obama last year signed an 
Executive Order to unilaterally implement the final recommendations of 
the Task Force. This was done without Congressional approval and 
without specific statutory authority.
    With the stroke of the pen, President Obama created a new, huge 
top-down bureaucracy that could over-ride states and local authorities, 
and change the way activities on the oceans, coasts and far inland will 
be managed.
    The Executive Order creates: 10 National Policies; a 27-member 
National Ocean Council; an 18-member Governance Coordinating Committee; 
and 9 Regional Planning Bodies. This has led to the creation of: 9 
National Priority Objectives; 9 Strategic Action Plans; 7 National 
Goals for Coastal Marine Spatial Planning; and 12 Guiding Principles 
for Coastal Marine Spatial Planning.
    This tangled web of regulatory layers will only lead to increased 
uncertainty for many, diverse sectors of the economy; and, it will 
create demands for new spending by the federal bureaucracies charged 
with executing and funding this Executive Order.
    Especially alarming is the mandatory `ocean zoning' ordered to be 
imposed. Disguised with the label of Coastal Marine Spatial Planning, 
`ocean zoning' could place huge sections of the ocean off-limits to 
activities not `zoned' as government-approved.
    `Ocean zoning' is poised to impact commercial and recreational 
fishing, energy development--including renewable energy, recreational 
activities, marine commerce, shipping and transportation, construction 
and manufacturing. It has the potential to stunt economic growth, and 
the jobs associated with that growth.
    Though labeled as `ocean policy,' the Executive Order's scope goes 
well beyond the oceans. The order includes the Great Lakes, where 
states could be dictated to by a Regional Planning Body on where 
certain economic activities are allowed.
    Regional Planning Bodies are empowered to reach far inland to 
potentially regulate activities occurring on lands adjacent to rivers, 
tributaries or watersheds that drain into the ocean.
    None of the people, communities and businesses affected the most by 
this policy will have representation on the Regional Planning Bodies. 
They have no seat at the table deciding their fate. The President's 
Executive Order places all the power in the hands of the government.
    So, let me be clear, the Administration can and should require 
Executive Branch agencies with jurisdiction over our ocean policy to 
work in a coordinated manner, to share information, and reduce 
duplication of their work.
    However, this policy has been driven under the claim it's only an 
ocean conservation measure, when its actual effects could be far-
reaching and economically hurtful to American jobs and businesses both 
at-sea and well-ashore.
                                 ______
                                 
    The Chairman. With that I yield back my time. I am pleased 
to recognize the gentleman from Massachusetts, Mr. Markey.

STATEMENT OF THE HONORABLE EDWARD MARKEY, A REPRESENTATIVE FROM 
                   THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank you, Mr. Chairman. I would like to 
welcome our guest, Mr. Farr, and everyone else who is here with 
us today.
    The letters P-L-A-N, may be a four-letter word but they are 
not a dirty word, as the Republican Majority would have us 
believe. The last time I checked plans were helpful things. We 
have an emergency evacuation plan for this building. We have a 
plan for the airspace above us that says no one can fly too 
close to the Capitol. We have long-term investment plans so we 
can enjoy a comfortable retirement, but no plans would be a 
loss day to day and long term. We would struggle when decisive 
action was needed. It would cause unnecessary conflicts that 
could be avoided.
    Just like other plans, comprehensive ocean planning would 
allow everyone with an interest in our coasts and oceans to 
participate in the transparent decisionmaking process to 
determine how to best utilize an increasingly busy, productive, 
and important national resource. This would increase 
productivity and certainly for existing and new uses of these 
areas, and improved ocean health would provide certainty.
    Opposing ocean planning is like opposing air traffic 
control. You can do it, but it will cause a mess or lead to 
dire consequences. And it is time for our nation to have an 
ocean plan. The United States and territories have exclusive 
economic jurisdiction over approximately 4.5 million square 
miles of ocean. These areas are a vital part of the United 
States economy, supporting tens of millions of jobs and 
contributing trillions of dollars annually to our national 
economy. Our coastal counties which make up only 18 percent of 
the country's land area are home to 108 million people, or 36 
percent of our nation's population, and these numbers are 
steadily increasing. These growing uses within our ocean and 
coastal areas are placing significant pressures on these 
natural resources, and planning will help ensure that they are 
healthy and available for future generations.
    Last year, the President established the National Ocean 
Policy to do just that, begin planning to protect, maintain, 
and restore our ocean and coastal resources. Instead of 
supporting a plan for our oceans, the Republican Majority 
continues to pursue scare tactics, claiming that the policy 
creates additional regulations and kills American jobs. Just 
the opposite is true.
    By harmonizing the existing regulations that govern our 
coasts and oceans, this policy will allow developments to move 
ahead more quickly while creating jobs and improving the health 
of the oceans.
    This is not just a theoretical debate. We know ocean 
planning works. Look at what has happened in my home state of 
Massachusetts. In 2008, Governor Deval Patrick signed into law 
the landmark Massachusetts Oceans Act to develop the first in 
the Nation ocean management plan designed to balance commercial 
and recreational use with wildlife and habitat protection in 
state waters. The plan uses hard data, and web-based mapping to 
make sure we are not creating conflict on the high seas.
    For example, Massachusetts works with stakeholders to 
refine the area considered for offshore wind energy development 
to take into account certain areas identified as important to 
the fishing industry while still making wind energy developers 
happy because plenty of space was still going to be available 
for them in future offshore energy development.
    An ocean plan enables businesses to create, catch the wind 
or to catch the fish without getting caught up in unnecessary 
conflict. An ocean plan will also allow military operations and 
maritime shipping to both to occur off the coast of Virginia so 
the Armed Forces can practice landing tanks and companies can 
still land their tankers. An ocean plan means we can lay down 
fiber optic cable from Cape Cod to Martha's Vineyard without 
affecting fish habitat so customers can surf the World Wide Web 
without affecting the web of life below the surf.
    The National Ocean Policy, like the Massachusetts ocean 
management plan, is a plan that we should all support. The 
ocean plan promotes commerce while encouraging economy, and 
promotes the economy while protecting ecosystems.
    Thank you, Mr. Chairman, and I look forward to the 
testimony.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Thank you, Mr. Chairman.
    The letters, P-L-A-N may be a ``four-letter'' word, but they are 
not a dirty word, as the Republican Majority would have us believe. The 
last time I checked, plans were helpful things. We have an emergency 
evacuation plan for this building. We have a plan for the airspace 
above us that says no one can fly too close to the Capitol. We make 
long-term investment plans so we can enjoy a comfortable retirement.
    Without plans, we'd be at a loss day-to-day and long-term. We'd 
struggle when decisive action was needed. We'd cause unnecessary 
conflicts that could be avoided.
    Just like other plans, comprehensive ocean planning would allow 
everyone with an interest in our coasts and oceans to participate in a 
transparent, decision-making process to determine how to best utilize 
an increasingly busy, productive and important national resource. This 
would increase predictability and certainty for existing and new users 
of these areas and improve ocean health.
    Opposing ocean planning is like opposing air traffic control. You 
can do it but it will cause a mess or lead to dire consequences.
    It is time for our nation to have an ocean plan. The United States 
and territories have exclusive economic jurisdiction over approximately 
4.5 million square miles of ocean. These areas are a vital part of the 
U.S. economy, supporting tens of millions of jobs and contributing 
trillions of dollars annually to our national economy. Our coastal 
counties, which make up only 18% of the country's land area, are home 
to 108.3 million people or 36% of our nation's population, and these 
numbers are steadily increasing. These growing uses within our ocean 
and coastal areas are placing significant pressures on these natural 
resources and planning will help ensure that they are healthy and 
available for future generations.
    Last year, the President established the National Ocean Policy to 
do just that--begin planning to protect, maintain, and restore our 
ocean and coastal resources. Instead of supporting a plan for our 
oceans, the Republican Majority continues to pursue scare tactics, 
claiming that the policy creates additional regulations and kills 
American jobs.
    Just the opposite is true. By harmonizing the existing regulations 
that govern our coasts and oceans, this policy will allow developments 
to move ahead more quickly while creating jobs and improving the health 
of the oceans.
    This is not just a theoretical debate. We know ocean planning 
works. Look at what has happened in my home state of Massachusetts. In 
2008, Governor Deval Patrick signed into law the landmark Massachusetts 
Oceans Act to develop the first-in-the-nation ocean management plan 
designed to balance commercial and recreational use with wildlife and 
habitat protection in state waters. The plan uses hard data and web-
based mapping to make sure we're not creating conflict on the high 
seas.
    For example, Massachusetts worked with stakeholders to refine the 
area considered for offshore wind energy development to take into 
account certain areas identified as important to the fishing industry--
while still making wind energy developers happy because plenty of space 
was still going to be available to them for future offshore energy 
development. An ocean plan enables businesses to catch the wind or 
catch the fish, without getting caught up in unnecessary conflict.
    An ocean plan will also allow military operations and maritime 
shipping to both occur off the coast of Virginia, so the armed forces 
can practice landing tanks and companies can still land their tankers.
    An ocean plan means we can lay down fiber optic cable from Cape Cod 
to Martha's Vineyard without affecting fish habitat, so customers can 
surf the worldwide web without affecting the web of life below the 
surf.
    The National Ocean Policy, like the Massachusetts Ocean Management 
Plan, is a plan that we should all support. The ocean plan promotes 
commerce, while encouraging comity, and promotes the economy while 
protecting ecosystems.
                                 ______
                                 
    The Chairman. Thank you, and I thank the gentleman, and I 
would just make a note regarding his testimony. He talked about 
planning. Nobody is opposed to planning. But the operative 
words of what the gentleman said was that there is a law signed 
by the Governor of Massachusetts. I don't think any of us would 
argue with that process. What we are having this hearing on 
today is something called an Executive Order coming 
unilaterally from the White House, and that is the distinction, 
and that is something obviously we can discuss.
    I appreciate the gentleman's testimony and I am very 
pleased to welcome our first panel, a former colleague of ours 
on this Committee and a gentleman from California, Mr. Farr, 
and I don't think I have to go through the drill. You know what 
the green light means, the yellow light means and the red light 
means. What you don't know is that we strictly enforce this in 
this Committee, so with that we are very pleased to welcome the 
gentleman from California, Mr. Farr.

STATEMENT OF THE HONORABLE SAM FARR, A REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Mr. Farr. Thank you very much, Chairman Hastings, and thank 
you, Ranking Member Markey, and all of the Members, many new to 
me when I was on this Committee.
    I just want to point out that the issue that you have 
before you was brought to you, brought to us by us, by this 
Committee. This Committee, in the year 2000 under the 
Republican leadership of Don Young, passed the Oceans Act of 
2000, and that Act created an Oceans Commission. The bill 
actually was signed into law, I think, by President Clinton, 
but the appointees to the Commission were made by President 
Bush, and those on the Commission represented oil companies and 
port authorities, oil drilling companies, the University of 
Washington, Oil Shipping Council, Wells Fargo Bank in Alaska, 
University of South Florida and others.
    That Commission published for us, because we asked them, 
what do we need to do about our oceans, and here is the issue. 
As you pointed out, we have dozens, dozens, multi dozens, I 
think 140 Federal laws and dozens of agencies. I have been 
dealing with coastal issues all my political life, and what you 
have is a conflict of the seas; is that Mineral Mining Agency 
doesn't tell fishermen where they are going to patrol for 
seismic issues, pulling up crab pots, destroying fisheries. I 
mean, there has just been a lack of communication, and for 
years the states have asked the Federal Government to try to 
resolve these conflicts, which are all Federal agencies, and to 
work with state agencies to come up with a process that allows 
you to know what is going on in your back yard, and that is 
what this report, the final report given to Congress 
recommended essentially everything that is in the President's 
Act.
    We in Congress introduced bills, not much of which had to 
be done statutorily except for I think the permanence of 
governing commissions, so I think the criticism of the Chairman 
is, well, these are regional commissions. Sure, we have 
regional commissions for clean water, we have regional 
commissions for clean air, but most importantly we have 
regional commissions to set up our fishing policies, and those 
commissions have reported back to us that we can't just deal 
with whether you can or cannot fish without dealing with all 
these other issues that your other Federal agencies do, so your 
27 Federal agencies need to come together and come up with a 
plan. That is exactly what the President did. I think every 
Federal agency was involved in discussing how we have an oceans 
policy.
    I might add that the Chair of the private nonprofit, the 
Pew Oceans Policy, which actually made recommendations to this 
Committee about the same time as the committee's Ocean Council 
did. That was chaired by Leon Panetta, who was very involved in 
oceans issues and is now Secretary of Defense, and I think if 
he were here to testify today he would tell you this is 
absolutely essential for our national security.
    Look, the planet is blue, and it is 73 percent water. The 
United States has more ocean territory than any other country, 
not because of just our coastlines but we have exclusive 
economic zone jurisdiction 200 miles out from all the 
possessions that we have, so the Guams, the Hawaiis and all the 
Atolls in the South Pacific that we are responsible for 
managing, we have that. So we are the king of the world on 
oceans and we don't have a policy until the President came 
along and did exactly what essentially a Republican-led 
Commission recommended to be done.
    I think that if you are going to deal with the Act we ought 
to look at statutorily implement some of these things because 
we want it to be permanent. As you know, an Executive Order can 
be repealed by the next President. So, the statements that you 
made, Mr. Chairman, that I have to take issue with. There is no 
mandated zoning planning in this. It is a bottoms-up process. 
It is one that our state, California, is very involved in 
because we have probably the strongest Coastal Act in 
California, and it is almost sacred to the state. In fact, 
nations around the world are coming to California to look at 
what they are doing because they want to implement coastal zone 
management as we have done in our state. So it in no way 
restricts any ocean activity, and it doesn't impose any new 
regulations.
    What they said is we need much more of a planning process 
that can deal with these conflicts of the sea. We do it in the 
law, it is a bottom-up planning approach. It gives states and 
regions the ability to make informed decisions about how best 
to use the ocean. Each state has a right to decide whether they 
would like to conduct marine spacial planning off their coasts. 
It is not mandated. Twenty-two of the 35 coastal states have 
expressed the need for coastal marine spacial planning in their 
coastal zone management plans.
    So, I think that we are right on target in meeting what 
this Committee earlier, working with then-Chairman Don Young, 
about how the Commission should do this report to Congress and 
what should be included, we are now implementing it. We ought 
to be praising the action taken because you are the responsible 
steward for all of this ocean. There is no other committee in 
Congress that has this jurisdiction, and it is a global 
responsibility.
    [The prepared statement of Mr. Farr follows:]

                 Statement of The Honorable Sam Farr, 
       a Representative in Congress from the State of California

    Chairman Hastings, Ranking Member Markey, and to the rest of my 
colleagues that sit on this Committee, thank you for the opportunity to 
submit testimony on the President's National Ocean Policy. This issue 
is of particular importance to me, as I have spent much of my career 
fighting to improve ocean governance and management. I think many of my 
colleagues here today would agree that the oceans play a critical role 
in our national economy. Commercial fishing, for example, contributes 
$70 billion annually to our nation's economy and is an industry that 
impacts businesses in every community across America. From the 
fisherman who catches our dinner, to the truck driver who transports 
the seafood, to the mom and pop seafood restaurant owners, all of these 
people depend on healthy oceans for their livelihoods.
    The terrifying fact is, however, that our ocean economy is at risk. 
Just this summer, a growing 83-mile dead zone in the Chesapeake Bay was 
described by scientists as the worst in history. Simply put, if we 
continue on our current destructive path, oyster and shellfish 
populations in Chesapeake Bay will be doomed, placing further economic 
hardship on shellfish harvesters and fishermen.
    Our inability to deal with the serious pressures facing our oceans 
stems from the way we manage our oceans, which historically has been a 
bureaucratic mess where we manage our resources in what amounts to 
policy ``silos.'' Over 140 Federal laws and dozens of agencies have 
jurisdiction over ocean resources. This problem was recognized by both 
the Bush Administration's U.S. Commission on Ocean Policy and the Pew 
Oceans Commission. These two separate Commissions found the Federal 
government's management of our oceans to be fragmented, uncoordinated, 
and in dire need of improvement. Following consultation with hundreds 
of stakeholders and scientists, the U.S. Commission on Ocean Policy 
published its final report which called for a comprehensive and 
coordinated national ocean policy.
    To fulfill the Bush Commission's recommendations, President Obama 
established America's first National Ocean Policy to reduce duplicative 
efforts and waste and increase the effectiveness and coordination of 
ocean management. The National Ocean Policy emphasizes the importance 
of oceans for jobs, food, energy development, transportation, trade, 
and international security with the goal of sustaining both our ocean 
economy and our marine resources.
    The National Ocean Policy has laid out nine priority objectives in 
order to address the most pressing challenges facing our oceans, 
coasts, and Great Lakes. These priority objectives include: enhancing 
water quality, addressing changing conditions in the Arctic, 
implementing ecosystem-based management, improving Federal coordination 
with State, tribal, local, and regional efforts, developing adaptation 
strategies for ocean acidification, and utilizing a data collection and 
analyzing tool called Coastal Marine Spatial Planning (CMSP). Through 
the nine priority objectives, tangible benefits will be achieved by all 
ocean users.
    Unfortunately, however, there has been a great deal of 
misconception regarding CMSP, which is just one of the nine priority 
objectives. This misconception has wrongly tainted the understanding of 
the National Ocean Policy at its most basic level. Some claim that CMSP 
is a new, mandatory program that will impose job-killing regulations on 
ocean industries and restrict ocean uses and activities--but this is 
simply untrue. The National Ocean Policy explicitly states that CMSP 
shall ``Support sustainable, safe, secure, efficient, and productive 
uses of the ocean, our coasts, and the Great Lakes, including those 
that contribute to the economy, commerce, recreation, conservation, 
homeland and national security, human health, safety, and welfare ... 
and ... Provide for and maintain public access to the ocean, coasts, 
and Great Lakes.'' Ultimately, the National Ocean Policy is about 
balance and will ensure long-term sustainability for our ocean economy, 
ocean jobs, and ocean environment.
    The Administration has made very clear that the National Ocean 
Policy is a nonregulatory, bottom-up approach. CMSP is an adaptive, 
ecosystem-based tool that has been used for decades to analyze current 
and anticipated uses of our coastal and marine resources. Under the 
National Ocean Policy, each state has the right to decide whether they 
would like to conduct CMSP off of their coasts, and decisions about the 
offshore environment will be made by local governments in coordination 
with tribal, State, and regional entities. It is important to point out 
that 22 of the 35 coastal States explicitly recognize the need for CMSP 
in their Coastal Zone Management plans, including Washington, Texas, 
Georgia, Virginia, and South Carolina. These states recognize that 
improved decision-making across multiple levels of government will 
translate to saving both the government and permit applicants' time and 
money by reducing duplication of effort.
    Additionally, CMSP will produce upfront benefits to the industry 
and agencies, helping create jobs in emerging industries by providing 
more certainty for offshore projects. CMSP in the State of 
Massachusetts, for example, allowed for coordinated planning between 
Federal and State agencies and stakeholders in the planning of offshore 
wind energy development. Through a collaborative effort, the State was 
able to acquire and analyze existing data and information regarding 
fisheries, transportation, navigation infrastructure, sediment, 
recreation and cultural services, and wind. Using this information, the 
State was able to determine the area most suitable for offshore wind 
energy, while taking into account areas identified as important to the 
fishing industry. This example demonstrates how CSMP can successfully 
reduce conflict, provide certainty to the industry, and also result in 
a streamlined decision-making process leading to substantial 
ecological, social, and economic benefits.
    I agree that implementation of the National Ocean Policy must be a 
transparent, open, and stakeholder driven process. So far, the 
Administration has made an effort to ensure that stakeholders have a 
voice through public workshops and comment periods, but these efforts 
need to be expanded as we move forward so the actions and issues most 
important to the American people can be brought to the forefront. The 
National Policy will ultimately provide States, Tribes and Local 
governments an unprecedented forum, through the newly established 
Governance Coordinating Committee which represents all parts of the 
U.S. with the purpose of coordinating on an ongoing basis with the 
Federal government. Congress, however, has not recognized that this 
stakeholder engagement comes at a cost, and if we want a transparent 
process, we must provide the necessary funding.
    The National Ocean Policy is a common-sense, bipartisan idea that 
has spanned both Republican and Democratic Administrations. If we want 
to ensure that fishing, recreation, and other uses are available to 
future generations, we must act now to change the status quo. The 
National Ocean Policy is about good governance, not restricted use, and 
it is necessary both for the long term health of our national economy 
and our ocean environment.
    Thank you for the opportunity to speak before you today, and I hope 
that we can work together to ensure that our vibrant coastal economies 
thrive and local communities have a voice in ocean governance.
                                 ______
                                 
    The Chairman. I thank the gentleman for his testimony, and 
while we don't ask questions of Members, there is a precedent 
of doing that here on this Committee. I think the gentleman was 
part of that the last time we had that.
    Mr. Farr. Three hours.
    The Chairman. I just want to make an observation because 
you are testifying in front of a committee that probably to a 
person would not say we have to be responsible for planning on 
the oceans. That is a great unknown really when you think about 
it. But this hearing is about an Executive Order by the 
President, and in your own testimony you suggested that there 
ought to be some statutory means to address this. I am not 
opposed to that. We may have a huge debate of what those 
statutory efforts will be, but there has been nothing, there 
has been no legislation sent to this Committee to implement the 
task force recommendations. Nothing has come down.
    And I know the gentleman has introduced legislation. You 
and I have had conversations on that. But I think the proper 
way and what this hearing is all about, the proper way is the 
role of Congress in all of this. I am certainly open to that.
    Mr. Farr. Mr. Chairman, with all due respect, I used to be 
a member of this Committee. There was a former Chairman, Mr. 
Pombo, who would not even hear the report even though Admiral 
Watkins, our former Chair of the Joint Chiefs of Staff was 
involved on this Committee, was Chair of the Committee, came 
before it asking to be able to present the report to the 
Committee. They were denied. Bills have been introduced and 
they haven't had a hearing, and you had leaders on your side. 
You had Congressman Greenwood, Don Young has been involved in 
it, Congressmen Saxton and Gilchrest, all active members of 
this Committee who really wanted to move forward with 
legislation, and essentially it never got the hearings, it 
never got the time of day.
    So, if you are interested in doing it, we certainly have 
the framework of legislation, I will give it to you.
    The Chairman. Every Member is free to introduce 
legislation.
    Are there further questions of the gentleman from 
California? The gentleman from Massachusetts.
    Mr. Markey. I thank the gentleman, I just want to thank the 
gentleman for his work. You are the single most consistent 
supporter of the oceans in the Congress, and no one can match 
your passion and your knowledge of the subject, and we thank 
you for being here.
    Mr. Farr. Well, thank you very much. Let me tell you why. I 
grew up on the oceans, and I saw these conflicts, and my family 
has probably been more involved in helping the fishermen in 
getting--we used to have the largest sardine port in the world 
in Monterey, California. When that port closed, when the 
sardines disappeared because we just over fished them, it was 
devastation, really devastation. Now they have turned it into a 
tourist industry, thank God to John Steinbach writing the book 
``Cannery Row''. But the fishing is coming back and we are 
working with it.
    Our biggest tourist attraction is not on the gulf, it is in 
the Monterey area, but it is the aquarium on the Monterey Bay 
area. It is essentially the ocean and the watchable water life 
of sea otters, sea lions, bird life, now we have condors being 
restored. It is a huge market. People pay a lot of money to 
come see watchable wildlife, and all of you have that in your 
district, and what this Committee is and why I love this 
Committee is because you are the stewards for that.
    You know, the birds and trees and animals don't vote, but 
you represent them, and I think we find when we manage our 
resources well they are sustainable, and the issue on the 
oceans is they are dying. All you have to do is get the reports 
of what happened two weeks ago in the ocean clean up of all the 
stuff they found. Oceans are dying, and if they die mankind 
dies because we are dependent on that sea.
    So, we have to find a way to sustain a livable ocean, and 
the only way you are going to do it is with good strong 
planning. Thank you.
    The Chairman. Further questions of the gentleman? If not, 
Mr. Farr, thank you. OK, Mr. Farr, thank you very much for your 
testimony, and if further questions are asked of you, it will 
be in writing, and we would like you to respond. I am not sure 
it is going to happen, but the opportunity is open.
    Mr. Farr. We will get you a copy of the report that was 
prepared for this committee.
    The Chairman. We have a copy of it here. I have been 
perusing it.
    Mr. Farr. OK. Thank you very much
    The Chairman. Thank you very much, Mr. Farr.
    Next, I would like to call our next panel to testify. We 
have Mr. W. Jackson Coleman, Co-Managing Director of the 
National Ocean Policy Coalition; Mr. Jim Gilmore, Director of 
Public Relations, At-sea Processors Association; Mr. 
Christopher Guith, Vice President - Policy, U.S. Chamber of 
Commerce; Mr. Barry Rutenberg, Chairman-Elect of the Board of 
National Association of Homebuilders; Mr. Marc Gorelnik, Board 
of Directors, Coastside Fishing Club; Mr. John Bullard, 
President of the Sea Education Association; and Mr. Jim Lanard, 
President of Offshore Wind Development Coalition.
    I want to thank all of you for joining the Committee today, 
and once again, under the rules by which we operate, the green 
light in front of you means you are free to talk, but when the 
yellow light comes on it means you have one minute left, and 
when the red light comes on it means your five minutes are up. 
Your full written testimony will appear in the record, so I 
invite you to summarize your testimony orally.
    With that we will go to our first witness, Mr. W. Jackson 
Coleman, Co-Managing Director of the National Ocean Policy 
Coalition. You are recognized for five minutes, Mr. Coleman.

STATEMENT OF W. JACKSON COLEMAN, CO-MANAGING DIRECTOR, NATIONAL 
                     OCEAN POLICY COALITION

    Mr. Coleman. Thank you, Congressman Hastings and Ranking 
Member Markey, and Members of the Committee. We are very 
pleased to be able to provide our testimony today on behalf of 
the coalition. As a personal note, I appreciate the opportunity 
to testify before the Committee having served here for almost 
six years, and previously to that for 14 years at the Interior 
Department dealing with ocean issues, and before that at NOAA 
for three and a half years. So most of the last 29 years I have 
been personally involved in ocean policy issues.
    Now, the Ocean Policy Coalition is an organization of 
diverse interests united in our desire to ensure that the 
implementation of this new National Ocean Policy is done in a 
way that is helpful rather than harmful to the national 
interest, including the interest of commercial and recreational 
users of the ocean and marine-related natural resources.
    As currently set forth, the National Ocean Policy has the 
potential to unnecessarily damage both terrestrial and marine 
economic value by affecting sectors such as agriculture, 
commercial and recreational fishing, construction, 
manufacturing, marine commerce, mining, oil and gas, renewable 
energy, recreational boating, and water-borne transportation, 
among others. These sectors support tens of millions of jobs 
and contribute trillions of dollars to the U.S. economy.
    The Coalition believes that the justification for many 
aspects of the policy including, but not limited to coastal and 
marine spacial planning, has not been adequately established by 
information based on realities on the ground and scientific 
data. In addition, uncertainty continues to abound--in some 
cases within the Administration--about what the policy means, 
how it will be implemented and the potential scope of its 
impact. I want to emphasize--tremendous uncertainty.
    This policy has created, as I said, uncertainty across the 
whole economy of this country. As the Administration has 
acknowledged, the policy ``may create a level of uncertainty 
and anxiety among those who are relying on these resources; and 
they generate questions about how they align with existing 
processes, authorities, and budget challenges.''
    So, frankly, the risk of unintended economic and societal 
consequences remains particularly high due in part to the 
unprecedented geographic scale under which the policy is to be 
established--I should say has been established because the 
policy is in effect already even if we don't have coastal 
marine spacial plans yet.
    The ecosystem-based management requirements of the policy 
are fully in effect, as are the requirements that the agencies 
exercise their discretion under the statutes to accommodate the 
National Ocean Policy.
    The Coalition has repeatedly brought up these concerns to 
the Administration in great detail. At this time, however, the 
policy remains on a fast track for nationwide implementation. A 
few of the problems that we are most concerned about is, number 
one, the negative impact on U.S. jobs and the economy at large, 
potentially affecting every major sector of the economy. This 
policy would essentially create exclusionary zones within our 
Great Lakes, coastal areas and oceans, and provide a new 
regulatory ocean policy overlay over all Federal permits for 
inland and offshore activities.
    Ocean zoning and the broader ocean policy will not be 
limited to these coastal marine areas but to the extent of 
every watershed in the country, and coastal marine spacial 
planning specifically talks about it will be used to better 
manage things like aquaculture, commerce and transportation, 
commercial and recreational fishing, and the list goes on and 
on.
    So, the regional planning bodies, as has been mentioned, 
also do not have user groups. The people who produce in this 
economy will not be part of those regional planning bodies. 
They will be all governmental. The Federal Government will have 
the majority vote on every planning body. I understand the 
states will have one vote each.
    So, there is so much to be talked about here that five 
minutes, of course, doesn't do it justice, but we very much 
appreciate the hearing and the great concern that we have, that 
the Coalition members have, and the opportunity to express 
that. Thank you very much.
    [The prepared statement of Mr. Coleman follows:]

               Statement of W. Jackson Coleman on Behalf 
                 of the National Ocean Policy Coalition

I. Introduction
    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee, my name is Jack Coleman and I am Co-Managing Director of the 
National Ocean Policy Coalition (Coalition). We appreciate the 
invitation to present the Coalition's views at this hearing on ``The 
President's New National Ocean Policy--A Plan for Further Restrictions 
on Ocean, Coastal and Inland Activities.''
    On a personal note, I appreciate the opportunity to testify before 
this Committee which I served for almost six years from 2003 until 
2009, first as Energy and Minerals Counsel and then as Republican 
General Counsel. My first work on ocean issues began during the period 
from March 1982 until August 1985 when I was Special Assistant to the 
Associate Administrator of the National Oceanic and Atmospheric 
Administration. This was followed by more than 14 years in the 
Department of the Interior, Office of the Solicitor--first as Senior 
Attorney for Environmental Protection and later as Senior Attorney for 
Royalties and Offshore Minerals. So, for most of the last 29 years I 
have been personally involved in ocean policy issues.
    The National Ocean Policy Coalition is an organization of diverse 
interests united in our desire to ensure that the implementation of the 
new National Ocean Policy is done in such a way that it is helpful 
rather than harmful to the National interest, including the interests 
of commercial and recreational users of the oceans and marine-related 
natural resources. Please see our website, www.oceanpolicy.com for 
information on our membership and as a resource for information on 
ocean policy.
    As currently set forth, the National Ocean Policy has the potential 
to unnecessarily damage both terrestrial and marine economic value by 
affecting sectors such as agriculture, commercial and recreational 
fishing, construction, manufacturing, marine commerce, mining, oil and 
gas and renewable energy, recreational boating, and waterborne 
transportation, among others. These sectors support tens of millions of 
jobs and contribute trillions of dollars to the U.S. economy.
    The Coalition believes that the justification for many aspects of 
the policy, including but not limited to coastal and marine spatial 
planning, has not been adequately established by information based on 
realities on the ground and scientific data.
    In addition, uncertainty continues to abound, in some cases within 
the Administration, about what the policy means, how it will be 
implemented, and the potential scope of its impact. As the 
Administration has acknowledged, the policy ``may create a level of 
uncertainty and anxiety among those who rely on these resources and may 
generate questions about how they align with existing processes, 
authorities, and budget challenges.'' At the same time, federal 
entities ``whose actions affect the ocean, our coasts, and the Great 
Lakes'' are directed to move aggressively forward with implementation.
    Finally, the risk for unintended economic and societal consequences 
remains particularly high due in part to the unprecedented geographic 
scale under which the policy is to be established. Given the scope and 
nature of the policy, the Coalition has consistently maintained--and 
continues to believe--that a measured approach in which potential 
impacts are examined in a pilot project in a limited area would be a 
wiser course of action.
    The Coalition has repeatedly brought these concerns to the 
Administration in great detail. It has filed numerous, lengthy 
documents raising concerns and suggesting a different approach to 
solving whatever problems might exist. Recent documents include 16 
pages of comments on development of strategic action plans which was 
submitted on April 28, 2011, and 98 pages of comments on strategic 
action plan full content outlines which was submitted on July 1, 2011. 
At this time, however, the policy remains on a fast track for 
nationwide implementation.
    Let me highlight in detail a few of our concerns:
        <bullet>  We are very concerned that the National Ocean Policy 
        will be negatively impactful to U.S. jobs and the economy at 
        large, potentially affecting nearly every major sector of the 
        economy.
        <bullet>  This policy would essentially create exclusionary 
        zones within our Great Lakes, coastal areas, and oceans, making 
        it more burdensome for citizens and organizations to conduct 
        commercial and recreational activities that already must comply 
        with a myriad of environmental regulatory regimes.
        <bullet>  Ocean zoning and the broader National Ocean Policy 
        will not be limited to coastal and marine areas--it could be 
        applied to restrict activities far inland--to the extent of 
        every watershed in the country.
        <bullet>  The Administration itself acknowledges these 
        legitimate concerns: ``The Task Force is mindful that these 
        recommendations may create a level of uncertainty and anxiety 
        among those who rely on these resources and may generate 
        questions about how they align with existing processes, 
        authorities, and budget challenges.'' (Ocean Policy Task Force 
        Final Recommendations)
        <bullet>  Coastal & Marine Spatial Planning (CMSP), a zoning 
        tool, to be used to ``better manage'' supposed conflicts 
        involving human uses including: aquaculture, commerce and 
        transportation (e.g., cargo and cruise ships, tankers, and 
        ferries), commercial and recreational fishing, boating, mining 
        (e.g., sand and gravel, oil and gas exploration and 
        development, ports and harbors, recreational fishing, renewable 
        energy, boating, beach access, swimming, surfing, security, 
        emergency response, and military readiness activities, 
        subsistence uses, tourism, and traditional hunting, fishing, 
        and gathering.
        <bullet>  Regional planning bodies, whose decisions and 
        disputes will be vetted in Washington, DC by the National Ocean 
        Council and the President if necessary, have the authority to 
        include inland areas when developing coastal and marine spatial 
        plans.
        <bullet>  CMSP is but one of several National Ocean Policy 
        priority objectives that address land-based activity. For 
        example:
                <all>  Ecosystem-Based Management: ``an integrated 
                framework that accounts for the interdependence of the 
                land, air, water, ice, and the interconnectedness 
                between human populations and these environments.'' 
                Officials within the Administration have stated to us 
                that they are unsure what this means in the context of 
                the National Ocean Policy.
                <all>  Water Quality and Sustainable Practices on Land 
                Objective: to address ``major impacts of urban and 
                suburban development and agriculture, including 
                forestry and animal feedlots,''and ``relative 
                contributions of the relative contributions of land-
                based sources of pollutants, sediments, and nutrients 
                to receiving coastal waters and ways to address them. . 
                .;'' ``poor land management practices'' and ``runoff 
                from. . .streets and lawns, agricultural and industrial 
                uses, transportation activities, and urban development. 
                . .negatively impacts water quality. . .''
                <all>  Climate Change & Ocean Acidification objective: 
                outline cites resource extraction as one of several 
                ``stressors'' whose impacts should be reduced, 
                references regulatory decision-making, and references 
                ``feasible alternative scenarios'' for the future 
                operation, maintenance, and relocation of built 
                infrastructure such as coastal roads, port facilities, 
                and dam operations.
                <all>  Regional Ecosystem Protection & Restoration 
                objective: proposes exploration of policy options for 
                incorporating carbon sequestration services of coastal 
                wetland habitats into federal decision-making.
                <all>  Use of the Precautionary Approach or Principle 
                which provides that federal decisionmakers should 
                reject permit applications and other requests if the 
                federal agency determines that information is lacking 
                about some potential impact of a proposed activity.
        <bullet>  Though a National Ocean Policy could be beneficial, 
        serving as a mechanism for job creation, infrastructure 
        revitalization, and economic growth, this particular effort 
        seems to be guided by a bias toward conservation and against 
        human activity.
        <bullet>  Rather than conduct analysis of the potential 
        economic impacts prior to implementation, the Administration 
        simply states that the National Ocean Council ``will address 
        questions and specifics as implementation progresses'' and 
        references opportunities for stakeholder and public engagement. 
        (Final Recommendations)
        <bullet>  In light of the Administration's own admission that 
        the policy in part represents ``a fundamental shift in how the 
        United States manages [ocean, coastal, and Great Lakes] 
        resources,'' failing to assess economic consequences prior to 
        mandating and enforcing this broad and sweeping policy 
        threatens federal, state, and local budgets, jobs, and the 
        economy at large.
        <bullet>  National Ocean Policy and CMSP will require a 
        significant amount of federal human and financial resources, as 
        the administration has acknowledged--complete information as to 
        what the National Ocean Policy-related federal budgetary costs 
        have been and are likely to be (including those at the non-
        federal level, where applicable) has not been forthcoming.
        <bullet>  National Ocean Policy creates a new bureaucracy, 
        including a 54-member National Ocean Council with officials 
        from 27 different federal entities, two 27-member interagency 
        policy committees, and nine regional planning bodies covering 
        every coastal region of the United States.
        <bullet>  Governance structure includes federal officials from 
        entities ranging from the Departments of Defense, Interior, and 
        Homeland Security all the way to Agriculture, Labor, and Health 
        & Human Services.
        [GRAPHIC] [TIFF OMITTED] 70597.001
        
        .eps<bullet>  Final Recommendations cite some of the many 
        programs and authorities already in place that address ocean 
        and coastal activities, including the Coastal Zone Management 
        Act, Clean Water Act, Clean Air Act, National Environmental 
        Policy Act, Magnuson-Stevens Fishery Conservation and 
        Management Act, and Outer Continental Shelf Lands Act.
        <bullet>  The National Ocean Policy has not been 
        congressionally authorized and Executive Branch has not 
        adequately engaged Congress. Efforts to pass major ocean policy 
        legislation have failed three successive Congresses under both 
        Democrat and Republican control, thus showing that there has 
        been no consensus in Congress for a vast restructuring of laws 
        governing ocean and coastal resources and uses.
        <bullet>  Congress should have an integral role in any effort 
        to address changes to the way that ocean and coastal resources 
        and uses are managed, particularly in light of the fact that 
        governance/management of these resources and uses ``span 
        hundreds of domestic policies, laws, and regulations covering 
        international, Federal, State, tribal, and local interests,'' 
        (Final Recommendations)
        <bullet>  NOPC represents many of the sectors that are 
        supposedly in conflict with each other, and we have yet to hear 
        any discussion about inherent conflicts that exist in ocean, 
        coastal, or Great Lakes areas that require a response of this 
        magnitude
        <bullet>  While conflicts among various uses and between uses 
        and the environment is cited as justification for the policy, 
        no scientific data is referenced to back up the claims.
        <bullet>  The Administration has stated that it will seek to 
        find funding efficiencies to further the program in light of 
        current budget constraints.
        <bullet>  The Policy has the potential to harm existing jobs 
        and economic activities by diverting funds from existing 
        federal programs and operations (e.g. permitting) that such 
        activities rely on.
        <bullet>  There is a real and growing possibility that NGOs 
        will be empowered to help fill a funding void and influence 
        policy outcomes, potentially blocking stakeholders with user 
        perspectives from contributing to the process.
        <bullet>  The Outline released by the National Ocean Council 
        proposes improved coordination through government-private 
        partnerships to ``enable all parties to better leverage limited 
        resources'' and calls for the identification and inventory of 
        ``specific ways to leverage funding sources among and between'' 
        federal agencies and NGOs, among others.
        <bullet>  Ocean zoning has never been attempted at this 
        geographic scale, yet calls for a pilot project have been 
        ignored. As the NOAA Science Advisory Board observed earlier 
        this year, the spatial scale U.S. Coastal and Marine Spatial 
        Planning effort is unprecedented, with the total area of the 
        nine U.S. Regional planning areas equaling the total area of 
        all the world's existing marine spatial plans combined. The 
        Board's finding that the U.S. effort ``argues for consideration 
        of smaller areas (and possibly fewer objectives) that can be 
        nested within larger regions over time'' is consistent with 
        NOPC advocacy for a pilot project in a limited geographic area 
        to reduce the risk of unintended consequences.
        <bullet>  Lack of adequate legal analysis raises many concerns 
        about conflicts between the policy and existing federal laws 
        and constitutional questions over matters of state sovereignty, 
        among others.
        <bullet>  Effective policy implementation will require ``clear 
        and easily understood requirements and regulations, where 
        appropriate, that include enforcement as a critical component'' 
        (Final Recommendations), and federal entities are ordered to 
        implement policy, based in part on guidance from National Ocean 
        Council.
        <bullet>  The Policy has strong potential to infringe on the 
        power and authority of federal officials by requiring them to 
        always exercise their discretion in favor of the policy.
        <bullet>  The Final Recommendations also state that the 
        National Ocean Policy has been established in part to address 
        ``the challenges we face. . .in the laws, authorities, and 
        governance structures intended to manage our use and 
        conservation'' of these resources, and CMSP is to be carried 
        out ``under the authority of'' existing statutes.
        <bullet>  Since Coastal and Marine Spatial Plans are expected 
        to vary by region, application of the federal laws used to 
        allegedly authorize such plans may vary by region as well, 
        causing such federal statutes to no longer be uniformly applied 
        in national manner as originally intended.
        <bullet>  Constitutional concerns regarding: (1) the inclusion 
        of non-advice and consent officials on the National Ocean 
        Council; and (2) the authority provided to regional planning 
        bodies. (potential conflicts with the Appointments Clause 
        resulting from non-federal officials sitting on bodies issuing 
        policies binding on federal officials)
        <bullet>  The Policy also intrudes into the sovereignty of 
        coastal and inland states, including in part through 
        establishing the geographic scope of CMSP to include state 
        waters, inland bays, estuaries, and additional inland areas if 
        deemed appropriate.
        <bullet>  By ordering federal entities to implement the policy, 
        based in part on guidance from the National Ocean Council, 
        there is a real potential for contravention of Administrative 
        Procedure Act and Regulatory Flexibility Act provisions, which 
        respectively require agency consideration of all comments on an 
        equal basis prior to issuing a regulation and agency 
        consideration of potential impacts on small entities and less 
        burdensome alternatives.
        <bullet>  The Administration has severely limited opportunities 
        to express concerns, and stakeholder concerns have not been 
        adequately addressed.
        <bullet>  The Administration has called for a robust and 
        meaningful stakeholder engagement process, but so far, 
        stakeholder engagement has been largely defined by document 
        dumps of voluminous yet vague information with fast-approaching 
        deadlines to respond, both of which have helped inhibit the 
        development of informed comments.
        <bullet>  The Administration began holding ``listening 
        sessions'' on 92 pages of Strategic Action Plan outlines on the 
        policy within seven days of their release.
        <bullet>  Draft Strategic Action Plan outlines were written 
        before the public comment period on the development of 
        Strategic Action Plans had even come to an end.
        <bullet>  Town Hall meetings held on the policy last year in 
        Alaska, Massachusetts, New Jersey, and Virginia were announced 
        not via Federal Register or web announcements, but rather 
        through agency e-mail lists, greatly limiting the amount of 
        public notice.
        <bullet>  The recent national workshop on CMSP limited public 
        participation to the first day of the three-day workshop, with 
        only 200 pre-screened members of the public allowed in; audio/
        video or written materials from the non-public portion of the 
        workshop has not been made available.
        <bullet>  Comments submitted by stakeholders who are not biased 
        against human uses and activities have for the most part been 
        ignored (e.g. calls for a pilot project, more openness and 
        transparency, and greater engagement with user groups).
        <bullet>  The policy is not voluntary: administration plans to 
        implement it wherever federal jurisdiction exists over 
        activities deemed to affect the oceans, coasts, or Great Lakes.
        <bullet>  The Administration has implied that the policy is 
        really just a voluntary program that will be whatever the 
        regions decide they want it to be. As they have stated 
        privately, and in a few cases publicly, however, this is not 
        voluntary, and the Administration intends to vigorously 
        implement the policy pursuant to the Executive Order wherever 
        they have jurisdiction. (federal waters, state waters, inland)
        <bullet>  The Policy has already been cited in December 2010 
        Interior Department announcement (Revised OCS Leasing Program) 
        restricting certain economic activity in certain areas through 
        2017.
        <bullet>  The policy creates new vehicles for attempts to 
        further restrict domestic economic activity. We are already 
        seeing the potential for this to occur.
        <bullet>  In June, groups led by the Center for Biological 
        Diversity, citing in part the National Ocean Policy as legal 
        justification, filed a petition with NOAA seeking to restrict 
        the speed for vessels greater than 65 feet in length to 10 
        knots when traveling through national marine sanctuaries 
        offshore California . Petition calls this ``an excellent 
        opportunity to implement the sort of coordinated, forward-
        looking marine spatial planning called for by President Obama's 
        National Ocean Policy initiative.'' If the petition is granted, 
        it could more than double the time it takes to transit through 
        these areas, adding that there's no clear science that there is 
        any benefit to whales (the petition's purported goal).
    It is for all of these reasons that, consistent with previous 
Coalition statements, we and other signatories wrote a letter of 
support for the Flores amendment to HR 2584, Interior, Environment, and 
Related Agencies appropriations bill, to achieve a pause in policy 
implementation. Such a suspension would provide additional time to 
allow for the careful consideration of all potential economic, 
societal, and legal implications associated with implementation, well-
informed stakeholder input, and adequate congressional engagement.
    To be clear, the Coalition is not opposed to a National Ocean 
Policy. The Coalition supports the development of a sound, balanced, 
and effective policy that serves as a mechanism for job creation, 
infrastructure revitalization, and economic growth and relies on full 
utilization of existing programs and well-established authorities that 
are already in place, rather than the creation of new bureaucracies, 
procedures, and regulations that only serve to create additional 
uncertainty, unnecessary restrictions, and delay. A pause in policy 
implementation will help reduce the risk of detrimental economic and 
societal impacts and ensure a policy that fully recognizes and accounts 
for the critical role our oceans, coastal areas, and marine ecosystems 
play in our nation's economy, national security, culture, health, and 
well-being.
    Thank you for the opportunity to testify and I would be pleased to 
answer any questions.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Coleman, for your 
testimony. Now I would like to recognize Mr. Jim Gilmore, the 
Director of Public Relations with the At-sea Processors 
Association. Mr. Gilmore, you are recognized for five minutes.

STATEMENT OF JIM GILMORE, DIRECTOR OF PUBLIC RELATIONS, AT-SEA 
                     PROCESSORS ASSOCIATION

    Mr. Gilmore. Thank you, Mr. Chairman and Members of the 
Committee for the opportunity to testify today. I am testifying 
on behalf of 10 West Coast and Alaska fishing and fish 
processing organizations.
    The fishermen processors for those organizations 
participate in fisheries that buy volume account for over half 
of all seafood landed annually in the United States. Our 
testimony focuses on how the National Ocean Policy initiative, 
one, establishes a new bureaucracy with sweeping powers; two, 
usurps the role of expert Federal fishery managers and reduces 
public participation in the fishery regulatory process; and 
three, creates regulatory uncertainty.
    We conclude our testimony to request the Congress prohibit 
the expenditure of any funds to establish regional planning 
bodies or to develop any plans referenced in the National Ocean 
Policy Executive Order until the structure, scope, and cost of 
the program have been reviewed by Congress.
    The plain language of the Executive Order and the Ocean 
Policy Task Force final recommendations explicitly state that 
coastal and marine spacial planning process intends to manage 
uses and activities. This is not the benign collaborative 
planning process described by some proponents, but a program 
that anticipates the regulations and changes to existing 
regulations if it is to achieve its management objectives.
    The Ocean Policy Task Force recommendations state that CMSP 
is intended to improve ecosystem health and services by 
planning human uses and the conservation of important 
ecological areas such as areas of high productivity and 
biological diversity, areas in key species that are critical to 
ecosystem function and resiliency, areas of spawning, breeding, 
and feedings, areas of rare or functionally vulnerable marine 
resources, and migratory corridors.
    This passage illuminates that the purpose of the ocean 
policy is less about coordinating fishing activities with other 
ocean user activities and is more about creating regulatory 
process for further restricting ocean use, including commercial 
fishing.
    Federal fisheries are managed currently under the authority 
of the Magnuson-Stevens Act which establishes eight Regional 
Fishery Management Councils tasked with conserving and managing 
fishery resources out to 200 miles. Each council is composed of 
one Federal official, a state official for each state in the 
region, and private citizens with requisite fishery management 
experience who are appointed by the Commerce Secretary. Private 
citizen appointees constitute a voting majority on those 
councils.
    On the other hand, the national ocean regional policy body 
is tasked with developing coastal and marine plans are 
described as consisting only of Federal and state officials and 
tribal interests. Few government officials from the Federal 
agency serving under the regional planning boards will even be 
knowledgeable about fisheries management. The result is the 
National Ocean Policy creates a new regulatory process that 
competes with and threatens to supersede the Regional Fishery 
Management Council process. The decisionmakers will have little 
expertise and there will be less opportunity for public 
participation.
    National ocean proponents argue unconvincingly that the 
coastal ocean spacial plans do not supersede current statutory 
authorities. The Ocean Policy Task Force report states, 
however, where existing regulatory or statutory requirements 
impose constraints on the ability of an agency to fully 
implement because of the marine spacial plan the agency would 
seek regulatory or legislative changes to fully implement the 
CMS plan.
    The above passage is unambiguous. The agencies are expected 
to either develop new regulations or change any existing 
regulations in order to be compliant with the CMS plan. The 
Regional Fishery Management Council will have no choice but to 
defer to CMS plans developed by regional planning boards. Under 
Section 304 of the Magnuson-Stevens Act if a Regional Fishery 
Management Council does not act to develop regulations the 
Commerce Secretary is authorized to bypass the council and 
promulgate regulations. The NOP effectively creates an end run 
of the existing Regional Fishery Management Council process, 
not coincidentally a long-time goal of many organizations 
supporting the National Ocean Policy.
    To date, the Administration has financed its NOP initiative 
by diverting existing appropriations from various agencies and 
it appears intent on continuing to do so without congressional 
authorization. We are concerned that NOAA programs that are 
needed for fishery assessments, protected species research, and 
fisheries monitoring enforcement are being short changed to 
create a new bureaucracy with potentially adverse impacts of 
commercial fishing.
    In closing, we propose that Congress explicitly prohibit 
the expenditure of Federal funds to establish regional planning 
bodies or to develop any plans identified within the scope of 
the Executive Order.
    That concludes my testimony, Mr. Chairman. Thank you again 
for the opportunity to testify.
    [The prepared statement of Mr. Gilmore follows:]

         Statement of Jim Gilmore, Director of Public Affairs, 
                     At-sea Processors Association

    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to testify today on the Obama Administration's National 
Ocean Policy (NOP) initiative, including the Coastal and Marine Spatial 
Planning (CMSP) component of that policy.
    I am testifying today on behalf of ten West Coast and Alaska 
fishing and fish processing associations. The organizations are: the 
Alaska Bering Sea Crabbers; Alaska Crab Coalition; At-sea Processors 
Association; Crab Group of Independent Harvesters; Deep Sea Fishermen's 
Union; Fishing Vessel Owners Association; Freezer Longline Coalition; 
Groundfish Forum; Pacific Seafood Processors Association; and United 
Catcher Boats.
    The fishermen and processors from the above organizations 
participate in fisheries that, by volume, account for over half of all 
seafood landed annually in the U.S. The fisheries include the Alaska 
crab, Alaska groundfish, halibut and sablefish, Alaska salmon, and 
Pacific whiting fisheries. The seafood harvested provides tens of 
thousands of jobs in Alaska and the Pacific Northwest, generates $2.0 
billion in economic activity, and accounts for a large percentage of 
U.S. seafood export earnings.
    Our testimony focuses on how the Administration's NOP/CMSP 
initiative 1) establishes a costly new bureaucracy with sweeping 
powers; 2) usurps the role of expert federal fishery managers and 
reduces public participation in the fishery regulatory process, and 3) 
creates regulatory uncertainty and places unnecessary burdens on the 
seafood industry. We conclude our testimony with the request that 
Congress prohibit the expenditure of any federal funds to establish 
Regional Planning Bodies or to develop any plans referenced in 
Executive Order 13547 until the structure and scope of the program have 
been reviewed by Congress and supported by the ocean user community.
The Regional Planning Bodies That Develop Coastal and Marine Spatial 
        Plans Are Granted Sweeping Authority to Regulate Ocean Users, 
        Including the Commercial Fishing Industry
    Executive Order 13547, which creates the National Ocean Policy, 
defines the CMSP component as providing ``a public policy process for 
society to better determine how the ocean, our coasts, and Great Lakes 
are sustainably used.'' According to the Executive Order, CMSP 
``identifies areas most suitable for various types or classes of 
activities in order to reduce conflicts among users, reduce 
environmental impacts, (and) facilitate compatible uses. . .'' The 
Final Recommendations of the Interagency Ocean Policy Task Force, which 
are incorporated by reference into the Executive Order, state, ``(T)he 
recommendations provide a framework for CMSP that offers a new, 
comprehensive, integrated, regionally-based approach to planning and 
managing uses and activities.'' While the benefits anticipated by the 
Administration in its NOP are open to debate, the plain language of the 
Executive Order and the Task Force's final recommendations cited above 
explicitly state that the CMSP process intends to manage ``uses and 
activities.'' This is not the benign collaborative planning process 
described by some proponents, but a program that anticipates new 
regulations and changes to existing regulations if it is to achieve its 
management objectives.
    Specific to fisheries management, the Ocean Policy Task Force 
recommendations state that, ``CMSP is intended to improve ecosystem 
health and services by planning human uses in concert with the 
conservation of important ecological areas, such as areas of high 
productivity and biological diversity; areas and key species that are 
critical to ecosystem function and resiliency; areas of spawning, 
breeding, and feeding; areas of rare or functionally vulnerable marine 
resources; and migratory corridors.'' This passage illuminates that the 
purpose of the National Ocean Policy is less about coordinating fishing 
activities with other ocean user activities and more about creating a 
new regulatory process for further restricting fishing opportunities 
for both the recreational and commercial sectors.
    The organizations on whose behalf I am testifying today have 
expressed these concerns consistently over the past two years to the 
Administration, but those concerns have not been addressed. We are left 
to conclude that the intent of the National Ocean Policy is, in fact, 
to create a Cabinet-level council and federal agency-dominated planning 
boards that are empowered to trump the Regional Fishery Management 
Council process established under the Magnuson-Stevens Fishery 
Conservation and Management Act (``MSA'').
``Top Down'' Federal Regional Planning Bodies Will Usurp the Authority 
        of ``Bottom Up'' Regional Fishery Management Councils 
        Established Under the Magnuson-Stevens Act
    Federal fisheries are managed under the authority of the Magnuson-
Stevens Act, or MSA. The MSA created eight Regional Fishery Management 
Councils tasked with developing plans and regulations necessary to 
conserve and manage fishery resources in federal waters out to 200 
miles. Each Council is composed of one federal official, a state 
official from each state in the region, and private citizens with 
requisite fisheries experience who are nominated by Governors and 
appointed by the Commerce Secretary. The Regional Fishery Management 
Councils involve affected users directly in the decision making 
process. Private citizen appointees constitute a voting majority on the 
Councils. This unique public role in federal fisheries management in 
waters off Alaska and the West Coast has worked well since the MSA's 
enactment in 1977.
    Federal fisheries management in the Alaska Region, in particular, 
is recognized internationally for its forward looking, precautionary, 
science-based approach. All fish stocks are managed to ensure 
sustainable harvest levels. Regulations are in place to minimize 
impacts of fishing on non-target species, other living marine 
resources, and sensitive habitat. Conservation measures include 
establishing more than 100 fishing area closures to avoid prey 
competition with Steller sea lions and closing 250,000 square miles of 
ocean to fishing gear that contacts the ocean floor to protect 
sensitive habitat. I would note that 250,000 square miles is an area 
only slightly smaller than the State of Texas. Fisheries management is 
complex and contentious, especially where catch allocations are 
involved, but stakeholder confidence is high because the process is 
guided by individuals with knowledge of, and experience in, the 
fisheries, and the public is engaged every step of the way in the 
highly transparent planning and regulatory process. Congress has shown 
strong support for this system by having repeatedly reauthorized the 
MSA and by having provided necessary funding every year.
    The NOP Executive Order undermines the current fisheries management 
system by anticipating that Regional Planning Bodies will include 
provisions in Coastal and Marine Spatial Plans that restrict fishing. 
The Regional Planning Bodies tasked with developing CMSPs are described 
as consisting of federal and state officials and tribal interests. Few 
government officials from the federal agencies serving on Regional 
Planning Boards will be knowledgeable about, and experienced in, 
fisheries management . The result is that the NOP creates a new 
fisheries regulatory process that competes with and threatens to 
supersede the MSA process. The decision makers will have little 
expertise, and less opportunity is provided for public participation.
The NOP Creates Uncertainty in the Regulatory System for the Commercial 
        Fishing Industry and Will Unnecessarily Increase the Burden on 
        an Already Highly Regulated Industry
    It is simply not good public policy to create an additional 
regulatory process, to confuse lines of authority, and to likely end up 
fostering litigation due to inevitable inconsistencies in regulations 
developed under different processes. NOP proponents argue 
unconvincingly that Coastal and Marine Spatial Plans do not supersede 
current statutory authorities. The Interagency Ocean Policy Task Force 
report states, however, ``Where pre-existing legal constraints, either 
procedural or substantive, are identified for any Federal agency, the 
NOC would work with the agency to evaluate the necessary and 
appropriate legislative solutions or changes to regulations to address 
the constraints. In the interim, agencies would comply with existing 
legal requirements but should endeavor, to the maximum extent possible, 
to integrate their actions with those of other partners to a CMS 
Plan.''
    The above passage is unambiguous that agencies are expected to 
change any existing regulations in order to be compliant with a CMS 
Plan. The Cabinet-level National Ocean Council (``NOC'') is directed by 
Presidential decree to ensure that federal departments and agencies, 
including the Regional Fishery Management Councils, change any 
regulations deemed inconsistent with the Strategic Action Plans or 
Coastal and Marine Spatial Plans. Similarly, fishery managers would be 
obligated to promulgate new regulations deemed necessary to meet 
management objectives established under new policies and plans 
developed under the NOP.
    The Regional Fishery Management Councils will have little choice 
but to defer to CMS Plans developed by Regional Planning Boards and 
approved by the National Ocean Council. Under section 304 of the 
Magnuson-Stevens Act, if a Regional Fishery Management Council does not 
act to develop regulations, the Commerce Secretary is authorized to 
bypass the Council and promulgate regulations. The NOP effectively 
creates an ``end run'' of the existing Regional Fishery Management 
Council process, not coincidentally, a long-time goal of many of the 
organizations supporting the NOP.
    Proponents of NOP/CMSP construct their statements carefully when 
arguing that the CMS planning process is not a regulatory process, but 
the intent of the Executive Order is clear in promoting the development 
of Cabinet-level approved CMS plans that dictate areas ``suitable'' to 
various activities, including commercial fishing. Similarly, the NOP 
establishes broad performance standards for protecting ``breeding, 
spawning, and feeding'' areas for living marine resources. The scope of 
authority conferred upon Regional Planning Bodies is extraordinarily 
broad. It may be the case that provisions of CMS Plans will be 
implemented under the general wording of the existing Magnuson-Stevens 
Act National Standards, but the salient point is that such regulatory 
measures will be developed by inexpert federal agency officials 
usurping the role of Regional Fishery Management Councils.
    NOP proponents argue also that this initiative is intended to 
coordinate federal oceans management, and yet the policy creates 
duplicative processes and ambiguous authorities. If implemented fully, 
the effective, fisheries conservation-focused and stakeholder supported 
Regional Fishery Management Council process will be compromised. 
Stakeholders will be faced with having multiple decision making 
processes at work. The result will be more costly, less effective, and 
less coordinated fisheries management. Stakeholder support for federal 
resource management will be eroded and the likelihood of litigation 
will increase.
Need for Legislation
    President Obama issued a memorandum on June 12, 2009 establishing 
an Interagency Ocean Policy Task Force and directing the Task Force to 
develop recommendations for a National Ocean Policy. Those 
recommendations were published on July 19, 2010 and implemented that 
same day without public review through Executive Order 13547. A 
National Ocean Council has been formed and it is being advised by the 
intergovernmental Governance Coordinating Committee. The next planned 
step is to establish Regional Planning Bodies composed of federal, 
state and tribal interests, and these entities will design regional 
ocean-zoning plans.
    There is no statutory authorization for the National Ocean Policy. 
The few measures introduced by Members of Congress to establish the NOP 
have won little support, and accordingly, have made very little 
headway. The Administration has offered no legislative proposal and has 
simply made an end run around Congress by Executive fiat.
    The pending House and Senate appropriations bills provide no 
funding for the National Ocean Policy initiative. Some funds are 
provided in the Commerce, Justice, and State appropriations bills 
reported by the House and Senate Appropriations Committees for state-
run coastal and marine spatial planning projects limited to state 
waters, and we do not oppose these pilot projects.
    To date, the Administration has financed its NOP initiative by 
diverting existing appropriations from various agencies, and it appears 
intent on continuing to do so without Congressional authorization. We 
are concerned that NOAA programs that are needed for fishery 
assessments, protected species research, and fishery monitoring and 
enforcement activities, among other critical functions, are being 
shortchanged to create a new bureaucracy with potentially adverse 
impacts on commercial fishing.
    We propose that Congress explicitly prohibit the expenditure of 
federal funds to establish Regional Planning Bodies or to develop any 
plans identified within the scope of E.O. 13547. We urge Congress to 
request the Administration to provide a budget for the cost of 
implementing the Order and to define the scope and structure of 
activities provided for under the NOP. Finally, we urge the 
Administration to address the concerns stated repeatedly by the ocean 
user community before attempting to proceed further.
    That concludes my testimony, Mr. Chairman. Thank you, again for the 
opportunity to testify. I am glad to respond to any questions.
                                 ______
                                 
    The Chairman. Thank you, Mr. Gilmore. You took exactly five 
minutes. That is pretty good.
    I am pleased to recognize Mr. Christopher Guith, Vice 
President of Policy for the U.S. Chamber of Commerce. Mr. 
Guith, you are recognized for five minutes.

 STATEMENT OF CHRISTOPHER GUITH, VICE PRESIDENT--POLICY, U.S. 
                      CHAMBER OF COMMERCE

    Mr. Guith. Chairman Hastings, Ranking Member Markey, 
Members of the Committee, thank you for convening this hearing. 
From my vantage point, the National Ocean Policy is the most 
significant issue affecting energy security, job creation, and 
economic growth that no one has heard about. The policy has 
been promulgated with little fanfare from the Administration, 
with little notice from the American household and businesses 
that the policy can impact most.
    Healthy and state of oceans is absolutely in our interest. 
Federal state governments have enacted literally hundreds of 
laws creating a framework to do precisely what this policy 
presupposes it to do, and at no point does the Administration 
suggest that this policy is what Congress intended under any 
statute or combination of statutes. The policy seeks to utilize 
coastal marine spacial planning, a concept that would limit 
specific areas of ocean for particular use. This is a solution 
to a problem that does not appear to currently exist. Allowing 
unelected regional planning authorities to essentially zone 
state and Federal waters is not authorized in any statute nor 
envisioned by any previous congressional action.
    The facet of this policy that inspires our greatest concern 
is its potential breadth. On several occasions the policy 
explicitly suggests that any and all activities onshore could 
come under the regulatory reach of these regional planning 
authorities. The policy also suggests that the existing 
statutory authority, such as the Clean Air Act and the Clean 
Water Act, should be harnessed by the planning authorities when 
allocating ocean use.
    The policy also brings to bear the precautionary approach 
or sometimes termed precautionary principle which is intended 
to preclude, stop, or otherwise take regulatory action against 
human activity when there exists the possibility that future 
scientific conclusions may find such activity is linked to 
environmental degradation.
    To put it differently, the principle states unless there is 
a current, conclusive scientific finding that a specific 
proposed human activity does not cause environmental 
degradation it shouldn't go forward.
    By preemptively utilizing the precautionary approach in 
such a broad context, this policy reorders our existing 
regulatory construct by shifting the burden of disproving 
environmental harm to those intending to engage in a specific 
activity as opposed to allowing such activities until 
environmental harm is actually proven. This reversal is not 
sanctioned by any statutory authority and has in fact 
previously been rejected by Congress.
    The National Ocean Policy results in a plethora of impacts 
in the country. Healthy or more sustainable oceans may or may 
not be one of them. However, one impact that is most likely to 
come from this policy is increased regulatory uncertainty. We 
estimate that nearly 2,500 rules were proposed in 2010, 
requiring some $1 trillion in compliance costs paid by American 
businesses. Small businesses, the jobs engines of our economy, 
pay an average of $10,000 per employee per year for compliance 
costs. Ultimately this uncertainty makes it difficult, if not 
impossible, for any business to modify its operations to ensure 
both compliance and profitability with any level of surety.
    The President's National Ocean Policy will exacerbate this 
uncertainty and add yet another maze of real or de facto 
regulation for businesses to attempt to navigate. By 
discouraging investment into energy production , you have the 
additional result of threatening our energy security by forcing 
the country to continue to import energy when we could be 
producing significantly more of it domestically.
    At a time of anemic economic growth and persistently high 
unemployment, the country is looking to its leaders to reverse 
these trends. The single most impactful action that can be 
taken is to increase the level of regulatory certainty to 
encourage private investment again. The President's National 
Ocean Policy is a step in the wrong direction and will only 
increase the level of uncertainty for years to come.
    We would encourage the Administration to back away from 
this current policy and look to Congress to determine the scope 
and breadth of any changes in current ocean policy. The 
Administration's time would be much better served by reversing 
its record of decreasing energy production on Federal lands and 
forcing the country to import more energy. Hundreds of 
thousands of jobs have been created in the energy over the past 
five years supporting energy exploration and production on 
private and state lands. Millions more could be created in the 
immediate future if the Administration made domestic energy 
production a priority once again.
    America business has been the target of a regulatory 
onslaught of historic proportion. Much of Congress's time has 
rightfully been devoted to oversight of these regulatory 
actions, and in many cases attempting to pass legislation 
reversing these actions. However, in the case of the 
President's National Ocean Policy, Congress still has time to 
act before the initial impact of the Administration's actions 
are realized. We would encourage you to take these actions 
immediately.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Guith follows:]

      Statement of Christopher Guith, Vice President for Policy, 
      Institute for 21st Century Energy, U.S. Chamber of Commerce

    Chairman Hastings, Ranking Member Markey, and members of the 
Committee. I am Christopher Guith, vice president for policy of the 
Institute for 21st Century Energy (Energy Institute), an affiliate of 
the U.S. Chamber of Commerce. The U.S. Chamber of Commerce is the 
world's largest business federation, representing the interests of more 
than three million businesses and organizations of every size, sector 
and region.
    The mission of the Institute is to unify policymakers, regulators, 
business leaders, and the American public behind common sense energy 
strategy to help keep America secure, prosperous, and clean. In that 
regard we hope to be of service to this Committee, this Congress as a 
whole, and the Administration.
    Thank you for convening this hearing. From my vantage point, The 
National Ocean Policy is the most significant issue affecting energy 
security, job creation, and economic growth that no one has heard 
about. This policy has been promulgated with little fanfare from the 
administration and with little notice from the American households and 
businesses that the policy could impact the most. Congress should and 
must utilize its oversight function to examine the National Ocean 
Policy to ensure it is consistent with the administration's statutory 
authority, and that it would not create new and unnecessary barriers 
that would jeopardize economic growth or energy security.
    The potential impacts on offshore energy like oil and natural gas 
production and renewable electricity generation are clear. However, 
while this policy is focused on oceans, the Final Recommendations of 
the Interagency Ocean Policy Task Force makes it clear that the 
policy's impacts do not stop at the coastline. Through a myriad of 
drawn-out arguments, the recommendations allow for regulatory coverage 
of virtually every bit of land and any entity operating or living on 
it. Onshore energy operations like mining, oil and natural gas 
production, and electricity generation are also vulnerable to new 
regulatory actions. The potential impacts do not hit just the energy 
sector but also agriculture, manufacturing, and construction. To be 
sure, the reach could be economy wide.
    The Chamber's Energy Institute, and many of the other organizations 
represented on this panel, have spent a great deal of time educating 
our members and the public about the potential impacts of this policy. 
While they are quick to understand the potential implications, the 
unfortunate reality is that this represents just one of dozens of 
actions in a historical regulatory onslaught that has undercut any 
semblance of the certainty required to foster the investments that will 
create jobs and economic growth.
RATIONALE
    Healthy and sustainable oceans are absolutely in our nation's 
interests. The federal government has seen fit to enact dozens of laws 
to ensure that interest. Together with hundreds of state laws, a 
framework has been created to do precisely what the President's 
National Ocean Policy presupposes it will do. The administration argues 
that the authority to implement such a policy is based in this myriad 
of federal statutes. However at no point does the administration 
suggest this policy is what Congress intended under any statute, or 
combination of statutes. The administration suggests that amongst other 
things, the creation of this new regulatory structure is needed to 
allocate ocean use through Coastal and Marine Spacial Planning and to 
``strengthen the governance structure.'' Both purposes should give 
pause to every Governor, anyone who ever intends to enjoy the beach or 
ocean, and anyone concerned about jobs and economic growth.
    Coastal and Marine Spacial Planning is a concept that would limit 
specific areas of ocean for particular use. This is a solution to a 
problem that does not appear to currently exist. It is true some areas 
of ocean are already designated for uses that may preclude additional 
uses. For example, significant swaths are designated for use by the 
Department of Defense. However, if a specific use of ocean waters 
otherwise precludes another use, there are existing avenues through 
statute and common law to resolve such a question. Allowing unelected 
regional planning authorities to essentially ``zone'' state and federal 
waters, as in the case of the National Ocean Policy, is not authorized 
in any statute, nor remotely envisioned by any previous Congressional 
action. At a time of prolonged unemployment and anemic economic growth, 
Congress should take note that these planning authorities would be 
expressly empowered to limit commercial endeavors at will without such 
statutory authority.
    I do not desire to play the role of alarmist, but I am left with 
little option given the vagueness of the policy itself and the non-
transparent fashion in which it was created. The President's Task Force 
provides little analysis or even description for the problems its 
recommendations allege to address. More troubling however, the Task 
Force Recommendations and the subsequent Executive Order provide little 
insight or detail about how the recommendation will be implemented. Nor 
do the recommendations provide any facet of constraint or even 
oversight which might otherwise allay concern over potentially sever 
negative impacts. The policy is overly vague throughout which only 
magnifies the concerns any current or potential ocean user should have.
BREADTH
    The facet of this policy that inspires our greatest concern is its 
potential breadth. On several occasions, the policy explicitly suggests 
that any and all activities on shore could come under the regulatory 
reach of the regional planning authorities. The policy explicitly calls 
for addressing, ``urban and suburban development,'' as well as ``land 
based source pollutants.'' Given the administration's existing 
regulatory overreach on numerous ``land based pollutants,'' that in 
many cases are explicitly authorized by statute, it does not require a 
vivid imagination to foresee an unchecked regional planning authority 
attempting to take action on inland activities that it finds are having 
an impact on ocean waters.
    The Coastal and Marine Spacial Planning section explicitly allows 
for the regional planning authorities to include upland areas. In fact, 
this policy finds that current conditions, ``necessitate connecting 
land-based planning efforts with ocean, coastal, and Great Lakes 
planning.'' The policy continues to find that existing statutory 
authorities such as the Clean Air Act and the Clean Water Act should be 
harnessed by the planning authorities when allocating ocean use.
    The policy utilizes the overly broad and vague term ``industries'' 
when describing ``human activities'' that are ultimately impacting the 
oceans, which presumably then can fall under the regulatory reach of 
this action. However, it also explicitly targets certain specific 
industries by name including energy, agriculture, forestry, and 
development.
    The policy provides the following concern as context for why and 
how action should be taken:
        ``Urban and suburban development, including the construction of 
        roads, highways, and other infrastructure. . .can adversely 
        affect the habitats of aquatic and terrestrial species.''
    Infrastructure developers must already negotiate a byzantine 
regulatory labyrinth that often leads to costly delays. Superimposing 
the will of a regulatory planning authority on top of this process has 
the very real potential of precluding many of the infrastructure 
projects which the country needs and the administration itself has been 
clamoring.
    Not only does the President's National Ocean Policy allow for the 
inclusion of virtually every sector of private enterprise to fall under 
new regulation, but it also brings to bear the ``precautionary 
approach,'' a new prism by which the prospective regulatory actions 
should be taken. The precautionary approach--also commonly referred to 
as the Precautionary Principle--was adopted in 1992 by the United 
Nations Conference on Environment and Development in Rio De Janeiro, 
Brazil (``The Rio Declaration'').
    The Rio Declaration states, ``[w]here there are threats of serious 
or irreversible damage, lack of full scientific certainty shall not be 
used as a reason for postponing cost-effective measures to prevent 
environmental degradation.'' The intent of employing this 
``precautionary approach'' is to preclude, stop, or otherwise take 
regulatory action against human activity when there exists the 
possibility that future scientific conclusions may find such activity 
is linked to environmental degradation. To put it differently, the 
principle states, unless there is current conclusory scientific finding 
that a specific proposed human activity does not cause environmental 
degradation, it should be limited.
    While similar regulatory formulas are explicitly called for in 
statute where Congress intended to preserve the status quo, they are 
few and far between. By preemptively utilizing the ``precautionary 
approach'' in such a broad context, this policy reorders our existing 
regulatory construct by shifting the burden of disproving environmental 
harm to those intending to engage in a specific activity as opposed to 
allowing such activities until environmental harm is proven. Since the 
policy clearly seeks to include land-based human activities under its 
regulatory purview, the ``precautionary approach'' may presumably be 
applied to any such activities. This reversal is not sanctioned under 
any statutory authority and has previously been rejected by Congress. 
This is a significant shift in regulatory policy and law, and will 
undoubtedly have a chilling effect on many forms of enterprise and 
economic activity, most especially technological innovation.
IMPACTS
    The President's National Ocean Policy will result in a plethora of 
impacts on the country. The stated impact of healthier and more 
sustainable oceans may or may not be one of them. However, one impact 
that is most likely to come from this policy is increased regulatory 
uncertainty. The recent regulatory overreach has permeated so many 
areas of commercial enterprise already, ranging from healthcare to 
financial services to labor relations to energy production to name just 
a few.
    Businesses of all sizes and sectors are impacted by these 
regulatory actions and will be attempting to determine the ultimate 
impacts on their operations for years, if not decades, to come. We 
estimate that nearly 2,500 rules were proposed in 2010 requiring some 
$1 trillion in compliance costs on the back of American businesses. The 
impact of these costs is greatest on small businesses. Businesses with 
fewer than 20 employees incur regulatory costs 42% higher than larger 
businesses of up to 500 employees. The average regulatory cost for each 
employee of a small business exceeds $10,000 per year. Ultimately, this 
uncertainty makes it difficult, if not impossible, for any business to 
modify its operations to ensure both compliance and profitability with 
any level of surety.
    The most visible effect of this environment is a lack of capital 
investment. This is the foundation of what some economists have 
described as a ``job-less recovery''. The country is experiencing some 
economic growth, but the private sector is not creating jobs at a rate 
that should correspond with that growth or to ensure future growth. It 
is estimated that throughout the recovery some $2 trillion has remained 
liquid, without being invested. The uncertainty caused by the recent 
regulatory overreach is a primary reason so many are not comfortable 
investing this capital.
    The President's National Ocean Policy will exacerbate this 
uncertainty and add yet another maze of real or de facto regulation for 
businesses to attempt to navigate. This may in turn lead to even less 
investment in areas such as infrastructure construction, manufacturing, 
and energy production. These are all areas that have significant track 
records of generating economic growth for the nation, as well as 
creating millions of jobs. By discouraging investment into energy 
production, this policy has the additional impact of harming our energy 
security by forcing the country to continue to import energy when we 
could be producing significantly more of it domestically.
CONCLUSION
    At a time of anemic economic growth and persistently high 
unemployment, the country is looking to its leaders to reverse these 
trends. The single most impactful action that can be taken is to 
increase the level of regulatory certainty to encourage private 
investment again. This investment will not only generate economic 
growth, but create jobs in nearly all sectors. The President's National 
Ocean Policy is a step in the wrong direction and will only increase 
the level of uncertainty for years to come.
    We would encourage the administration to back away from this 
current policy and look to Congress to determine the scope and breadth 
of any changes in current ocean policy. The administration's time would 
be better served reversing its record of decreasing energy production 
on federal lands and forcing the country to import more energy. 
Hundreds of thousands of jobs have been created in the energy industry 
over the past five years supporting energy exploration and production 
on private and state lands. Millions more could be created in the 
immediate future if the administration made domestic energy production 
a priority once again.
    Additionally, we would encourage the administration to increase its 
efforts to ensure ratification and adoption of the United Nations 
Convention on the Law of the Sea (also referred to as the Law of the 
Sea Treaty), which will provide not only an environmental benefit by 
ensuring America's arctic territory is officially identified and 
defined (and thus protected by U.S. law), but also pave the way for 
tremendous investment into those areas.
    American business has been the target of a regulatory onslaught of 
historic proportions. Much of Congress' time, especially in the House 
of Representatives, has rightfully been devoted to oversight of these 
regulatory actions, and in many cases attempting to pass legislation to 
reverse final actions taken by the administration. However, in the case 
of the President's National Ocean Policy, Congress still has time to 
act before the initial impact of the administration's actions are 
realized. We would encourage you to take such action immediately.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Guith. Next we will 
hear from Mr. Barry Rutenberg, Chairman-Elect of the Board of 
the National Association of Homebuilders. Mr. Rutenberg, you 
are recognized for five minutes.

  STATEMENT OF BARRY RUTENBERG, CHAIRMAN-ELECT OF THE BOARD, 
              NATIONAL ASSOCIATION OF HOMEBUILDERS

    Mr. Rutenberg. Chairman Hastings, Ranking Member Markey, 
and Members of the Committee, thank you for the opportunity to 
testify today.
    My name is Barry Rutenberg, and I am NAHB's Chairman-Elect 
of the Board and a regional builder from Gainesville, Florida. 
NAHB recognizes the need to preserve the health of the marine 
ecosystem as it is one of the many lifelines upon we as a 
nation depend. NAHB members are national stewards of the ocean, 
coasts and Great Lakes, and regularly take steps to improve the 
long-term conservation of these resources.
    As the Committee considers the National Ocean Policy, I 
hope Members will be mindful of the unintended consequences on 
regulated entities and stakeholders. President Obama and the 
Inner Agency Ocean Policy Task Force had developed an ambitious 
and far-reaching set of policies and actions that are expected 
to be undertaken in the next several years. NAHB has a number 
of concerns on how the implementation of any ocean policy may 
affect the health of the homebuilding industry, housing 
affordability, and our nation's overall economy.
    Given the significant impacts that may accrue from the 
implementation of this policy, NAHB is concerned by the 
Administration's attempt to authorize these activities through 
an Executive Order instead of securing congressional support 
and approval. NAHB believes it is imperative that the 
Administration only implement any such policy after securing 
specific statutory authority.
    Further, it is unclear if or how the task force of the 
agencies will be required to consider the economic impact of 
their actions. NAHB strongly believes some type of economic 
analysis should be conducted prior to implementing any of the 
proposed actions. Overall, NAHB is concerned that agencies will 
enact regulations that will only have a minor impact on the 
environment at a significant cost to private landowners and 
businesses.
    When contemplating how the National Oceans Policy will be 
implemented, the Administration must take care to ensure that 
its actions do not disrupt the ability of communities to define 
themselves how they choose. Any potential government policies 
that will broadly shape the future of our communities must be 
based on solid research and sound science.
    As one of the most highly regulated industries, 
homebuilders already comply with numerous Federal, state, and 
local environmental statutes. We can offer a unique view on how 
the National Oceans Policy might impact regulated entities.
    For example, homebuilders must already comply with the 
Federal Emergency Management Agency's national flood insurance 
program when siting, designing and constructing their homes. We 
meet the mandates of the Clean Water Act for controlling 
stormwater discharges. We demonstrate that the activities are 
consistent with our states' coastal zone management plan, and 
we meet the requirements of the local zoning critical areas for 
shoreland protection ordinances. Clearly, governments at all 
levels have already taken significant steps to protect coastal 
areas.
    Further, while the focus of the policy is to protect ocean 
health, because its scope is currently undefined it has the 
potential to make land-based activities without limit to the 
health of the ocean.
    Instead of blindly adopted blanket policies that are far-
reaching the task force must identify where the gaps and 
coverages exist so that those voids can be targeted.
    NAHB has significant concerns about the potential for the 
Federal Government to overstep its bounds with regard to land 
use planning. This practice allowed home buyers and homeowners 
the opportunity to choose a location of their homes and past 
experience suggests that caution must be taken to ensure that 
local governments are free to direct their community growth 
without Federal interference or coercion.
    It is likely that the agencies and courts will struggle 
with the scope, definitions, and implementations of the 
National Oceans Policy, making regulatory compliance a great 
challenge. Given the number of existing policies the efforts 
already taken at the Federal, state, and local levels, and the 
need to preserve the rights of local governments, NAHB 
questions the need for an additional layer of regulation.
    The deep recession that has permeated all segments of the 
housing industry since 2008 continues to hold back the economic 
recovery of the United States. The already battered housing 
industry cannot successfully face the forthcoming challenges 
already done by additional regulatory burdens that are not 
based upon science.
    While we support the overall intent of the National Oceans 
Policy, we cannot currently support any action that would 
unnecessarily impede recovery of this important economic 
sector.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Rutenberg follows:]

      Statement of Barry Rutenberg, Chairman-Elect of the Board, 
         on Behalf of the National Association of Home Builders

Introduction
    Chairman Hastings, Ranking Member Markey and members of the House 
Natural Resources Committee, I am pleased to appear before you today on 
behalf of the 160,000 members of the National Association of Home 
Builders (NAHB) to share our views on President Obama's National Ocean 
Policy. We appreciate the invitation to appear before the Committee on 
this important issue. My name is Barry Rutenberg and I am the Chairman-
elect of the Board for NAHB and a home builder from Gainesville, 
Florida.
    NAHB recognizes the need to preserve the health of the marine 
ecosystem as it is one of the many lifelines upon which we as a nation 
depend. NAHB members are national stewards of the ocean, coasts, and 
Great Lakes and regularly take steps to improve and promote the long 
term conservation and use of these resources. Due to the impact that 
the National Oceans Policy may have on the future of our homes and 
communities, NAHB has been monitoring its development and on a number 
of occasions, has provided input to the White House Council on 
Environmental Quality and the Interagency Task Force on Ocean Policy. 
In general, NAHB has supported the goals of these programs, but has 
raised a number of concerns on how the implementation of any oceans 
policy may affect the health of the home building industry and our 
nation's overall economy.
National Oceans Policy
    President Obama and the Interagency Ocean Policy Task Force have 
developed an ambitious and far-reaching set of policies and actions 
that are expected to be undertaken over the next several years to 
``ensure the protection, maintenance, and restoration of the health of 
ocean, coastal, and Great Lakes ecosystems and resources, enhance the 
sustainability of ocean and coastal economies, preserve our maritime 
heritage, support sustainable uses and access, provide for adaptive 
management to enhance our understanding of and capacity to respond to 
climate change and ocean acidification, and coordinate with our 
national security and foreign policy interests.''
    Given the significant impacts that may accrue from the 
implementation of this policy, coupled with its far-reaching effects, 
NAHB is concerned by the Administration's attempt to authorize these 
activities through an Executive Order instead of securing Congressional 
support and approval. In four separate Congresses, legislation has been 
introduced to create ocean policy. None of these attempts have ever 
reported out of Committee. During the 111th Congress, NAHB submitted a 
statement for the record to the Subcommittee on Insular Affairs, 
Oceans, and Wildlife opposing that legislative effort. It is clear from 
these unsuccessful attempts that there are differing views on the need 
for, and scope of, any national oceans policy. Due to these widespread 
discrepancies, NAHB believes it is imperative that the Administration 
only implement any such policy after securing specific statutory 
authority to do so.
    Further, it is unclear from the Executive Order and the Final 
Recommendations of the Interagency Ocean Policy Task Force if or how 
the Task Force or the agencies will be required to consider the 
economic impact of their actions. Because we believe the impacts could 
be significant, NAHB strongly believes some type of economic analysis 
should be conducted prior to implementing any of the actions. NAHB also 
believes that the requirement for the agencies to implement the 
National Oceans Policy ``to the fullest extent possible'' further 
limits their ability to conduct a cost-benefit analysis before 
implementing any new regulation or requirement. Overall, NAHB is 
concerned that agencies will enact regulations that will only have a 
minor impact on the environment but a significant cost to private 
landowners and businesses. Such an outcome is unacceptable and 
completely contrary to this Administration's pledge to make regulations 
more effective and less burdensome.
The Oceans Policy Must Preserve Community Choice
    The strength of our communities is their reflection of a diverse 
range of people, needs, ideals, and locales. Their design and shape are 
dictated by powerful market forces and realities that reflect the 
choices consumers make about where they live, work, and play. As 
communities age, evolve, and grow, community leaders must balance often 
competing needs, including a wide range of neighborhood and housing 
options; housing that meets the needs of families across the economic 
and demographic spectrum; reasonable proximity to jobs, commerce, and 
recreation; safe neighborhoods and a healthy environment; and open 
space and access to natural resources. When contemplating how the 
National Oceans Policy will be implemented, the Administration must 
take care to ensure its actions do not disrupt or otherwise impede the 
ability of communities to define themselves how they choose. For 
example, although a number of coastal communities have recently 
undertaken efforts to revitalize their waterfronts or downtown areas, 
strict implementation of the Policy may no longer allow such activities 
to occur. Further, any potential government policies that will broadly 
shape the future of our communities must be based on solid research and 
sound science and data and allow for choices and flexibility in the 
marketplace.
NAHB Is Concerned About Potential Unintended Consequences
    As one of the most highly regulated industries, home builders 
already comply with numerous federal, state and local environmental 
statutes and can offer a unique view on how the National Oceans Policy 
might impact regulated entities. For example, homebuilders must already 
comply with the Federal Emergency Management Agency's National Flood 
Insurance Program when siting, designing and constructing their homes; 
meet the mandates of the Clean Water Act for controlling storm water 
discharges during their construction activities; demonstrate that their 
activities are consistent with their state's coastal zone management 
plan; and meet the requirements of their local zoning, critical areas 
and/or shoreland protection ordinances. Clearly, governments at all 
levels have already taken significant steps to protect, maintain, and 
enhance their waterways and coastal areas. As a result, any National 
Oceans Policy has the potential to create yet another set of standards 
and/or approvals that could unnecessarily impose significant impacts on 
home builders, private landowners, and other businesses while providing 
minimal benefits.
    Further, while the focus of the policy is to protect ocean health, 
because its scope is currently undefined and also references coastal 
areas, it has the potential to link land based activities, without 
limit, to the health of the ocean whether or not such activities have 
an actual impact. For example, even though they already contain 
stringent standards to guard against environmental degradation, any 
type of permit issued under the Endangered Species Act or Clean Water 
Act could be impacted by the National Ocean Policy. Instead of blindly 
adopting blanket policies that are far-reaching and may not meet their 
intended goals, the Interagency Task Force must identify where the gaps 
in coverage exist across the range of federal, state, and local 
environmental, land-use, and zoning requirements rather than putting 
new regulations on top of existing regulations.
    Likewise, because a portion of the Policy concerns the use of 
coastal areas, NAHB has significant concerns about the potential for 
the federal government to overstep its bounds with regard to land use 
planning. Currently, state and local governments have the ability to 
plan for and determine appropriate uses for their entire communities, 
including coastal areas. If a local government deems an area fit for 
residential development and the site/project meets all of the existing 
federal requirements, construction may be allowed to occur. This 
practice allows homebuyers and homeowners the opportunity to live in a 
home of their choice in a location of their choice. The National Oceans 
Policy, however, has the potential to significantly change this 
standard practice. Past experience suggests that caution must be taken 
to ensure that local governments are free to continue to direct their 
community growth without any federal interference or coercion.
    Finally, although one goal of the National Oceans Policy is to 
better coordinate and plan for competing uses of the oceans, Great 
Lakes, and coastal areas, NAHB cautions against planning for that 
objective alone. Planning is not simply about managing resources with 
one objective in mind, but about optimizing multiple community or 
society goals. Solutions that seem simple to some may be complex and 
fraught with tradeoffs that make them far from ideal. A proposal that 
may solve one problem may generate new problems. Indeed, placing too 
much emphasis on one objective may not result in success, thus 
policymakers must seek to balance the full range of policy goals and 
should not address ocean health (or any other issue) to the exclusion 
of other crucial concerns. Clearly, decision makers must also be 
mindful of unintended consequences as they develop solutions to address 
this complex web of issues.
    Based on past efforts, it is likely that the agencies will struggle 
with the scope, definitions and implementation of the National Oceans 
Policy, making regulatory compliance a great challenge for not only the 
nation's home builders, but other stakeholders, as well. Given the 
number of existing policies specifically designed to protect our 
nation's oceans, coastlines, and watersheds, the efforts already taken 
at the federal, state, and local levels, and the need to preserve the 
rights of local governments to make their own decisions about the fate 
of their communities, NAHB questions the need for an additional layer 
of regulation. At a minimum, NAHB suggests that any action that would 
impact or impeded the ability of the housing sector to recover be 
avoided and/or delayed until the industry is back on sound footing.
Climate Change
    The Task Force has implicated climate change as part of its 
rationale for the need for the National Oceans Policy. Over the past 
two decades, concerns in the United States have increased over the 
potential impacts of greenhouse gas (GHG) emissions on water resources. 
Research, however, has yielded mixed results regarding the direct 
impacts of emissions on global resources, atmospheric events and 
atmospheric particle deposition on aquatic resources. Likewise, due to 
limited knowledge, dependency on forecasting models, and contradictory 
evidence, there is a high degree of uncertainty associated with climate 
change findings and assumptions. For example, estimating future impacts 
on precipitation events and aquatic resource availability have proven 
to be difficult. Similarly, research on anthropogenic impacts on 
climate change and water availability has been hypothesized to 
fluctuate, but definitive research has not yet proven to what degree.
    Additionally, research regarding the hydrologic (and other) impacts 
of climate change and the subsequent preventative measures needed must 
be an interagency effort. NAHB commends the Task Force for 
collaborating with the various agencies that have climate change 
policies currently in place. At a minimum, a holistic approach to 
research, programmatic strategy development, and coordinated 
implementation oversight will help to reduce duplication and improve 
overall results.
    Until the true causes and effects of human interaction with the 
marine biological and ecosystem cycles are better understood, any major 
actions to mitigate or adapt to the effects of climate change should be 
undertaken with extreme caution to avoid onerous or duplicative 
regulations that fail to provide adequate water protection or ensure 
efficient use. The Administration must commit to performing research on 
the effects of climate change on ocean health and water availability 
and supporting existing policies that can be adapted to address the 
research findings. It is vital to continue to research the development 
of cooperative solutions in the face of scientific uncertainty, not 
adopt additional regulations based upon minimal data. There must be 
definitive science that fully supports policy and policy 
implementation.
Conclusion
    NAHB's members are stewards of the environment. Many builders go 
above and beyond current requirements of the Endangered Species Act, 
Clean Water Act, and other federal, state and local environmental 
statutes in order to build an environmentally friendly home. NAHB's 
members take their responsibilities under the ESA, Clean Water Act, and 
other federal and state environmental statutes seriously.
    As you are well aware, the deep recession that has pervaded all 
segments of the housing industry since 2008 continues to hold back 
economic recovery in the United States. The already-battered housing 
industry, however, cannot successfully face the forthcoming challenges 
while weighed down by additional regulatory burdens that do little to 
further protect the nation's natural resources, including our oceans, 
Great Lakes, and coastal areas. While we support the overall intent of 
the National Oceans Policy, we cannot currently support any actions 
that would impede recovery of this important economic sector.
    NAHB appreciates the opportunity to provide comments on the 
implementation of the President's Executive Order and the Task Force's 
recommendations on the National Oceans Policy. Protecting, maintaining 
and restoring the health of the oceans, Great Lakes, and coastal areas, 
as well as planning for their sustainability, is of great importance 
and we look forward to continued opportunities to participate in this 
undertaking.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    Next we will hear from Mr. Marc Gorelnik, Board of 
Directors, the Coastside Fishing Club. You are recognized for 
five minutes.

   STATEMENT OF MARC GORELNIK, BOARD OF DIRECTORS, COASTSIDE 
                          FISHING CLUB

    Mr. Gorelnik. Chairman Hastings, Ranking Member Markey, 
Committee Members and hard working staff, my name is Marc 
Gorelnik, and I serve on the Board of Directors of the all-
volunteer, 10,000-member-strong Coastside Fishing Club, and I 
am a life-long recreation angler. I am here today with a 
cautionary tale from California.
    For myself and many of the other millions of salt water 
anglers in the United States going fishing is more than a 
recreational past time. It is a tradition, a connection to the 
generations before us, and a tradition that we pass to the 
generations that follow us. It is also a recreational activity 
that binds us tightly to the health of the environment.
    What makes our ocean activity so different from any other 
ocean users is that the quality of our experience depends 
directly on the health and vitality of the resource. To us the 
ocean isn't merely a surface to be transited from port to port, 
or a fruitful place from which to extract energy and minerals. 
On this basis a reasonable observer might believe that 
California recreational anglers are over the moon about the 
President's National Ocean Policy and its coastal and marine 
spacial planning. But we Californians are living the nightmare 
of a similar program. The Marine Life Protection Act, also know 
as the MLPA, which included its own component of marine spacial 
planning, and it is our experience in California that brings me 
to my cautionary tale.
    The MLPA eliminates or severely restricts recreational and 
commercial fishing activities without regard to species 
management. While posited as a science-driven process, it was 
far more political. After all, private foundations funded this 
pseudo-public process, and he who pays the piper names the 
tune.
    It was a biased process and recreational anglers who 
devoted thousands of hours in stakeholder and other meetings in 
the end served merely as window dressing. Proposals supported 
by environmental NGO's always triumphed over proposals by 
anglers, and this is true even when the NGO favored proposal 
offered no conservation benefits and higher social-economic 
costs than the angler proposal.
    Now, there may be times when sound fishery management 
guided by credible scientific data instructs that angling must 
be curtailed in order to restore a species or habitat. 
Recreational anglers on the whole would not and have not chafed 
at such restrictions because the restrictions are generally 
narrowly tailored, temporary in duration, and directed toward 
increasing future recreational opportunities. But that is not 
what happened in California where the MLPA usurped the role of 
fishery management.
    The President's National Ocean Policy does not need to go 
down the same road as California's MLPA. As I noted at the 
beginning of my testimony, anglers, unlike many other ocean 
users that may be impacted by national ocean policy, need and 
desire a healthy ecosystem in order to engage in our pursuits. 
Because we generate billions of dollars of economic activity, 
there are real jobs and businesses that desperately need and 
desire a healthy and vibrant ocean ecosystem. We would like to 
work with the Administration to this end but your experience in 
California leaves us wary.
    Why don't recreational anglers, and there are more than 12 
million of us on our nation's coasts, have a hand on the 
tiller? Will our participation be merely window dressing as it 
was in California? It seems that that is the way we are headed.
    A year or two ago a National Ocean Policy Task Force met 
publicly in San Francisco. The recreational angling community 
was not included except as spectators to a series of speakers 
praising California's MLPA process. This provides us with 
little room for optimism.
    In closing, I would urge the Administration to remember 
that recreational ocean angling is woven into the fabric of our 
nation's coastal communities and is important to tens of 
millions of voting age anglers and their families. It brings 
billions of dollars of economic benefit to coastal economies, 
and our nation's anglers already deal with vast closures 
imposed by fishery managers. The notion that further 
restrictions, unrelated to fishery management and largely 
politically driven, may be visited upon anglers is 
unacceptable.
    In California, we were told not to worry about the process 
as it would be fair to all. Well, it wasn't, and we do not want 
to see California's politically drive and unfair marine spacial 
planning promoted to the national stage.
    Thank you very much for your time.
    [The prepared statement of Mr. Gorelnik follows:]

        Statement of Marc Gorelnik, Member, Board of Directors, 
                         Coastside Fishing Club

    I am here today with a cautionary tale from California. My name is 
Marc Gorelnik. I am a director of the all-volunteer, 10,000 member 
strong Coastside Fishing Club and a lifelong recreational angler. I 
grew up fishing from the ocean piers of Southern California and now 
fish from my own trailer boat in the waters of Central and Northern 
California. For myself many of the other millions of saltwater anglers 
in the United States, going fishing is more than a recreational 
pastime. It is a tradition, a connection to the generations before us, 
and a tradition that we pass to the generations that follow us. It is 
also a recreational activity that binds us tightly to the health of the 
environment.
    What makes our ocean activity different from that of some other 
witnesses here is that the quality of our experience depends on the 
health and vitality of the resource. To us, the ocean isn't merely a 
surface to transit from port to port or a body of water that lies 
between us and minerals to be extracted.
    On this basis, a reasonable observer might believe that California 
recreational anglers are over the moon about the President's National 
Ocean Policy initiative. But we Californians are living the nightmare 
of an analogous program, the Marine Life Protection Act, also known as 
the ``MLPA,'' which included its own marine spatial planning 
initiative. And it is our experience in California that brings me to 
the cautionary tale of recreational anglers.
    The debacle of the MLPA in California should not be visited on the 
nation. National Ocean Policy initiative should not be directed to 
decreasing recreational freedoms on our nation's ocean waters. Rather, 
the policy should work to improve the quality and scope of recreational 
experiences for Americans.
    There may be times when sound fishery management, guided by 
credible scientific data, instructs that angling must be curtailed in 
order to restore a species or habitat. Recreational anglers would not, 
and have not, chafed at such restrictions because they are generally 
narrowly tailored, temporary in duration, and directed toward 
increasing future recreational opportunities. But that's not what 
happened in California, where the MLPA usurped the role of fishery 
management.
    The MLPA eliminates or severely restricts recreational and 
commercial fishing activities without regard to species management. 
Closures are self-justifying. While posited as a science driven 
process, it was far more political. After all, private foundations 
funded this pseudo-public process, and he who pays the piper names the 
tune. It was a biased process and recreational anglers, who devoted 
thousands of hours in stakeholder and other meetings, served merely as 
window dressing. In the end, proposals supported by environmental NGOs 
always triumphed over proposals by anglers. This is true even when the 
NGO-favored proposal offered no conservation benefit and higher socio-
economic costs.
    We see a similar path with National Ocean Policy. Ecosystem based 
management is laudable from a lay or political perspective, but it is 
not a well-defined scientific standard unlike management standards in 
Magnuson-Stevens. In the end, it is a political football. In 
California, we saw ``ecosystem protection'' as an all-purpose, one size 
fits all, justification for any path sought by the environmental NGOs. 
Even in the absence of any scientific justification, the so-called 
``precautionary principle'' was invoked as a lazy device to deprive 
recreational anglers from locations that had been sustainably fished 
for generations.
    Here is some background on the MLPA. Shortly before the MLPA became 
California law, the federal government amended the Magnuson-Stevens Act 
(creating the Sustainable Fisheries Act of 1996. Federal policy changed 
from one of expanding US fisheries while excluding foreign fisheries 
from US waters. Instead of maximizing yield, the policy changed to 
maximum sustainable yield--a huge difference. The focus and weight of 
law was now on sustainability. And with that, the Pacific Fisheries 
Management Council really did change the way in which it managed the 
fishery off California's coast.
    The Council declared that several groundfish species were 
overfished, and undertook rebuilding plans based on the biology of the 
fish and the needs of the fishing community. And with these rebuilding 
plans in place, these depleted species became the controlling factor 
for the majority of the species that have always remained healthy. By-
catch of these constraining fishes shut down otherwise healthy 
fisheries when rebuilding take limits were attained.
    Unlike other coastal waters around the world, California's fishery 
is healthy and rebuilding. Then what is the role of the later-enacted 
MLPA? What role does its marine protected areas play in supporting 
sustainability or improving the rebuilding rate of critical species? 
For those fisheries that are healthy, and successfully managed to 
maximum sustainable yield, there is no need to close fishing, as the 
same number of fish will ultimately be allowed to be taken from areas 
outside of the MPAs--they will just be harder and more expensive to 
get. So with no net reduction in the amount of fish taken, there will 
be little if any net gain as a result of an MPA closure. And if you are 
a recreational fisher, in some cases that increase in difficulty and 
expense will result in forgone opportunity and a slower economic engine 
within the recreational sector.
    This concept of no net gain presents an interesting paradox. The 
annual catch limits are set by the PFMC based on the best available 
science regarding the status and biology of the stocks. The PFMC is 
required by law to set levels that do not allow overfishing to occur--
i.e. the level must be sustainable; and to rebuild those stocks that 
are overfished in as fast a time as practicable. But once those levels 
are set, the fishermen are largely free to fish to those limits. 
Closing small areas will not have a significant effect on the total 
number of fish extracted--they will just shift where they are caught 
and how difficult--expensive--it will be to catch them. Controlling the 
level of fishing is the responsibility of federal and state fishery 
management organizations; and, rightly so, not the responsibility of 
the MLPA. Closing areas to fishing within the structure of the MLPA 
will not impact the level of extraction, and thus not affect the level 
of sustainability of the vast majority of our fish stocks--which are 
healthy.
    But then what about those handful of groundfish species that are 
overfished and are rebuilding? The Big Old Fat Female (``BOFF'') theory 
and the size and spacing requirements of the MPAs are relevant to that 
discussion. But the fact is that the preferred habitat for these few 
critical fish are largely outside of state waters, and thus the MLPA is 
working on the margins of the habitat for them. Compare that with the 
thousands of square miles of preferred habitat already closed by the 
federal fishery managers in what are known as Rockfish Conservation 
Areas, and Cowcod Conservation Areas. These areas are basically closed 
to both recreational and commercial bottom fishing, and are critical 
elements of the rebuilding strategy of the PFMC and the NMFS.
    While changes to the boundaries are made in response to improved 
understanding of the stocks, the size of these closed areas makes the 
MLPA closures relatively insignificant to the rebuilding rate. So while 
the concept has relevance to the rebuilding discussion, the potential 
magnitude of the impact of the MLPA's BOFF and the associated size and 
spacing is likely to be of no significance to the rebuilding of the few 
overfished stocks off California.
    And just like the healthy stocks, the concept of no net reduction 
in take is still going to control the rebuilding rate of these fish. 
The PFMC sets the allowed level of take for these fish too--be it 
unintended by-catch, or minimal directed harvest based on the approved 
rebuilding plan strategy. So as long as that level of take occurs, the 
rebuilding rate will not significantly change.
    The MPAs established under California's MLPA are simply not 
relevant to the concept of sustainable fishing: they are not impairing 
sustainability, but they are not enhancing it either--decent science 
based fishery management has simply overtaken the MLPA, and made it a 
relic of the past. But it is affecting the way recreational fishermen 
pursue their passion. It is changing where we fish, and the expenses we 
incur in pursuit of those fish. The MLPA impacts the infrastructure 
that we depend on as we attempt to catch a fish.
    Our charter boat industry, the bait shops, marine fueling 
operations, etc. are all affected by the resulting increases in 
operating costs and forgone opportunity. They are struggling to stay in 
business, and many are not making it. The most obvious operating cost 
impacts result from travel distances increasing as a result of closures 
near the ports, resulting in added fuel costs. And in some cases it is 
possible that the added distances could prove to be a safety hazard 
should boats try to return to port in front of approaching storms. The 
economic impact is real: Morro Bay has already lost most of its 
sportfishing fleet, and tourism is down dramatically. The same is true 
in Bodega, and other small coastal communities.
    Fishing is a mainstay of tourism in our coastal communities and the 
MLPA doesn't have the money to encourage the ecotourism used to justify 
the closures. To be sure, there will be offsetting economic gains to 
coastal communities, when or if the economy switches from fishing to 
ecotourism. But I for one prefer a working marina to tee shirt and 
souvenir shops.
    During the implementation phase, 10s of millions of dollars have 
been spent--mostly from private funding sources, but significant 
amounts of taxpayer money as well. However the huge cost issue with the 
MLPA will be the ongoing enforcement and monitoring expenses. Estimates 
from the California Department of Fish and Game project additional 
annual expenses from 10 to 50 million dollars a year--money they don't 
have, and won't get. The Department has repeatedly said they don't have 
the money to do the job, and will likely not be able to effectively 
enforce the regulations. Which raises the very real possibility that 
these MPAs could become viable target areas for poachers--which would 
be doubly bad. First because that would defeat the biological gains we 
expect to see inside the MPAs, but also because these catches would be 
un-reported and thus detract from our ability to accurately monitor 
actual take levels.
    The implications relative to the national movement for Coastal and 
Marine Spatial Planning are significant. If the California MLPA example 
is followed on a national basis, fishermen have good reason to be 
concerned. Already we are seeing that getting fishermen and fishery 
science a seat at the planning table is an uphill battle. Given all the 
other competing users and preservationists, who do have strong presence 
on the planning councils and oversight bodies, our ability to influence 
the outcome is doubtful. Our ability to have access to a healthy 
fishery is in real jeopardy.
    While repeatedly touted as ``the most open and transparent process 
in state government,'' this was instead a brave new world of ruthless 
NGO-driven regulations. Indeed, the ``open and transparent'' MLPA 
organization refused to respond to a public records request on grounds 
that it wasn't a state body. It took a lawsuit and court order to force 
open the MLPA records.
    The flawed MLPA process in California is relevant to the 
President's Ocean Policy Initiative because we see the same actors on 
stage. The same NGOs with the same objectives and principles, such as 
self-justifying recreational access closures. Like the MLPA, we see a 
complete absence of representation of American anglers in any 
meaningful way, and certainly not in balance with those who drove the 
MLPA in California.
    With the bitter aftertaste of the railroad job anglers received in 
California, and seeing many of the same environmental NGOs striving for 
a hand on the steering wheel, you can understand why anglers may be 
apprehensive about the National Ocean Policy. We fear that it may be 
California's MLPA, writ large. We fear the same lost opportunities, 
with greater concentration in fewer areas; more closings of landings 
and lost jobs; more high-minded rhetoric.
    The President's National Ocean Policy does not need to go down the 
same road as California's MLPA. As I noted at the beginning of my 
testimony, anglers--unlike most other ocean users that may be impacted 
by the National Ocean Policy--need and desire a healthy ecosystem in 
order to engage in our pursuits. Because we generate billions of 
dollars of economic activity, there are real jobs and businesses that 
derivatively need and desire a healthy and vibrant ocean ecosystem. We 
would like to work with the Administration to this end, but our 
experience in California leaves us wary.
    Why don't recreational anglers, and there are more than 12 million 
of us on the oceans, have a hand on the tiller? Will our participation 
be mere window dressing as it was in California? It seems that that's 
the way we're headed. A year or two ago, a National Ocean Policy task 
force met publically in San Francisco. The recreational angling 
community was not included except as spectators to a series of speakers 
praising California's MLPA process. This provides little room for 
optimism.
    In closing, I would urge the Administration to remember that 
recreational ocean angling is woven into the fabric of our nation's 
coastal communities and tens of millions of voting age anglers and 
their families. It brings billions of dollars of economic benefit to 
coastal economies. And our nation's anglers already deal with vast 
closures imposed by fisheries managers. The notion that further 
restrictions, unrelated to fishery management and largely politically 
driven, may be visited on anglers is unacceptable. In California, we 
were told not to worry about the process as it would be fair to all. 
Well, it wasn't. And we do not want to see unnecessary, feel-good 
closures imposed throughout our nation's coastal waters. Thank you for 
your time.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Gorelnik.
    Next we will hear from Mr. John Bullard, the President of 
the Sea Education Association. Mr. Bullard, you are recognized 
for five minutes.

             STATEMENT OF JOHN BULLARD, PRESIDENT, 
                   SEA EDUCATION ASSOCIATION

    Mr. Bullard. Chairman Hastings, Ranking Member Markey, 
Members of the Committee, my name is John Bullard. I am 
President of Sea Education Association in Woods Hole, 
Massachusetts. We teach college students about the ocean. It is 
nice to see one of our alumni on your staff.
    I was also selected by Massachusetts Governor Deval Patrick 
to serve on the Commonwealth's Ocean Advisory Commission, a 
body which was heavily engaged in the development of the 
Massachusetts Ocean Plan. Additionally, I am a former mayor of 
the fishing port of New Bedford, a historic fishing port which 
in recent years has consistently ranked as the top ranked port 
in the country in terms of value landed.
    In Massachusetts and the rest of New England, we value our 
traditional uses of the ocean greatly. Commercial fishing, 
shipping, tourism, and recreation are mainstays of the coastal 
economy, and they help define the character of many of our 
seaports. At the same time in Massachusetts and elsewhere new 
proposals for the use of our oceans are emerging, many of which 
may offer opportunities to provide new jobs, feed a growing 
nation, and address other important policy goals. Renewable 
energy, aquaculture, extraction of sand resources to provide 
protection for low lying coastal areas are all examples of 
recent new types of human activities proposed for our coastal 
and ocean waters. In many areas of the ocean there are existing 
economically important uses that we value and cherish that 
could conflict with these type of emerging uses.
    With sufficient public discussion and application of best 
available information early in the process we have seen 
examples in New England of how new and existing uses can 
coexist.
    Ocean planning boils down to two main components as I see 
it. Open transparent dialogue about public goals and desires 
for the ocean from all stakeholders and incorporation of 
science, data, and information from the beginning of this 
dialogue. This is an important departure from past practice 
where certain viewpoints were not represented during the review 
of a specific project until late in the specific project review 
process. This ultimately leads to project delays, lawsuits, and 
general frustration with the process.
    Ocean planning efforts do not necessarily equate to ocean 
zoning. It is up to the participants of the planning effort to 
determine the end result. Similarly, it is clearly laid out in 
the National Ocean Policy it will be up to the regions 
themselves to determine the content of a regional ocean plan.
    In Rhode Island and Massachusetts, ocean planning efforts 
have resulted in development of better information and public 
discussion over how to balance new and existing uses of our 
ocean. This will ultimately lead to better and faster 
decisionmaking, increase certainty in the decisionmaking 
process because certain issues will have already been addressed 
once specific projects are proposed because these decisions 
incorporate better science and data, and because the decisions 
are in the public realm, and with the data gathered in the 
ocean planning process it is possible to talk about opening 
areas that have been closed to fishing, not just closing more 
areas. This can be a net gain for fishermen.
    The two basic tenants of ocean planning all involve 
interest with the seat at the table and incorporation of best 
science and data will lead to more efficient, transparent, and 
fair decisionmaking about our oceans. The President's National 
Ocean Policy incorporates these principles which have been put 
into action already in several states. The National Ocean 
Policy rightly requires new focus on Federal agency 
coordination as well, but also appropriately leaves it up to 
the regional efforts to determine the substance of these 
regional ocean plans.
    Thank you for the opportunity to present this testimony.
    [The prepared statement of Mr. Bullard follows:]

Statement of John Bullard, President, Sea Education Association, Woods 
   Hole, Massachusetts; and Former Mayor of the fishing port of New 
     Bedford, Member of the Massachusetts Ocean Advisory Commission

Introduction
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to present testimony on today's 
hearing on the President's New National Ocean Policy. My name is John 
Bullard, and I am the President of the Sea Education Association, 
located in Woods Hole Massachusetts. At SEA, we teach college students 
about the oceans with a semester program in which students prepare an 
oceanographic research project that they conduct at sea on one of our 
two sailing research vessels. In addition to my current role as 
President of Sea Education Association, I was also selected by 
Massachusetts Governor Deval Patrick to serve on the Commonwealth's 
Ocean Advisory Commission--a body which was heavily engaged in the 
development of the Massachusetts Ocean Plan, which I will discuss in a 
few minutes. Additionally, I am a former mayor of the fishing port of 
New Bedford--a historic fishing port which in recent years has 
consistently ranked as the top-ranked port in the country in terms of 
value landed.
Background
    In Massachusetts and the rest of New England, we value our 
traditional uses of the ocean greatly. Commercial fishing, shipping, 
tourism, and recreation are mainstays of the coastal economy--providing 
thousands of jobs and for many of us, providing the character of our 
coastal communities which we cherish. The continued economic health of 
these uses is directly tied to the environmental health of our coasts 
and oceans--for example, as many fish stocks in New England continue to 
recover, commercial fishing will continue to be vital. Tourism and 
recreation rely on clean water and habitats for marine animals and 
fish.
    At the same time, in Massachusetts and elsewhere new proposals for 
the use of our oceans are emerging, many of which may offer 
opportunities to provide new jobs, feed a growing nation, and address 
other important policy goals. Renewable energy (wind and tidal-based 
generation), aquaculture, and extraction of sand resources to provide 
protection for low-lying coastal areas are all examples of recent, new 
types of human activities proposed for our coastal and ocean waters. I 
am not here to debate the validity of these types of activities; more 
to the point, they are a reality as our society increasingly looks to 
the ocean to assist us in meeting our economic goals and to address 
significant issues related to energy generation and food production. 
The issue I do wish to speak to is this: in many areas of the ocean, 
there are existing, economically important uses that we value and 
cherish that could conflict with these types of emerging uses.
    I stress the word could, however, because these potential conflicts 
do not have to become reality. With sufficient, public discussion and 
application of best available information early in the process, we have 
seen examples in New England of how of how new and existing uses can 
co-exist.
The National Ocean Policy and Framework for Coastal and Marine Spatial 
        Planning
    These two simple concepts: everyone having a seat at the table, and 
application of best available science and data, are at the heart of the 
National Ocean Policy's Framework for Coastal and Marine Spatial 
Planning. As you know, the National Ocean Policy calls for the 
development of regional ocean plans, to be developed through a 
transparent, bottom-up process. I would like to offer a few points on 
this aspect of the National Ocean Policy, drawing upon recent 
experience in New England:
    First, coastal and marine spatial planning (or ocean planning) as 
described in the National Ocean Policy is not a new concept. As I 
described earlier, ocean planning boils down to two main components:
        <bullet>  Open, transparent dialogue about public goals and 
        desires for the ocean
        <bullet>  Incorporation of science, data, and information from 
        the beginning of this dialogue
    Thus, ocean planning, as described in the National Ocean Policy, 
brings all viewpoints to the table: energy, recreation, conservation, 
fisheries, national security, safety and navigation, commerce 
(shipping), and others. This allows all voices to be heard and to have 
a say in how ocean space is utilized.
    This is an important departure from past practice, where certain 
viewpoints were not represented during the review of a specific project 
until late in a specific project review process. This ultimately leads 
to project delays, lawsuits, and general frustration with the process--
from all standpoints. We are all familiar with examples of this in 
action. Additionally, by allowing all voices to be heard up-front, 
combined with a focused effort to incorporate best available data from 
the beginning of the process, ocean planning is a simple, straight 
forward tool that will enable better, more efficient, and more 
transparent decision-making. These two main tenets of ocean planning 
are incorporated in the National Ocean Policy and its Framework for 
Coastal and Marine Spatial Planning.
    In New England, aspects of ocean planning have been in place for 
years, such as through fishery management efforts. There are also 
several recent examples of a broader approach to ocean planning, 
including those led by the states of Rhode Island and Massachusetts. 
These states have led the way in New England in thinking more 
comprehensively about how we value and use our coastal and ocean 
resources. The need for these states to undergo this activity is as I 
described previously: in recognition of New England's connection to its 
ocean and the cultural and economic importance of this connection in 
the face of increasing desire for new uses of ocean resources.
    New England states, led by its Governors, are also considering 
potential new uses of ocean waters--including renewable energy--that 
could result in potential conflict with these traditional uses such as 
fishing. As you know, the Governors of several states beyond New 
England are also realizing the potential for offshore energy--and the 
jobs it will bring--on the east coast of the United States, so this is 
a phenomenon not limited to New England.
    Recognizing that reality for us in New England, but realizing the 
importance of this issue as well, both Rhode Island and Massachusetts 
have applied ocean planning principles of open dialogue, with all 
voices at the table, and development and incorporation of science and 
data to help inform decision-making. These efforts have been recent 
undertakings, as Massachusetts completed its Ocean Management Plan in 
2010, and Rhode Island completed its effort earlier this year. In my 
role as a Governor-appointed member of the Massachusetts Ocean Advisory 
Commission, I was able to help the Massachusetts Ocean Management Plan 
happen in real time--consequently, I'm speaking to you with the 
perspective of someone who has successfully lived through an ocean 
planning effort.
    This brings me to a very important second point: both efforts were 
completed in relatively short order: 18 months in MA, and about two 
years in the case of Rhode Island, demonstrating that such an effort 
can be done in a timely fashion. Partly, this timeliness was because 
neither the Rhode Island nor Massachusetts attempted to develop ocean 
zoning schemes that divvy up all ocean space for particular activities. 
Ocean planning efforts do not necessarily equate to ocean zoning: it is 
up to the participants in an ocean planning effort to determine the end 
result. Similarly, as is clearly laid out in the National Ocean Policy, 
it will be up to the regions themselves to determine the content of a 
regional ocean plan.
    The Rhode Island and Massachusetts ocean planning efforts have 
resulted in development of better information (science, data) and 
public discussion over how to balance new and existing uses of our 
ocean. This will ultimately lead to better and faster decision-making, 
increased certainty in the decision making process because certain 
issues will have been already addressed once specific projects are 
proposed, because these decisions incorporate better science and data, 
and because the decisions are in the public realm--available for all 
(including future potential projects) to draw from in the future.
    As a specific example of this: Coming from New Bedford, the 
nation's top dollar port for 11 straight years and a city that plans to 
be the staging area for Cape Wind, I know the importance of early 
communication between fishing interests and ocean planners who are 
searching out areas appropriate for renewable energy. No matter the 
background interest, certainty in decision making is something we all 
seek. For example, turbines can be beneficial to some fishing methods 
such as fixed gear or aquaculture. It can conflict with mobile gear. So 
communication early on in decision-making is essential so that 
fishermen and renewable energy developers alike can plan ahead. And 
with the data gathered in the ocean planning process it is possible to 
talk about opening areas closed to fishing as well as closing some. 
This can be a net gain for fishermen as we have seen with scallops. But 
we will not be able to explore even this possibility unless all voices 
are at the table.
    This example and others from Massachusetts and Rhode Island are 
important demonstrations of the benefits of the type of approach 
envisioned in the National Ocean Policy's Framework for coastal and 
marine spatial planning.
    In addition, there are four other important aspects of the National 
Ocean Policy, which are important to point out:
        1.  First, it requires all federal agencies to work together on 
        addressing important ocean issues--a significant improvement 
        over the often-fragmented approach that has occurred 
        historically. President George W. Bush's US Ocean Commission 
        was just one of the more recent examples where the issue of 
        coordinating multiple agencies was highlighted as a significant 
        policy issue. The oft-cited issue of regulatory certainty is 
        one that cuts across agencies as well, and this National Ocean 
        Policy is significant in its requirements for federal agencies 
        to cooperate--in ways not seen before.
        2.  Second, it clearly recognizes the reality that certain 
        human activities are regional in nature--such as fishing. If a 
        boat is fishing on Georges Bank east of Cape Cod, it could be 
        from a home port in any of the New England states. Therefore, 
        it makes sense that regions of the country--states and the 
        federal government together--should work together to address 
        those issues of importance to that region.
        3.  It also clearly recognizes that the ocean ecosystem--its 
        species, habitats, and physical aspects such as circulation/
        currents--do not necessarily follow jurisdictional lines.
        4.  It does not include a ``one-size fits all'' approach to 
        ocean planning. Rather, it outlines a series of principles for 
        ocean planning but leaves the details to be determined by the 
        individual regions. Thus, the National Ocean Policy includes an 
        appropriate level of flexibility to enable the development of 
        regional ocean plans that are appropriate to those issues--and 
        appetites to address those issues--identified at the regional 
        level.
Conclusion
    We in New England, like other parts of the country, are reliant on 
our coasts and oceans for jobs, recreation, and the very fabric of our 
coastal communities. These connections to the oceans are a strong 
tradition, and we are now looking to the ocean for critical new 
services in the future while continuing the traditional. Ocean 
planning, such as the framework put forth in the President's National 
Ocean Policy, is a sensible approach that will enable new and existing 
uses to thrive together.
    The two basic tenets of ocean planning--all involved interests with 
a seat at the table and incorporation of best science and data--will 
lead to more efficient, transparent, and fair decision-making about our 
oceans. The President's National Ocean Policy incorporates these 
principles, which have been put to action already in several states. 
The National Ocean Policy rightly requires a new focus on federal 
agency coordination, as well, but also appropriately leaves it up to 
the regional efforts to determine the substance of these regional ocean 
plans.
    Thank you for the opportunity to present this testimony for the 
Committee's consideration and to make an oral presentation of the 
summary of my written comments.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Bullard.
    And last we will hear from Mr. Jim Lanard, the President of 
the Offshore Wind Development Coalition. Mr. Lanard, is it 
Lanard? Did I say it correctly?
    Mr. Lanard. It is.
    The Chairman. You are recognized for five minutes.

              STATEMENT OF JIM LANARD, PRESIDENT, 
              OFFSHORE WIND DEVELOPMENT COALITION

    Mr. Lanard. Thank you. Chairman Hastings, Ranking Member 
Markey, Members of the Committee, thank you very much for 
having us here today.
    My name is Jim Lanard, President of the Offshore Wind 
Development Coalition. We represent 11 offshore wind developers 
that are developing projects in the Great Lakes, along the 
Atlantic Coast, and in the Gulf of Mexico, particularly off the 
coast of Texas. Our mission is a very simple one. We push for 
legislative and regulatory policies that will promote the 
development and the faster moving development of offshore wind 
projects that will support thousands of high-skilled jobs and 
support billions of dollars of investment in manufacturing 
facilities along our coasts.
    Let me give you a quick history of the status of our 
industry. We are losing the intellectual and economic race for 
offshore wind to Europe and China. They are exporting their 
products throughout Europe and throughout the world and yet 
here in the United States we don't have a market and we are 
exporting or developing none of those products whatsoever. It 
is time to catch up.
    The first step in that catch up is for this Congress to 
consider the investment tax credit. Chairman Hastings, we have 
spoken with you and your Committee about this before, but it is 
the highest priority for the Offshore Wind Development 
Coalition and our developers.
    Let us look at the state of the ocean. It is busy out there 
and it is getting busier. There are expanding and existing 
uses. You have heard them today, oil and gas production, 
shipping, commercial and recreational fishing, national 
security issues, Department of Defense territories. Let me say 
that we work very closely with the Department of Defense. We 
have a great working relationship with them, and we are going 
to continue to find areas of common ground with DOD. There are 
also other recreational uses. There are cultural resources that 
need protection as does wildlife and habitat protection.
    So, where does offshore wind fit into this plan? The 
Department of the Interior asked and answered this question for 
first mover projects. They adopted the ``Smart From the Start 
Program'', which is a process involving state task forces and 
stakeholders throughout the coastal areas of the United States. 
This Smart From the Start process identified the best areas for 
first mover offshore wind projects, and as a result of that 
they reduced the permitting timeline by over two years so that 
we can start putting our workers back on the job developing 
offshore wind and getting that investment here in the United 
States.
    And the Smart From the Start also gives us great ideas 
about where we should consider developing in the future. We are 
a new use in the ocean. We are not an existing use, but we need 
to be compatible with all the uses that are already out there, 
so we believe there needs to be better planning, better 
cooperation, and better management so that all of this can be 
coordinated and integrated in a reasonable and fair process for 
all users, and that is where we think the President's National 
Ocean Policy comes in.
    The National Ocean Policy is very simple. It provides for 
better planning to protect and to use our ocean resources. It 
is basic, too. It calls for broad-based data collection, 
science-based management, and this leads, I believe, to 
certainty for our developers and for the manufacturers, and the 
certainty that our developers and manufacturers need.
    We all need to know that we have a process that is 
ecologically and socially significant, that we have to protect 
these areas. We have to know where not to develop, and we have 
to know where not to develop so we don't waste our developers' 
time, and so we don't waste the government's time reviewing 
permit applications for sites that just don't make sense.
    Ocean planning isn't new as we have heard and it is 
bipartisan. In Massachusetts, as we have heard, the ocean 
management plan was adopted by a Democratic Governor. In Rhode 
Island, the special area management plan was adopted by a 
Republican Governor, and today in New Jersey, New Jersey 
Governor Chris Christie has stated that he wants New Jersey be 
the first in offshore wind in the United States, and is relying 
on policies that they have adopted called the Ecological 
Baseline Study. So we have Democrats and Republicans supporting 
an initiative to move forward with offshore wind and with new 
uses for the ocean.
    Our bottom line is simple: We support economic and 
environmentally sustainable use of our oceans and the Great 
Lakes. We need to protect marine ecosystems and we think that 
is good for all users that have talked about this today, and we 
think that is what the National Ocean Policy is all about. 
Thank you very much for your time.
    [The prepared statement of Mr. Lanard follows:]

Statement of Jim Lanard, President, Offshore Wind Development Coalition

Introduction
    Mr. Chairman and Members of the Committee,
    Good morning.
    My name is Jim Lanard, President of the Offshore Wind Development 
Coalition. Thank you for the opportunity to present our testimony to 
you today on ``The President's New National Ocean Policy.'' The 
Offshore Wind Development Coalition represents offshore wind 
developers, service providers to the industry including turbine 
manufacturers, cable manufacturers, submarine cable installers, other 
supply chain businesses, offshore submarine transmission providers, 
environmental consulting firms, and law firms. Our Board of Directors 
includes eight offshore wind developers and a representative from the 
American Wind Energy Association (AWEA).
    The highest priority of the Offshore Wind Development Coalition is 
a long-term extension of the Investment Tax Credit (ITC). Due to the 
long period of time it takes to develop and permit an offshore wind 
farm, a long-term extension of the ITC is critical. Said another way, a 
failure to reauthorize and extend the ITC for offshore wind farms will 
make it very hard--if not impossible--to finance these projects.
    For additional background about the Offshore Wind Development 
Coalition, and our perspective on offshore wind issues in general, 
please refer to written testimony we submitted in advance of your 
Committee's June 1, 2011 hearing on the ``American Energy Initiative: 
Identifying Roadblocks to Wind and Solar Energy on Public Lands and 
Waters, Part II--The Wind and Solar Industry Perspective'', at which we 
also presented oral testimony.
The economic and job creation potential of a robust U.S. offshore wind 
        industry
    The offshore wind industry has the potential to create thousands of 
jobs in the manufacture of wind farm components, and in the 
construction, installation and operation and maintenance of the wind 
farms. These are high-skilled jobs that could be supplied by the 
existing workforce in Atlantic Coast states. To realize the full job-
creating potential of offshore wind development, however, it will be 
necessary to build offshore wind farms at scale, as is occurring today 
in Europe and China. Manufacturers will only be able to invest in new 
US-based facilities if they have the magnitude of orders necessary to 
justify the huge outlays associated with the building of complex wind 
turbines (composed of as many as 8,000 discrete parts), construction of 
special purpose-built vessels and manufacturing of highly-specialized 
submarine cables. Accordingly, we hope the Committee and the Congress 
will continue to consider initiatives to spur and expedite development 
of these facilities so that US workers can join the world's ever-
growing offshore wind workforce.
    Establishment of an offshore wind industry in the U.S., in addition 
to creating thousands of jobs, will result in billions of dollars of 
economic development, reduction in the need for costly and divisive new 
interstate transmission lines, and will help coastal States meet their 
renewable electricity standards. A 2008 study by the U.S. Department of 
Energy (DOE), entitled ``20% Wind Energy by 2030: Increasing Wind 
Energy's Contribution to U.S. Electricity Supply'', found that the U.S. 
could obtain 20 percent of its electricity from wind by 2030, and that 
15 percent of that wind power could come from offshore projects with a 
total of 54 Gigawatts of generating capacity.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Energy, 20% Wind Energy by 2030: Increasing 
Wind Energy's Contribution to U.S. Electricity Supply (July 2008) 
(available at http://www.20percentwind.org).

---------------------------------------------------------------------------
Hosting utility-scale offshore wind farms: a new role for our oceans 
        and Great Lakes
    The oceans, our coasts and the Great Lakes have supported a wide 
range of industrial, commercial, national defense, and cultural and 
recreational activities since the founding of our country. These uses 
are increasing. And increased use leads to increased competition. These 
growing competitive pressures are exemplified by calls for expanded oil 
and gas drilling along our coasts, by more and expanded shipping lanes 
that are being considered, by greater competition among commercial 
fishing operations, by the need for state-of-the-art national defense 
measures and by increased recreational uses in our oceans and the Great 
Lakes. And now, an additional use is about to be introduced into this 
mix--the use of our oceans and the Great Lakes for utility-scale 
offshore wind farms, which will have the potential to generate clean, 
renewable energy for hundreds of thousands of homes up and down our 
coasts.
    The footprints for utility-scale offshore wind farms may range from 
25 square miles to 100 square miles. To maximize the output of a wind 
farm as the wind moves through the turbine array, larger turbines will 
likely require more separation between their foundations. Hence, wind 
farms with larger turbines--and perhaps with more of them--could 
utilize 100 square miles of the ocean. With larger separation between 
turbines--ranging from one-half mile to nearly a mile between 
turbines--many other ocean uses will be feasible at a wind farm site. 
We recognize, however, that an additional use of our already heavily 
used ocean resources will require better planning, better cooperation, 
and better management. For these reasons, the offshore wind industry 
believes that the President's National Ocean Policy is essential to 
ensure that our oceans, coasts and Great Lakes remain economically and 
environmentally viable.
DOI's Smart from the Start
    Congress, when it enacted the Energy Policy Act of 2005, mandated 
that regulations related to the use of the OCS for offshore wind be 
adopted within 180 days of the bill becoming law. Five years later, on 
April 29, 2009, those regulations were finally adopted by the 
Department of the Interior. Interior, in collaboration with the 
Governors of many East Coast states, announced in November 2010 the 
Smart from the Start initiative, a program that is intended to 
accelerate the responsible development of our offshore wind resources.
    Smart from the Start is a major step to ensure that all ocean uses 
are fully considered when developing policies for the new offshore wind 
industry. Specifically, Smart from the Start is intended to shorten the 
leasing and permitting timeline for offshore wind projects to be 
located in the most favorable locations off the Atlantic coast. Under 
prior rules and policies, leasing and permitting of an offshore wind 
project in federal waters--even at the least-sensitive, least-
controversial sites--was estimated to require seven-to-nine years. By 
working closely with state officials to identify areas characterized by 
(1) strong development potential (favorable winds and proximity to 
demand centers), (2) abundant existing environmental data, and (3) low 
potential for conflict with existing uses, BOEMRE has moved to 
streamline early, leasing stage environmental review, and thereby shave 
years from the permitting timeline for some first-generation projects, 
while still requiring completion of thorough environmental reviews 
prior to a developer receiving approval to actually construct an 
offshore wind farm.
    Interior noted that the Smart from the Start process and associated 
data collection efforts will inform the Coastal and Marine Spatial 
Plans that will be developed by the Regional Planning Bodies 
anticipated in the National Ocean Policy. Smart from the Start takes 
into account existing information on wildlife and ecosystems and other 
uses of the ocean (e.g., fishing and shipping) and thus attempts to 
``take into account the national CMSP (Coastal and Marine Spatial 
Planning) goals and principles,'' as recommended in the Final Report of 
the Ocean Policy Task Force. Final Report at 63. In many ways, the 
development of offshore wind farms provides a fulcrum for putting CMSP 
into practice. Indeed, the Smart from the Start program can serve as a 
pilot program for larger CMSP efforts.
    There already are some important lessons learned from the Smart 
from the Start process. For example, even at sites selected as among 
the most favorable for early development, the need for additional data 
and a systematic framework for understanding and resolving potential 
conflicts has been apparent. At sites off the coasts of Delaware, 
Maryland, and Massachusetts, other agencies, existing users and 
resource advocates have identified uncertainties about the effect of 
wind farm development on existing resources or uses, prompting BOEMRE 
to reduce areas initially designated for Smart-from-the-Start leasing 
and permitting.
The President's National Ocean Policy
    During the development of the National Ocean Policy, many of our 
member groups commented both individually and collectively on how the 
policy could be tailored to ensure the responsible development of our 
nation's significant ocean renewable energy resources like offshore 
wind. The development of offshore wind resources can play a vital role 
in the nation's effort to restructure its electrical power sector in a 
manner that increases employment and manufacturing opportunities, 
improves national security, reduces price volatility, and combats 
climate change. In general, our members have been supportive of the 
Administration's efforts to create a national oceans policy and 
implement coastal and marine spatial planning in U.S. waters and we 
continue to participate actively in the development of the policy.
    One critical goal of the National Ocean Policy is to create better 
planning to protect our oceans in the future, especially as demands on 
them continue to grow. Planning requires informed, broad-based data 
collection and data integration that right now is managed by a vast 
array of federal agencies. Better plans lead to road maps that can 
guide current and future users of the oceans about how to best achieve 
their business plans. Thus, these types of planning and data collection 
will help industry by providing us with more certainty about the rules 
of the road. Certainty leads to the avoidance of conflicts, improves 
efficiencies and minimizes competing uses.
    Comprehensive, science-based management of ocean resources can 
supply needed data on existing and potential uses of ocean resources 
and a critically needed framework for analyzing those data to 
characterize and resolve conflicts. For this reason, we see a 
comprehensive, science-based oceans management framework as an 
indispensable long-term complement to the Administration's well-
conceived Smart from the Start approach for offshore wind.
    Unlike some users of the oceans and Great Lakes, we don't consider 
coastal and marine planning to be an ocean zoning exercise. Rather, we 
see it as a process to identify ecologically and socially significant 
areas that should be considered whenever any use is proposed for a 
specific area. While it is true that these plans could indicate 
preferences and priorities, proposed uses for any site will still have 
to be studied separately. We also think ocean planning is important to 
protect marine ecosystems while ensuring the orderly and sustainable 
development of ocean resources in a manner that respects and minimizes 
conflicts and existing uses including commercial fishing, recreational 
boating, surfing, aesthetic appreciation, wildlife, habitat, shipping, 
oil and gas and national defense activities. Regarding national 
defense, the offshore wind industry has an excellent working 
relationship with the Department of Defense; we're working with DOD to 
avoid conflicting uses of the ocean and to identify opportunities to 
provide domestically-produced power to their military bases located 
along the Atlantic Coast.
    Ocean planning is not new to the United States. And it's not a 
partisan issue, either. Massachusetts, led by Democratic Governor Deval 
Patrick, Rhode Island, led by Republican Governor Don Carcieri and New 
Jersey, led by Republican Governor Chris Christie are relying on their 
states' ocean planning processes to identify the best sites for 
offshore wind farms. None of these processes has resulted in ocean 
zoning outcomes; rather, they have identified areas with the least 
conflicting uses for the potential development of offshore wind 
farms.\2\ In each of these state's processes there was extensive 
stakeholder involvement. The National Ocean Policy requires the 
Regional Planning Bodies to ensure similar extensive stakeholder 
participation, a critical component as ocean planning evolves in the 
U.S.
---------------------------------------------------------------------------
    \2\ For more information see: the Massachusetts Ocean Management 
Plan, (http://www.mass.gov/
?pageID=eoeeaterminal&L=3&L0=Home&L1=Ocean+%26+Coastal+Management
&L2=Massachusetts+Ocean+Plan&sid=Eoeea&b=terminalcontent&f=eea_oceans_mo
p&csid=
Eoeea), the Rhode Island Ocean Special Area Management Plan (RI SAMP) 
http://seagrant.gso.uri.edu/oceansamp/, and the New Jersey Ocean/Wind 
Power Ecological Baseline Studies http://www.nj.gov/dep/dsr/ocean-
wind/.
---------------------------------------------------------------------------
Ensuring a smooth transition to a National Ocean Policy
    OffshoreWindDC and our members believe there are a number of 
policies that should be considered as the National Ocean Policy 
evolves. We have suggested that the National Ocean Council adopt an 
appropriate transition protocol to deal with projects that are 
progressing through the permitting process and believe that guidance 
should be adopted that makes clear how CMSP will move forward without 
causing delay to pending plans and projects. We have stressed that 
there must not be a moratorium related to permitting of offshore wind 
farms as coastal and marine spatial plans are being developed; any such 
moratorium would make it impossible to finance these capital-intensive 
projects.
    We also support comprehensive government-supported environmental 
data collection, which will increase public confidence in the decision-
making process related to the siting of offshore wind farms. To that 
end, we have encouraged the National Ocean Council to expand the Multi-
Purpose Marine Cadastre (MMC) that is managed by NOAA and BOEMRE. By 
bringing many datasets together and representing them in a single web 
interface, the MMC is a powerful tool for agencies, developers, and 
other stakeholders to evaluate offshore wind siting decisions.
Conclusion
    In summary, we support the National Ocean Policy and believe that 
it can help bring clarity to the management of our oceans and advance 
the growth of the offshore wind industry. A National Oceans Policy will 
result in the protection of marine ecosystems and will ensure the 
orderly and economically- and environmentally-sustainable development 
of ocean resources, in a manner that respects and minimizes conflicts 
with existing users. We are eager to support our nation's efforts to 
create more jobs for U.S. workers and think that thoughtful 
implementation of the National Ocean Policy will help achieve that 
goal.
    OffshoreWindDC believes that comprehensive, science-based 
management of ocean resources, conducted in accordance with the CEQ's 
July 19, 2010 Final Recommendations of the Interagency Ocean Policy 
Task Force and Executive Order 13547, ``Stewardship Of The Ocean, Our 
Coasts, And The Great Lakes'' (July 19, 2010), will lead to a shorter, 
more predictable leasing and permitting process for offshore wind 
projects. In our view, a comprehensive, science-based approach to 
oceans management is a critical long-term complement to the 
Administration's more immediate effort to speed offshore wind 
development at the most favorable, least controversial sites through 
its Smart from the Start initiative.
    Thank you for the opportunity to share our thoughts with you.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Lanard.
    We will now begin the round of questioning, and I will 
recognize myself. Mr. Coleman, in my opening statement I 
referenced or at least questioned the statutory authority that 
the President has in his action and several of the other 
witnesses also raised that question. You are an attorney. Your 
thoughts on that.
    Mr. Coleman. Mr. Chairman, this is such a broad reaching 
policy. We have all agreed there are many statutes that are 
engaged with ocean use and coastal use, but what we have here 
is we have a policy which has taken the discretion that each 
one of those laws gives to the implementer of that policy, it 
has taken that discretion away from--it is basically amending 
those statutes.
    There are huge legal problems with this policy. That is one 
of them. When you say to the Secretary of Commerce you no 
longer have the discretion in amending the Magnuson-Stevens 
Conservation Act, you have to exercise whatever discretion you 
have toward amending the National Ocean Policy, that, frankly, 
is not what Congress intended. The Congress intended that the 
Secretary of Commerce would have the discretion, the full 
discretion, not some limitation that the President decides to 
put on it.
    The same thing would be for the Secretary of the Interior 
in the Outer Continental Shelf Lands Act. Same thing for the 
Secretary of Homeland Security dealing with the Coast Guard and 
L&G terminals. There are so many different statutes that I 
could list where this policy, just by the stroke of a pen has 
taken away a portion of the discretion that the Congress has 
given to those officials, all without any action or approval by 
Congress.
    So, there are huge problems with it. There are many other 
problems, frankly, legal problems.
    The Chairman. Mr. Coleman, thank you for that. I am sure 
that we will have more discussions on that.
    Mr. Gilmore, I want to ask you a question. You have 
attended a number of briefings, I understand, on the CMSP. In 
those briefings do you have a clear understanding of how this 
is going to be implemented?
    Mr. Gilmore. No. I could expand on that.
    The Chairman. Well, why don't you just----
    [Laughter.]
    The Chairman. Just real briefly if you would.
    Mr. Gilmore. Yes. The assurances that we have received in 
the briefings don't match up with the language in the Executive 
Order. The example of fishery management councils, we are told 
that this isn't intended to impinge at all on the authority of 
Regional Fishery Management Councils, and yet the plain wording 
of the Executive Order and the task force final recommendations 
that are incorporated by whole into the Executive Order make 
very clear that if something is in a coastal marines spacial 
plan the Secretary of that agency is obligated to act to 
enforce that through developing a regulation or changing an 
existing regulation that is inconsistent.
    The Chairman. This is consistent then with what Mr. Coleman 
just said about the discretion then within the statutory 
agencies or laws that are already developed.
    Mr. Gilmore. I mean, the best case scenario we are creating 
two regulatory processes where we have the Regional Fishery 
Management Councils and then we have something entirely 
different going on over at the regional planning bodies 
established under this which just creates uncertainty and legal 
challenges, I suspect. I am not a lawyer but I know you can 
find one in this town.
    The Chairman. Neither am I.
    Mr. Guith, I want to ask you a question. The marine spacial 
planning initiative clearly intends on adding a new layer for 
any activity that may affect ocean ecosystem health no matter 
how far inland. If this were taken to the extreme or fully 
implemented, how would this affect job creation in this 
country?
    Mr. Guith. I think it would affect job creation in this 
country the same way that dozens of other proposed or 
contemplated regulations over the last three years have done, 
and that is increase the level of regulatory certainty to the 
point where cumulatively we now have over $2 trillion of cash 
sitting on the sidelines instead of being invested from non-
financial sector companies because they don't have the 
certainty necessary to make a prudent decision of how to invest 
that money.
    And while I don't necessarily assume that the 
Administration will try and regulate every acre of land, the 
problem with this policy is it provides no constraint, and 
therefore those regional planning authorities have that 
opportunity, and therefore you have to assume that at least in 
some instances that might happen, therefore if you are a 
business you can't move forward.
    The Chairman. That is one more layer of uncertainty.
    Mr. Guith. A very significant layer of uncertainty at this 
point.
    The Chairman. My time has expired. I recognize the 
gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    The National Ocean Policy is based on existing laws, and I 
would like to submit, Mr. Chairman, for the record a document 
citing the legal authorities related to implementation of the 
National Ocean Policy.
    The Chairman. Without objection.
    Mr. Markey. Thank you very much.
    [The document offered by Mr. Markey follows:]
    [NOTE: The documents submitted for the record have been 
retained in the Committee's official files.]
    Mr. Markey. The Constitution vests the Senate with the 
responsibility of ratifying treaties, and I have been 
interested in reading in the written statement of the U.S. 
Chamber of Commerce here today that they actually support 
ratification of the international treaty known as the Law of 
the Sea although it is being blocked by Republicans in the 
Senate even while opposing the National Ocean Policy, so that 
means that the U.S. Chamber of Commerce actually supports 
international coordination on ocean issues, but not national 
coordination, so that is just something I thought I would throw 
out there.
    Mr. Bullard, Mr. Lanard, you have heard my Republican 
colleagues argue that marine spacial planning would cause 
additional delays to offshore development. In your experiences, 
hasn't the lack of coordination actually been that which is 
responsible for the lack of development offshore. Mr. Lanard, 
then you Mr. Bullard.
    Mr. Lanard. Thank you, Mr. Markey.
    We are at a loss right now. The Energy Policy Act was 
passed in 2005. The Congress mandated that the Department of 
the Interior adopt within 180 days rules regulating the use of 
the offshore space, the Outer Continental Shelf for offshore 
wind. It took five years, and it occurred very early in this 
Administration's tenure, and started giving us a roadmap to go 
forward.
    The next step was the Secretary of the Interior's adoption 
of Smart From the Start, which I mentioned in my testimony, and 
through work that the developers had been advocating for many 
years we were able to cut off at least two years in the 
permitting process, but we still need a roadmap for when this 
industry becomes more robust, when we have many different 
offshore wind farms working with billions of dollars of 
investment and thousands of workers. Right now there is no 
roadmap. Those jobs won't be created.
    Mr. Markey. And Mr. Bullard, could you deal with the issue 
of Massachusetts and Rhode Island while they were developing 
their ocean plans in actually under two years? Were you aware 
while they were being developed of any activities that were 
halted or prevented from moving forward until the plan was 
completed?
    Mr. Bullard. No, the planning process didn't halt any 
existing activities. If I could respond to the earlier question 
about delays, I think the best example I can see of the need 
for this is that ten years ago Jim Gordon proposed a 
substantial renewable energy field of wind turbines in 
Nantucket Sound, and whether you are a champion of free market 
or whether you want renewable energy to deal with the issue of 
CO<INF>2</INF> emissions, ten years later there is only a met 
tower.
    Now, certainly we can do better than this. This is death of 
a thousand cuts. This is what the policy tries to get at with 
regulatory certainty. I think what Massachusetts and Rhode 
Island are doing to try and lay out in advance here are our 
areas where renewable energy works and where it would not 
conflict with mobile gear would make it a lot quicker to 
achieve an important goal like that, but that is not the only 
goal.
    Mr. Markey. And again let us zero in on that a little bit 
because in the United States there has been permitted less than 
500 megawatts of wind offshore, and the construction right now 
is exactly zero on those 500 megawatts. Meanwhile our 
counterparts in Europe and China have permitted more than 
40,000 megawatts and they have 6,000 megawatts already 
operating or under construction right now. The Governors of 
Massachusetts, Rhode Island, and New Jersey are using ocean 
planning now to identify the best sites for offshore wind, and 
we know Governor Christie doesn't make decisions about the 
future lightly.
    So the Department of the Interior now has a process for 
Federal waters called Smart From the Start that incorporates 
principles of coastal and marine spacial planning in bringing 
stakeholders together. Isn't that the type of planning which we 
need nationwide if we want to telescope the timeframe that it 
takes for us to have that offshore wind, Mr. Lanard and Mr. 
Bullard?
    Mr. Lanard. Mr. Markey, first, you know, one thing that we 
haven't said here today is that there is ocean zoning already 
in place. There is ocean zoning for shipping. There is ocean 
zoning for marine protected areas. The Department of Defense 
has zoned areas. The fisheries, the commercial fisheries areas 
have zoned areas, so we already have that, and what we need now 
is a regulatory framework that provides certainty, that shows 
us a roadmap to move forward in a way where we can put our 
workers to work and catch up to Europe and China.
    China, by the way, started a few years ago. Mayor Bullard 
talked about the fact that Cape Wind started 10 years ago. They 
don't have any steel in the water for turbines. China started 
three or four years ago and has hundreds of turbines either in 
construction or in the water. There is a way to catch up and 
there is a way to put these multi-billion dollar projects on 
the U.S. Outer Continental Shelf so that we can create the 
economy that we want.
    The Chairman. Time of the gentleman has expired.
    Before I recognize the gentleman from Louisiana, Mr. 
Fleming, I ask unanimous consent that a letter from the State 
of Alaska, and Governor Sean Parnell, letter from Taylor 
Shellfish, a June 29, 2000, letter to the Chair of the National 
Ocean Council from the eight Regional Fishery Management 
Councils, and a letter from Richard Robins, Jr., Chair of the 
Mid-Atlantic Fishery Management Council be part of the record, 
and without objection so ordered.
    Mr. Markey. Mr. Chairman, could I ask unanimous consent and 
enter into the record numerous letters in support of the 
National Ocean Policy by 154 organizations from over 30 states 
and other comments as well at this point?
    The Chairman. Without objection as long as you don't say 
all 154. Without objection, so ordered.
    [NOTE: The documents submitted for the record have been 
retained in the Committee's official files.]
    The Chairman. The gentleman from Louisiana, Mr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. Just some general 
comments before I get to questions that I find of interest 
today. The gentleman from Massachusetts talks about this being 
a mere plan. It sounds very benign, but obviously if you are 
going to create a hyper regulatory atmosphere, which I think 
this will do, it all begins with a plan, and that worries me 
very much.
    The other thing that bothers me. Congressman Farr made the 
comment that this should be kind of a grass roots from the 
ground up sort of process, and yet he willingly admits that 
this Committee and Congress in general has been unwilling to go 
along with this, and therefore that the President should 
somehow bypass the whole process and by fiat create what he has 
done, and that is an Executive Order.
    What has that done for us so far? The Executive Orders that 
have come down from President Obama have included, in effect, 
the Dream Act, which again Congress would not pass, and 
endangerment finding for the EPA, which was really just cap and 
trade by another name, and then the refusal to defend DOMA, the 
Defense of Marriage Act, which puts the President--substitutes 
his wisdom for that of the Supreme Court.
    So, it seems to me that what we are seeing here is an 
unprecedented power grab to make decisions from a bureaucratic 
standpoint from the Oval Office that affects so many people. 
So, if indeed this is a grass roots from the ground up and we 
should all have input, I think it should go through regular 
order, and that is not what we are seeing here today.
    A comment about losing market, that somehow that seems to 
be a great fear on the left. But when it comes to wind, sir, 
that we are losing all this market. Well, a market is a market. 
If there is a market there and we are competitive, it will 
happen, but to continue to prop these kind of alternative green 
energy forms through tax credits is absolutely ridiculous. We 
see now the scandal we know with Solyndra today where this was 
attempted and, of course, a lot of taxpayer money being wasted.
    So, I get to my question. As a Representative of the State 
of Louisiana, I recognize the importance of healthy coastal 
communities. We are affected more by that than any state. I am, 
however, skeptical as to whether the Administration's national 
ocean policy takes into account the significance as it relates 
to the people who reside near these communities. The 
Administration has even noted that the National Ocean Policy 
may create a level of uncertainty and anxiety among those who 
rely on these resources, and may generate questions about how 
they align with existing processes, authorities, and budget 
challenges.
    My question to both Mr. Gilmore and Mr. Guith, am I 
saying--Guith. I am sorry. What has the Obama Administration 
done to ensure the livelihood of those in coastal communities 
that is not disrupted by the National Oceans Policy?
    Mr. Gilmore. Thank you, Congressman.
    You know, the one thing that jumps out at us the State of 
Washington has a statute for coastal and marine spacial 
planning, and in their statute they point out that any element 
of a marine spacial plan that touches on commercial or 
recreational fishing must minimize the negative impacts on 
fishing and must provide substantial deference to the state 
fish and wildlife director in his opinion of how to mitigate 
any of these negative impacts.
    There is nothing like that in the National Ocean Policy. 
There is nothing like that. So, I think we are learning from 
these state plans a good bottom-up way to do it, the way 
Congressman Farr speaks to, but we don't see that in the 
National Ocean Policy, and we have received no assurances other 
than don't worry, be happy.
    Mr. Guith. The only thing that I would add is that if I 
were a Governor of any state, whether it be the middle of 
Colorado or whether it be Alaska or Louisiana, I would be very 
concerned. In fact, I would be even more concerned if I were a 
Governor Brown or Governor Patrick from a state that has 
actually taken steps to pass legislation to cover our coastal 
areas because these regional planning authorities can 
circumvent that and completely take that authority away from 
them.
    As you mentioned, they went through their regular order and 
in this case there has been none whatsoever. I think it is 
important to remind people, this is an oversight hearing. This 
is not a legislative hearing. You are not considering 
legislation. You are considering a unilateral action the 
Administration has taken, one that was not promulgated as a 
proposed regulation because there is not a specific statute in 
order to which to propose it under, so it was unilateral, and 
if I were a Governor I would be very concerned.
    Dr. Fleming. Yes, I would just submit in closing, Mr. 
Chairman, that this is clearly a bait and switch process going 
on. Thank you. I yield back.
    The Chairman. I thank the gentleman and the Chair 
recognizes the gentlelady from Guam, five minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. I would also like to 
thank our witnesses for their testimony today, and I would like 
to state my strong support for the National Ocean Policy.
    The demands in our oceans' resources are always increasing, 
and it is time we establish a national framework to coordinate 
efforts and balance these demands to ensure our oceans remain 
healthy and productive for future generations.
    Mr. Bullard, my home district of Guam relies heavily on the 
ocean for our culture, our fisheries, and our tourism economy. 
The island is currently undergoing a military build up which 
will increase the demands on our local waters, so it is 
important to me and my constituents that a plan be in place to 
adequately balance these demands. I believe that the regional 
coastal and marine spacial planning as envisioned in the 
National Ocean Policy will be critical.
    Drawing on your experience developing the Massachusetts 
ocean plan, could you describe for the Committee how coastal 
and marine spacial planning could be a benefit to areas like 
Guam or other state and local jurisdictions?
    Mr. Bullard. Thank you, Congresswoman.
    One of the greatest benefits of participating in the 
process in Massachusetts was just the accumulation of relevant 
data, whether it is where people fish or shipping channels, and 
starting to map all of that data so that every user of the 
ocean could start to see a richer picture of the ocean, so it 
was educational to begin with, and that was terrific.
    I think the Governor, I can't speak for Governor Patrick in 
Massachusetts, but we certainly were aware that we bumped up to 
the three mile limit and were very anxious as most natural 
systems don't recognize that limit, that that process continue 
out into the 200 mile limit. So, one was just the information 
and mapping it so that all stakeholders could see it.
    The other was the conversations that started to take place 
among different user groups in the planning process that 
perhaps should have occurred before but hadn't. That was 
helpful so that different people understood the needs of 
different constituencies, and I think that was epitomized for 
me in a hearing about lease tracts in Federal waters for 
offshore wind that was held in New Bedford where Federal 
agencies came and said, well, we have looked at all these 
things and this is where we think you could put wind, and the 
fishermen in New Bedford had not been consulted and they went 
crazy, and they said, who knows more about this than we do. So 
there started an intense communication between the Federal 
agencies, not in charge of fishery management, but who were 
planning where to locate wind, and an interest group that had 
the historical knowledge and right to those spaces. That 
resulted in a much better placement of where wind should occur.
    So, I think the ability to have the conversations between 
user groups was a tremendous benefit of the Massachusetts 
experience, and I would say that one of the things, and I am 
all for bottom up and lots of stakeholders being involved in 
it, but one of the problems is the death by a thousand cuts, 
all of the different agencies that can impede any project, and 
so having every Federal agency that has an ore in the water at 
the table saying you need to work together is going to make it 
a lot simpler for anyone trying to do anything.
    Ms. Bordallo. Thank you very much.
    Now, many of my colleagues on the other side of the aisle 
have portrayed the regional planning bodies as having no 
representation or any input by the people in the communities 
that will be impacted by the National Ocean Policy. Is this 
true or will local stakeholders be engaged in the regional 
planning and decisionmaking process?
    I would also like to put in one more thing, Mr. Chairman. 
About the offshore wind development, and ask you, what have you 
done? Have you looked into the Pacific Islands such as Hawaii, 
American Samoa, or Guam?
    Mr. Bullard. Is that for----
    Ms. Bordallo. Yes, we only have a few minutes left.
    Mr. Bullard. I think the biggest challenge for us at the 
beginning was getting people at all interested in the marine 
environment. As Congressman Farr said, there are no voters out 
there, and when you talk about ocean planning you will 
immediately get eyes glazing over. And so it is great to see 
the Chamber of Commerce and the National Association of 
Homebuilders interested in the marine environment. I never knew 
that existed before. So if this process can start to get that 
kind of engagement, I think it is terrific.
    Ms. Bordallo. Thank you.
    Mr. Chairman, I would like to enter into the record the 
Governors' comments on the preliminary report of the U.S. 
Commission on Ocean Policy from 2004, which includes letters 
from 14 Republican Governors in the support of the National 
Ocean Council and the Regional Ocean Councils.
    The Chairman. Without objection, so ordered.
    [NOTE: The documents submitted for the record have been 
retained in the Committee's official files.]
    The Chairman. The Chair recognizes the gentleman from 
California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Coleman, just to follow up on that line of questioning. 
How many seats on the National Ocean Council are there for 
enterprise, for commerce, or for simple citizens whose land is 
at stake?
    Mr. Coleman. Every person on the National Ocean Council is 
an appointee of the President.
    Mr. McClintock. So the assurance we just heard that don't 
worry, the stakeholders will be fully involved in this process 
is simply a ``smarmy'' facade.
    Mr. Coleman. Even at the regional basis there will be no 
individuals on the councils.
    Mr. McClintock. The analysis reads as follows. ``The zoning 
plans will reach as far inland as necessary to protect ocean 
ecosystem health and protect ocean bio diversity. All Federal 
agencies will be required to follow the zoning plan when making 
decisions on granting permits or when authorizing activities 
under their jurisdiction.''
    Is that accurate?
    Mr. Coleman. It is absolutely accurate.
    Mr. McClintock. Well, now, virtually the entire land mass 
of the United States drains into an ocean ultimately in one 
form or another. Does this mean that this National Ocean 
Council can assert land use planning authority over virtually 
the entire land mass of the United States?
    Mr. Coleman. Yes, Congressman, it does mean that. The 
opportunity to do this is based on this inclusion of this whole 
78-page final recommendations. The President incorporated that 
into the Executive Order.
    Mr. McClintock. So this is basically the death of local 
land use planning. It is the death of state jurisdiction over 
state waters. It is the assertion of Federal authority over 
virtually the entire land mass of the United States on the 
sophistry that the ocean ultimately is affected by drainage 
from every water source in the United States.
    Mr. Coleman. That is true, Congressman. To a great degree 
one of the main statutes that they are basing this authority on 
is the Coastal Zone Management Act, and I must say I have been 
disappointed over the years that the people in charge of that 
implementation that NOAA have said things like permitting 
something in Iowa is subject to the Coastal Zone Management Act 
because it will have impact down in Louisiana, or that they 
could choose the color of buildings on a naval base because of 
aesthetic reasons. There is really no limit to how far that 
they can take these acts if they wish.
    Mr. McClintock. Is there anything left to the concept of 
state waters under this Act?
    Mr. Coleman. All Federal agencies will have to follow this 
policy if they are permitting things in state waters or Federal 
waters.
    Mr. McClintock. According to the analysis states may opt 
out of serving on the regional planning boards. However, the 
regional planning board will continue with the zoning plan 
regardless of state participation. This is true even if all 
states in the region decline to participate. Is that accurate?
    Mr. Coleman. Absolutely accurate.
    Mr. McClintock. Any state which agrees to participate in 
the planning process will then be required to make sure all 
state permit activities meet the guidelines and goals of the 
zoning plan.
    Mr. Coleman. That is accurate.
    Mr. McClintock. So there really is nothing left of state 
jurisdiction over state waters or local land use authority over 
local communities.
    Mr. Coleman. We have great concerns about it and that is 
why we have stated numerous times in submittals to the 
Administration and in written testimony here that this 
infringes on state sovereignty.
    Mr. McClintock. What are our options as a Congress? This is 
obviously a user patient of legislative authority under Article 
1 of the Constitution, but it is an Executive Order. Does that 
mean it can be rescinded by Executive Order?
    Mr. Coleman. A President may rescind this.
    Mr. McClintock. Obviously it will require a different 
President to do so since this President has set this process in 
motion.
    Mr. Coleman. Apparently.
    Mr. McClintock. What can Congress do?
    Mr. Coleman. Congress can do many things. One of the 
simpler things would be to prohibit spending of funds on a 
temporary basis.
    Mr. McClintock. We tried that and the Administration just 
thumbed its nose at us on other matters.
    Mr. Coleman. I understand, Congressman, and I want to 
reiterate the National Ocean Policy Coalition is not against a 
policy which would help coordination and make the economy grow. 
We are just so much against adding this huge new burden overlay 
across the whole country.
    Mr. McClintock. Mr. Rutenberg, you warned of unintended 
consequences of this Act. What makes you think they are 
unintended? There is a body of thought on the lunatic fringe of 
the environmental left that government's role is to force 
people into dense urban cores, and restore the vast land mass 
of the United States to its pristine prehistoric condition. The 
problem with that, of course, is that most people don't want to 
be forced into dense urban cores. They want a yard in which 
their children can play. They want a little elbow room. But 
this does seem to fit in with this radical agenda of urban 
centralization.
    Mr. Rutenberg. Congressman, I had actually turned to the 
points that you were reading from because if I was asked I was 
going to comment, and I think what concerns me most is that the 
general public do not understand where this is going to go, and 
what is going to happen, and the potential for--I have had 30 
plus years in land development and land conservation. I have 
been on both sides of it. And this just really scares me of 
where we could be going with it and what we might wind up with.
    The Chairman. The time of the gentleman has expired.
    The gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Lanard, I would like to follow up with what the 
Congresswoman from Guam was speaking about and that, of course, 
is the offshore wind development, and you are, of course, in 
Massachusetts, and I believe she was asking about what about 
areas, for example, like Guam. In Hawaii, we have wind, of 
course, but we are on land, and we haven't ventured yet out 
offshore.
    Can you tell us how, for example, the NOP would be 
assisting a company such as yours because you do say it is a 
great development of jobs that you are engaged in, and whether 
you see this type of activity moving to areas in the Pacific?
    Mr. Lanard. The roadmap that the industry needs doesn't 
exist yet, and because of all the different competing uses in 
the ocean we think it is essential that there be coordination 
among all of those users. I have listed them before. I think it 
is very important to have this coordination so that we can all 
find the best places and preferred places to site our 
resources.
    The way that I have read the National Ocean Policy and the 
way that I read coastal and marine spacial planning there is no 
definition that I have never found that talks about ocean 
zoning. It talks about science-based management and data 
collection so that we can understand where the best uses are, 
and when there are conflicting or competing uses then we need 
to find a resolution that works for all the parties.
    As far as Hawaii is concerned, one of the sister companies 
of one of our members, First Wind, is a developer in Hawaii on 
land and working actually to bring a submarine cable, I 
believe, between two of your islands to make sure that you can 
have clean renewable energy. You have some of the most 
expensive electricity prices in the United States.
    So, as far as offshore wind is concerned, I believe that 
the demand would not be great enough for the investment in 
infrastructure that would be necessary. We really are looking 
for areas where we have huge load centers, where we build 
facilities that are serving several hundred thousand homes with 
offshore wind and balancing that with not intermittent wind 
energy sources as well.
    Ms. Hanabusa. Have you looked at, for example, with the 
build-up in Guam whether or not you would be able to 
accommodate Guam's growing need if, for example, it builds up 
to the capacity that they are looking at?
    Mr. Lanard. I would have to understand more what the load 
and demand is before I could answer that, and to the 
Congresswoman from Guam I would be happy to work with your 
office to give you some good data from people who understand 
that.
    Ms. Hanabusa. Thank you. Mr. Lanard, one last thing. You 
talk about the fact that there is no zoning per se of the 
ocean. We have heard about the Magnuson-Stevens Act which is 
something that I am very concerned about because of the--as you 
can imagine, fishing is a very critical part of Hawaii, not 
only as the Congresswoman from Guam said we have cultural ties, 
but in addition to that it is a source of our food. As a matter 
of fact I was home and was told, and I also would address this 
to Mr. Gilmore, is that Hawaii will use its quota up by 
October, and we are hosting APEC this November, and our 
wholesalers have been contacted by China saying don't worry, 
you can buy your fish from us, and I find that to be rather 
more than disturbing that, you know, we have a great fishing 
industry but because of the quotas imposed upon it we are not 
going to be able to sell our own fish to APEC when they come to 
Hawaii. We are going to have to buy it from China.
    So, do you see, for example, a conflict in that area with 
the NOP?
    Mr. Lanard. I actually think the opposite occurs. Mayor 
Bullard talked about a meeting in New Bedford. I was also asked 
to come to New Bedford and work and talk with the commercial 
fishermen there about how to find compatible uses, and we 
learned a lot in a great several hour conversation.
    When I started in this industry I was a developer of 
offshore wind farms to different companies, and we started 
talking about three megawatt turbines. We are now looking at 
five, six, and seven megawatt turbines which require greater 
separation between them, so we can imagine wind farms with 
separation of over a mile apart between the turbines which 
gives great access to commercial fishing operations.
    There are some issues that we are still looking at and 
working with commercial fishing industries on this but we are 
very comfortable that not only do we create greater habitat 
with these new foundations that don't exist in the ocean for 
fishing, mostly for recreational fishing, but for commercial 
fishing we have learned that their turning radius, their 
dredges, all of the different types of equipment that they use 
would be compatible with in a wind farm the way we are 
configuring them, and in fact we are going to be so wide apart 
that you could have competing commercial fishermen passing each 
other within one array of turbines and still have plenty of 
safety other than maybe in really major storms, which I hope 
they wouldn't be out there anyway, but they do that kind of 
fishing I would rather than go every other array in a case like 
that.
    Ms. Hanabusa. Thank you.
    Mr. McClintock. [Presiding.] Thank you. The gentlelady's 
time has expired. The Chair recognizes Mr. Runyan for five 
minutes.
    Mr. Runyan. Thank you, Mr. Chairman, and I thank all of you 
for your testimony.
    It is ironic that I think we have had a hearing very 
similar to this in the past, and it was the Administration's 
wildlands policy, which I think, you know, we keep going 
through these same scenarios, and quite frankly, I think the 
Administration has stepped up and rescinded that policy because 
much of the same fears we are talking about here today.
    Representing coastal New Jersey, obviously have a lot of 
commercial and recreational fishermen there, and whether we are 
dealing with uncertainty of catch shares, now we are thrown 
into another realm of uncertainty here, and I just wanted to 
ask Mr. Gorelnik.
    I think you kind of alluded to in your testimony that you 
have dealt with this in California, one of those pitfalls that 
our fishermen, coastal fishermen, you know, they would want to 
voice this but obviously as we have testified over here that 
they might not be able to hear their voice because of the way 
these things would be set up. What are some of those obstacles 
that you faced in California?
    Mr. Gorelnik. Thank you, Congressman.
    The fundamental problems we found are really twofold. One, 
the process essentially was rigged from the beginning. The 
private funding that allowed the process to go forward had 
changed the rules along the way, and there really was not 
sufficient objectivity amongst the decisionmakers in the 
process.
    Second, the science behind the process was not--well, as a 
person with a bachelor's and master's degree in physics I was 
very disappointed by the science that I saw going forward. It 
seemed that in the absence of any data the precautionary 
principle was invoked as a way to drive the process in a 
predetermined direction, and when contrary data in abundance 
was provided against that predetermined direction it was merely 
ignored.
    So, I think that planning is not inherently a bad thing, 
but if planning is going to go forward on the nation's oceans, 
which that could be a good thing if it is done the right way, 
but I think we have to have an open process, one that is open-
minded and does have the involvement of all of the 
stakeholders, and that would include recreational and 
commercial fishing.
    Mr. Runyan. And I agree on that. I just wanted to bring 
that point out because as we--you know, whether we are dealing 
with Magnuson or we are dealing with this, and I think Mr. 
Bullard said, you know, best science available. Well, a lot of 
the best science we have available right now is killing our 
fishing industry because it is not the most accurate science 
because some of it is 10, 15, 20 years old, and we have NOAA 
creating regulation around that, and quite frankly, driving our 
fishermen right out of the industry, so that is really 
something, not only the structure of it, but to have the 
science to do it, and I don't even know if within my time here 
in Congress there will ever be even close enough to have 
something like that, so I caution everybody on moving forward 
with that, and with that I yield back, Mr. Chairman.
    The Chairman [presiding]. The gentleman yields back his 
time. The Chair recognizes the gentleman from Maryland, Mr. 
Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you all for 
your testimony. I wanted to pick up on a couple of things that 
have been said.
    One, well, you are there from California, I can't see your 
name, sorry. Mr. Gorelnik, sorry about that. You did say just 
now that planning can be a good thing if it is done right, and 
I agree with you, and you are bringing in a particular case 
study. I don't know enough about it to argue back the point 
from the other side, but I think implicitly you are making the 
case for the fact that if we use data correctly, if we do get 
our hands on the best science, if we make sure that we listen 
carefully to all the evidence and science that is brought 
forward, that that can result in a very effective planning and 
decisionmaking resource, and I don't think the National Ocean 
Policy is aspiring to do anything other than that.
    You are offering some good cautions as we move forward. You 
have to make sure that you have these principles in place so 
that the process is as good as it can be.
    Congressman, I think it was McClintock, made what I thought 
was a breathtaking statement. He said that the National Ocean 
Policy would result in the death of all land use planning in 
the country, something to that effect, and I can't imagine that 
anyone sitting here would agree that that is going to be the 
result of this process, but feel free to interrupt me as I 
continue on with the questioning if you do feel passionately 
about it.
    Mr. Guith. Death may be an overstatement but I think it is 
very clear that any regional, local, or state planning is very 
much in jeopardy of Federal preemption by these regional 
planning authorities, clearly.
    Mr. Sarbanes. OK. Well, let me ask--go ahead.
    Mr. Rutenberg. I was going to say that based upon 
experience with other agencies interacting on local and 
regional and state matters, I have seen a precedent for it, and 
I am fearful of it. Whether it would happen in this case is not 
certain, but we have certainly got precedent. We have the 
potential.
    Mr. Sarbanes. Mr. Bullard, what is your position and what 
office do you hold or have you held?
    Mr. Bullard. I was mayor of the City of New Bedford.
    Mr. Sarbanes. OK, so you would be very sensitive to the 
impact or on the ability to make local decisions and so forth 
of the kinds of policies that are being discussed here. Do you 
want to respond to this scenario that somehow the ability of 
local officials and state officials and others to make good 
decisions about zoning and planning would be completely up-
ended by something like the National Ocean Policy?
    Mr. Bullard. When I read the National Ocean Policy I was 
not fearful that it would usurp local zoning. Now, I think 
there are all kinds of connections between land and water. It 
is one of the wonderful things that exist, but I think that is 
an overstatement.
    Mr. Sarbanes. OK.
    Mr. Bullard. And I am not mayor anymore, but I think zoning 
is very important, and zoning being decided at the local level 
is very important, and I don't think it is at all threatened by 
this policy.
    Mr. Sarbanes. Well, I think it is an overstatement, too. 
When we had this hurricane recently I was coming down from 
Montreal to Maryland, and I was trying to figure out the best 
path to take to avoid the storm, the full impact of the storm. 
The problem was that I only had state maps in my car so every 
time I was getting ready to cross the border or trying to 
anticipate what my route should be I found that I didn't have 
the right kind of information in my fingertips to do that, 
which made for a very bumpy ride because the passengers weren't 
happy with me.
    My point is this: Just the informational dimension with the 
National Ocean Policy is trying to achieve it seems to me is a 
very noble goal here, and that is to provide us with a more 
comprehensive map so that we can make all kinds of decisions in 
a more intelligent fashion.
    Again, I haven't heard from this side of the table real 
resistance to the information dimension of this, the data 
collection dimension of this, and, you know, Maryland is 
benefitting, the Chesapeake Bay is benefitting from efforts 
right now in that regard working with NOAA. I understand when 
it gets to, OK, then how do you use it there is some anxiety 
here about the decisionmaking implementation of the information 
that you have, but again, I think that the benefits of this far 
outweigh the anxieties that have been presented, particularly 
if the agencies which will be collaborating more as a result of 
this process are sensitive to the concerns that are being 
expressed here, and I think that they will be. With that I 
yield back my time.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. I want to thank 
all the witnesses here today.
    I wanted to allude to some of the comments earlier. You 
know, the Ranking Member spoke about a plan. He also made a 
statement that, you know, I am sure we disagree on both sides 
of the aisle that all Republicans are against plans. That was a 
pretty broad statement. I know my family we put together 
business plans and have for many, many generations. But he also 
makes an assumption that all plans are good, and I think that 
is also extremely dangerous.
    You know, he stated that our side's view would be like 
having no air traffic control. That is ludicrous. However, I 
think his view, quite honestly, would be like having an air 
traffic control help coordinate an air invasion on our own 
freedoms. That would be ludicrous, and I think that is what we 
see here in these efforts.
    We talk about stakeholders, we talk about advisory councils 
and planning bodies, and authorities, and management councils, 
and I believe oftentimes we do see window dressing. You know, 
this call to participation. You know, we don't need as a 
people--we do not need the government to remind us that we can 
talk to each other. I mean, have we been so dumbed down that we 
need ``Oz'' to tell us that we can communicate? How pathetic 
that we have been just so denigrated as a thinking people that 
we need a government and a bureaucracy to remind us how 
important communication is to make a better and brighter 
future.
    We have seen so often times where these planning boards and 
all these stakeholders are brought together just to window 
dress and to make it look like we are all working together. 
Well, I can tell you there are abuses of councils and planning 
bodies all over the country, only to push through an agenda 
that harms us.
    I will say that asking all these bodies to participate 
reminds me it would be similar to the Greeks asking the people 
of Troy to help plan the design and construction of a Trojan 
Horse.
    Thank you for allowing me to have some say, to literally 
plan the dismantling of my freedoms. Thank you for allowing me 
to have some say in that regard. I am not so dumbed down, I 
have never served in an elected office before in my life. 
January the 5th I left my family business to come here, and I 
am telling you I don't need the government to help me anymore. 
They are helping our family business--it is 60 years old--to 
struggle like we have never struggled before, and our story is 
no different than small businesses all over this country. 
Please stop helping me.
    I want to ask, many of you have traveled many distances. 
Mr. Rutenberg, thank you for being here. I know you are not 
from my district but you are from Florida. You represent 
homebuilders. Obviously, the real estate crisis in Florida is 
deeply affecting our economy in Florida, an economy that right 
now is suffering through historic unemployment numbers. Let me 
ask you this.
    Why would this Administration feel the need to implement 
upon your industry more regulations? Your opinion.
    Mr. Rutenberg. Our industry is being blasted at the moment 
by regulations from all fronts. We have lots of regulations 
that are coming our way. This is just one instance of it, and I 
suspect it is a way of implementing a belief that has not gone 
through the congressional process, and that has been one of the 
discussions today.
    Mr. Southerland. Thank you. And last, you know, and I have 
some issues that have been raised, we talk about economic 
analysis and economic impacts, and oftentimes in Washington we 
do little to do a constitutional analysis, do we have the 
authority to do this, but let us just say to be assume that we 
have the constitutional authority, and let us also, you know, 
pretend that the Administration cares about this body's opinion 
and our commitment to that Constitution.
    I would ask Mr. Bullard, how do we pay for this?
    Mr. Bullard. I think the question is we are paying for it 
now. The example that I used before of someone 10 years ago 
proposing renewable energy, and in 10 years nothing happens. I 
mean, there is a cost to that. There is an opportunity cost. 
There is a jobs cost. The number of regulations--regulatory 
bodies that developers had to go through to get nothing in the 
ground. I mean, there is a cost. Whether you agree with that 
type of development or not, that is a private developer trying 
to do something and being absolutely suffocated, and I think if 
we had a way of saying what are our goals with the ocean 
environment that solicited all stakeholders' opinions and said 
here is where we want to put wind turbines, you would have them 
built right after they were proposed.
    Mr. Southerland. I yield back.
    The Chairman. The time of the gentleman has expired.
    Mr. Southerland. Thank you.
    The Chairman. The gentleman from New Jersey, Mr. Holt, is 
recognized for five minutes.
    Mr. Holt. Thank you, Mr. Chairman.
    As someone who also represents an ocean-bounded state, I am 
very interested in this discussion, and it is particularly 
noteworthy that we have At-sea Processors and the Chamber of 
Commerce and Homebuilders, and I am pleased to say a 
physicist--I am speaking as a physicist here--involved in this 
to make the point that there are many competing interests, and 
the function of government can be described as finding 
beneficial, optimal, balancing of competing interests, and when 
you have this many different interests, not to mention a lot of 
different agencies involved in the balancing of those 
interests, it seems obvious that we would want coordination.
    My colleague, Mr. Sarbanes, had, I thought, a fairly apt 
description of saying if you have small-scale maps with a 
large-scale problem you are limited, and it is not just that 
your passengers might get angry with you, peoples' quality of 
life, whether you are talking about their economic vitality, 
their environment or their food supply, are put in jeopardy, so 
I think we should welcome this, and look for ways to make this 
coordination work well, and there is so my railing against 
regulations. I believe it is true. I have looked to the 
Chairman. There is nothing in this policy that actually 
specifies new regulations. I see the Ranking Member nodding her 
head. We can talk about the wisdom of individual regulations, 
but that is not what we are talking about here. We are talking 
about coordination.
    In the limited time I have, I would like to focus on wind 
so let me direct my question or questions to Mr. Lanard because 
this is an area where in New Jersey Republicans and Democrats, 
Governor Christie, and the congressional delegation should be 
working together and could work together. There is an enormous 
resource out there that I believe can be harvested in a way 
that is economically advantageous and very beneficial 
environmentally.
    Could you comment on whether the Smart From the Start kind 
of cluster of recommendations and regulations is working? Is 
that what we need? Do we need more or less of that approach? 
And in the minute and a half that you have are there any 
specific regulations that you would like to talk about which 
will be the subject for another hearing another time?
    Mr. Lanard. Thank you, Congressman.
    First, the Smart From the Start has worked very well for 
first mover projects; that is, to start getting these 
facilities developed in the ocean, it is working very, very 
well. The Department of the Interior acknowledged that it was 
the first step, and it is a very, very important first step.
    As far as specific regulations are concerned, we need 
coordination among all the different regulatory bodies, 
Department of Commerce, the Army Corps of Engineers, the EPA, 
the Department of the Interior, Department of Defense, so at 
the secretariat level in the Department of the Interior there 
is a group that gets together, deputy secretaries from all the 
different agencies starting to work together. Our biggest 
concern is that they get enough resources to get the job done.
    I do want to just mention about local zoning and what we 
have heard from others on the panel is the death of local 
zoning. We have to bring our submarine cable from offshore onto 
land. We cross territorial waters at three miles and then we 
have to interconnect on the property someplace into the 
electric grid. There are many different state and local zoning 
ordinances that we will have to follow, and I can assure you 
the National Ocean Policy will not overrule one of them. Some 
of our developers might like that, but it will never happen. 
They will be subject to many different state and local zoning 
and regulatory ordinances.
    Mr. Holt. Thank you. Thank you, Mr. Chairman.
    The Chairman. The Chair recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman, and 
gentlemen, thank you for sitting here so long. I appreciate 
your patience.
    I remember back in 2009 when the Ocean Policy Task Force 
first started its work. I as Chairman of the House Agricultural 
and Natural Resource and Environmental Affairs Committee in my 
State of South Carolina's General Assembly, because I was 
contacted by sport fishing groups, I was contacted by 
commercial fishermen, equipment manufacturers, former chairman 
of the Congressional Sportsmen Caucus there in the state 
legislature, so I have been following this for quite awhile, 
and I see that as a result of this Executive Order the Federal 
agencies are required to determine whether the activity has a 
potential to harm ocean ecosystems, help no matter where the 
activity occurs.
    And so as I read that requirement and I start looking at 
the makeup of the 27-member National Ocean Council, you have 
the Secretaries of State, Defense, Interior, Agriculture, 
Health and Human Services, Commerce, Labor, Transportation, 
Energy, Homeland Security, the Attorney General, Administrator 
of the Environmental Protection Agency, NASA, the Chairs of the 
Council on Environmental Quality, and the list goes on and on, 
OMB, NOAA. In addition, the five-member steering committee. It 
is just amazing to me that we are going to create something 
with this many layers.
    Where I come from we would say that is too much government 
because of all the people that have input into setting policies 
for the nation's oceans that affect our ability to go out and 
maybe sport fish or our ability for commercial fishermen in 
South Carolina and all along the East Coast to practice their 
trade.
    We had a hearing earlier on this year where some commercial 
fishermen came and they shared the data that is being used to 
close bottom fishing, and how skewed it was and how flawed the 
science was. And I remember a gentleman from Florida talking 
about policies being set forth by folks in lab coats who aren't 
going out in the ocean and really understanding the true 
fishery, and so I am concerned that we have gotten to this 
level via an Executive Order and creating this what I would say 
is too much government.
    The question I have is for the gentleman from the American 
sports fishing association, Mr. Gorelnik. Is that pronounced 
correctly?
    Mr. Gorelnik. Gorelnik and I am from the Coastside Fishing 
Club.
    Mr. Duncan of South Carolina. OK. Well, thank you. You were 
on the Governmental Affairs Committee with the sports fish----
    Mr. Gorelnik. I am here in another capacity.
    Mr. Duncan of South Carolina. I understand that as well, 
but I wonder if you can add any input as to where our American 
tackle manufacturers stand on this particular oceans act.
    Mr. Gorelnik. Well, I think that naturally the economy is 
affecting that business like it is all other businesses, but 
the issues specifically in California, which have thrown a lot 
of fishermen off the water, has decreased tackle sales. We have 
seen tackle stores close. We have seen landings close as a 
result of the regulations adopted in California. Of course, 
that filters right back up to the tackle manufactures. So I 
would say our lesson in California is if the process is not 
done right and we have unnecessary closures, you know, you are 
going to see businesses take an unnecessary hit, and it is 
tough enough in this economy, but to have these what I would 
say is gratuitous closures is going to have a further negative 
impact.
    Mr. Duncan of South Carolina. All right. Going back to the 
too much government and it is still directed at you, you know, 
in your testimony that at a public meeting in San Francisco 
only those invited to speak were allowed to participate. Does 
that fit into your definition of public participation in a 
bottom-up approach?
    Mr. Gorelnik. Speaking to that one event, there really 
wasn't much of a big tent philosophy there. Recreational 
anglers were never contacted in terms of being one of the 
invited speakers, and there wasn't really sufficient time 
really for public comment, and we really felt shut out. We were 
very frustrated at that event. We felt that not only were our 
voices not heard, but voices on the other side of our issue 
were given an abundant amount of time to set forth their views.
    Mr. Duncan of South Carolina. Right, and you are not alone 
on that. I have heard that on the East Coast as well, and we 
have heard that from the fishermen within the sport fishing 
arena but also the commercial fishermen I was talking about 
earlier that as they were determining closures for the Atlantic 
Coast and the Eastern Gulf, they were never given an 
opportunity to really have their voice heard, so that concerns 
me if we are going to have true participatory government that 
we allow that, so I appreciate you testifying, and Mr. 
Chairman, I yield back the balance.
    The Chairman. The gentleman does yield back his time and 
the Chair recognizes the gentlelady from Massachusetts, Ms. 
Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you all for 
your testimony.
    I have been in Congress almost four years, so will be 
coming up on my four-year anniversary, and as I have worked on 
this Committee I think it was maybe several years ago we had 
testimony come in about the state of our oceans, and Jacques 
Cousteau, who has done so much really to dramatize the 
remarkable oceans that we have had, his grandson came in and 
talked about how he used to go out with his grandfather, and 
the remarkable life that took place in the ocean as compared to 
his more recent forays into the depths of the ocean where he 
really bemoaned their sad state, and it was a story that has 
really stuck with me. I cannot say I spent a lot of time 
underwater looking at what we have down there, but clearly this 
was a young man who has spent his life there.
    So, as we talk about--as we are here today to hear your 
testimony, we have to remember that our oceans really are at 
risk, and I happen to come from a state in which so much of our 
economic health is tied to the health of the ocean. We depend 
on it for tourism, for shipping, for commercial fishing. Now we 
will see activity in energy generation, renewable energy. So 
much is at stake here, and not only do the coastline 
communities stand to benefit, but our Commonwealth as a whole, 
and really our country because even those kinds of businesses, 
tackle businesses or whatever that are related to fishing, they 
will be dramatically impacted if our oceans are not healthy in 
the long run.
    We have already heard testimony, differing testimony about 
the processes different states have undertaken, so we have in 
Massachusetts a story that is a very good one in which it was 
not overly lengthy. There was adequate effort to bring in all 
the stakeholders to the table. It was a process that seems to 
have satisfied those stakeholders versus the story of 
California which it has not been so necessarily the case, so it 
is an object lesson that we need to remember as we go forward.
    We have also been hearing the concern about the fishing 
industry so I have a question for Mr. Bullard. Did the ocean 
plans of Massachusetts and Rhode Island hinder the work of the 
New England's Fisheries Council in any way? And how did you 
work with them in the course of doing your work?
    Mr. Bullard. The fishing industry is very important in 
Massachusetts economically in terms of defining character of 
seaports and also politically it is a very strong entity. I 
think that is true nationwide. And so in the Massachusetts 
ocean plan it was very specific that this was not to infringe 
on the management of fish through Magnuson in Federal waters, 
and yet it also required that the fishing industry be very 
active participants, so they participated actively. We learned 
a lot, but it was very clear that this was not an end around or 
different attempt to manage fisheries.
    I do think there is one thing that may come out of this 
that can benefit fishermen. Fishermen look at Magnuson which in 
New England has used closed areas as a way of managing fishery 
or enforcing fishery regulations, and then they see wind 
developers come, and that is like another closed area where 
they see sanctuaries come and they feel that is another threat 
for a closed area, so fishermen look at all of this as saying 
you are just taking more and more bottom away from me.
    I think if you put all these together in an ocean plan it 
is possible, I hope it will happen that people will start to 
say with this science and data we should be able to talk about 
opening areas to fishermen, not just closing them. So that if 
we are going to close an area so that there can be a marine 
protected area, maybe we can open an area that was enclosed for 
enforcement purposes. It should be a two-way street if 
fishermen are involved in the overall planning process.
    Ms. Tsongas. Well, I agree with you and I have seen in the 
coastal communities of the Cape just how really very important 
the fishing industry is, and yet the fishing industry is 
dependent upon a vibrant ocean, so I commend you all for your 
testimony today, and thank you. I yield back.
    The Chairman. Thank you, and I want to thank all the 
panelists for their testimony today. I must say what has struck 
me with the testimony of all of you and the questions from the 
members of the Committee is that the ocean is a great unknown 
and there needs to be a proper way to address that. The 
question is how and what is the process, and I think most 
people would probably agree with the notion that the government 
closest to the people is probably more responsive to the 
diversity at a local level and community. In fact, Mr. Bullard 
talked about the Massachusetts process which apparently was 
very transparent.
    But the debate here and the reason for this hearing was the 
Executive Order of the President and the potential mischief 
that could happen because of that Executive Order. If you start 
up the process at a local level, which I think again most 
people would agree with, and then you go to the next level you 
would probably have less agreement because there would be more 
special interests that could insert their views, and then you 
go to the next level, which would be the Federal Government, 
and then you take out the legislative process, the statutory 
process and put it within the Executive Branch, then you have 
the potential for real mischief.
    And in response to what Mr. Holt said that the task force 
has no regulations in there, I wish he were here, but this is 
what the task force said and it is on page 47 under six, the 
authority for coastal and marine spacial planning, and it says, 
second to the last paragraph, it says, ``Where preexisting 
legal constraints, either procedural or substantive, are 
identified for any Federal agency, the NOP would work with the 
agency to evaluate necessary and appropriate legislative 
solutions,'' which is good, ``or changes to regulations to 
address the constraints.''
    Now, this is where the uncertainty that was said by several 
of the panelists exists, and I think that is probably where we 
will have further discussion on the process of how this should 
be address in the long run, and so that was the reason for the 
hearing. I certainly didn't hear disagreement on anybody here 
that there ought to be a proper way to proceed forward, but the 
key is how do you do it so that all of the interests are 
properly represented. And again, when you start at the lowest 
level, at the grass roots and go all the way up to an Executive 
Order, does not even have congressional input, a whole lot of 
mischief can be had, and I think that is the concern certainly 
of this Chairman. That was the reason for this hearing.
    I would ask all the witnesses if there are questions that 
come from other Committee Members that you would respond in a 
timely manner, make that response available to the whole 
Committee, and once again I want to thank you very, very much 
for your testimony, and with no further business coming the 
Committee is adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Mr. Pierluisi 
follows:]

            Statement of The Honorable Pedro R. Pierluisi, 
         the Resident Commissioner in Congress from Puerto Rico

    Thank you Mr. Chairman.
    I have great interest in this morning's hearing on U.S. ocean 
policy because Puerto Rico is one of the nation's 35 coastal states and 
territories, and the ocean plays an integral role in the Island's 
social, cultural and economic life. Accordingly, I believe the National 
Ocean Policy, as embodied in the President's July 2010 Executive Order, 
deserves our strong support.
    I am keenly aware that federal support and intergovernmental 
cooperation is essential to protect Puerto Rico's roughly 700 miles of 
coastline and our waters and submerged lands that extend nine miles 
from shore. The ocean surrounding Puerto Rico is home to diverse and 
precious coral ecosystems, beautiful beaches that underpin our tourism 
economy, and unique bioluminescent bays and mangrove lagoons.
    The NOAA-approved Puerto Rico Coastal Program--which is supported 
by scores of dedicated professionals from the Puerto Rico government 
and the Island's 44 coastal municipalities, along with numerous non-
governmental organizations--is the chief means by which we are 
addressing the challenges to and stressors upon our marine ecosystem. 
Tourism, shipping, agriculture, fishing, and coastal development, are 
among the many factors that must be managed for their impact on the 
ocean.
    This Committee--and this Congress--should find value and promise in 
the President's National Ocean Policy. The Policy places a premium on 
shared ocean governance, and appropriately aligns the otherwise varied 
efforts that span the Executive Branch. In a time where efficiency, 
coordination, and prevention of government duplication is sought, we 
are presented with a Policy that achieves precisely that.
    Importantly, the Policy fosters greater collaboration within the 
federal government and between the federal government and the states 
and territories. Though this collaboration, solutions to mitigate 
stress on the ocean and to plan for its sustainable use can be more 
easily accomplished. Balancing competing interests and multiple uses of 
our ocean is needed now more than ever, and that is why I join many of 
my colleagues in recognizing this Policy's capacity to accelerate 
coastal and marine spatial planning.
    I look forward to hearing from the witnesses today about how the 
Policy will help us grapple with the effects of land-based sources of 
pollution, over-fishing, a deficit of public awareness about impacts, 
and recreational misuse or overuse of the ocean resource. Thank you, 
Mr. Chairman.
                                 ______
                                 
    [A statement submitted for the record by Richard B. Robins, 
Jr., Chairman, Mid-Atlantic Fishery Management Council, 
follows:]

     Statement submitted for the record by Richard B. Robins, Jr., 
           Chairman, Mid-Atlantic Fishery Management Council

    Chairman Hastings and distinguished members of the Committee, I 
sincerely appreciate the invitation and opportunity to provide written 
testimony regarding the National Ocean Policy. will focus my remarks on 
one of the nine priority objectives identified in the policy that has 
important implications for the Mid-Atlantic region; specifically, 
Coastal Marine Spatial Planning (CMSP).
    It is widely anticipated that the Mid-Atlantic region will become a 
modern epicenter of offshore energy development as the private and 
public sectors work to develop a large scale renewable wind energy 
system in the region. As an example of the scale of proposed 
development, the Atlantic Wind Connection project proposes to connect 
up to 1.9 million households with 6,000 MW of offshore wind turbine 
capacity from Virginia through New Jersey.
    In addition to having a reliable corridor of winds that make the 
region favorable for emerging wind energy development, the marine 
ecosystem within the region supports billions of dollars of economic 
activity related to traditional uses of the area, including 
recreational and commercial fishing, shipping, military and national 
security, and other recreational and commercial activities that are 
powerful drivers of the nation's economy.
    CMSP, as contemplated in the National Ocean Policy, is expected to 
provide for a more integrated and proactive approach to evaluate 
complex interactions between traditional and emerging uses of the ocean 
than those currently in place. The current processes for managing 
potentially conflicting uses of the ocean related to offshore energy 
development do allow for public input but lack transparency in the 
decision making process and do not benefit fully from interdisciplinary 
and interjurisdictional integration. If CMSP is implemented effectively 
at the regional level, it has the potential to improve the transparency 
and coordination in the planning and decision-making process which will 
lead to better coordination of uses of the ocean environment.
    In 2010, BOEMRE proposed a Massachusetts RFI area of 3,000 square 
miles, south of Nantucket, for offshore wind energy development. The 
proposed area overlaid shipping lanes, the Nantucket Lightship Habitat 
Closure Area, the Nantucket Lightship Groundfish Closed Area, and one 
of the most productive scallop grounds in the region--the Nantucket 
Lightship Scallop Access Area. The proposal met with extensive protest 
and the RFI area was subsequently reduced by over 50 percent. This is a 
contemporary example of what we might expect in the absence of a 
proactive, integrated CMSP approach that would anticipate and evaluate 
conflicting uses of the ocean across a broader spectrum of regulatory 
entities and user groups to facilitate appropriate planning.
    The Mid-Atlantic Fishery Management Council was established by the 
Magnuson-Stevens Fishery Conservation and Management Act and has 
authority over the fisheries in the Atlantic Ocean seaward of the 
states of New York, New Jersey, Delaware, Pennsylvania, Maryland, and 
Virginia. For the past 35 years, the Mid-Atlantic Council, along with 
the other U.S. Regional Fishery Management Councils (RFMCs), has been 
engaged in the geospatial management of fisheries within complex marine 
ecosystems. The Council has identified essential fish habitat (EFH) for 
its 13 managed species, in addition to habitat areas of particular 
concern (HAPC), and gear restricted access (GRA) areas to manage 
discrete portions of the marine environment for specific fisheries 
management objectives and related ecosystem and habitat considerations.
    The Mid-Atlantic Fishery Management Council has also been actively 
engaged with the Mid-Atlantic Regional Council on the Ocean (MARCO) 
since it was formed by five Mid-Atlantic governors in 2009. Earlier 
this year, the Council has named a staff representative to MARCO's CMSP 
and Habitat Action Teams, in order to make the fisheries-related 
expertise available to the teams and to provide a conduit between the 
two organizations. MARCO has made early progress in developing a 
mapping and planning portal that will benefit future planning processes 
in the Mid-Atlantic region. Our engagement with MARCO is typical of the 
other RFMCs in regions around the U.S. that have established regional 
ocean agreements that are viewed as potential precursors to the 
Regional Planning Bodies (RPBs) described in the National Ocean Policy.
    The National Ocean Policy describes the role of the RFMCs as a 
consultative role and leaves further specification of the role to the 
National Ocean Council (NOC). The Mid-Atlantic Fishery Management 
Council, together with our peer Councils, has requested that the NOC 
grant the RFMCs membership on the RPBs. The RFMCs have extensive 
experience and specialized expertise in the management of the marine 
environment and well established conduits for stakeholder input that 
can and should be harnessed in the CMSP process to contribute to the 
success of the RPBs. The Massachusetts RFI example underscores the 
shortcomings of the current limitations of the system to anticipate and 
resolve conflicting uses of the ocean in a cohesive manner, and 
suggests that a CMSP framework would facilitate a more robust planning 
process in the Mid-Atlantic region. RFMC membership in the RPBs will 
contribute to the success of the RPBs and will ensure that fisheries 
resources and uses are considered at appropriate points in the process.
    Working with limited resources, MARCO has experienced early success 
with their portal development but full CMSP implementation will require 
significant additional resources. As future decisions concerning 
funding are considered, I would encourage the Committee to identify 
funding opportunities for CMSP implementation that do not diminish the 
budgets of NOAA Fisheries that are already challenged to support the 
scientific and management programs that are critical to the core 
mission of the Agency and the RFMCs.
                                 ______
                                 
    [A letter and statement submitted for the record by Captain 
Jay W. Spence, President, Passenger Vessel Association, 
follows:]

October 3,2011

The Honorable Doc Hastings, Chairman
Committee on Natural Resources
United States House of Representatives
1324 Longworth House Office Building
Washington, D.C. 20515

Dear Mr. Chairman:

    The Passenger Vessel Association (PVA) would like to thank you for 
taking up the issue of a national ocean policy and marine spatial 
planning. PV A would like to add comments to the record for the hearing 
in your Committee on ``The President's New National Ocean Policy--A 
Plan for Further Restrictions on Ocean, Coastal and Inland Activities'' 
on Tuesday, October 4, 2011.
    The Passenger Vessel Association (PVA) is the national trade 
association for owners and operators of U.S.-flagged passenger vessels 
of all types. PYA currently has nearly 550 vessel and associate 
members. Our members own and operate passenger and vehicular ferries, 
dinner cruise vessels, sightseeing and excursion vessels, private 
charter vessels, whale watching and eco-tour operators, windjammers, 
gaming vessels, amphibious vessels, water taxis, and overnight cruise 
ships.
    Washington State is home to 63 members of PVA, including the 
Washington State Ferry System, many other vessel companies, four 
shipyards, several naval architects and vessel design firms.
    The issue of a national ocean policy and marine spatial planning is 
of great concern to the members of the Passenger Vessel Association. 
Ferry routes and other traditional navigational lanes are located where 
they are for a reason. These are the most economical and safest routes 
by which a vessel can reach its destination. They cannot be arbitrarily 
moved for someone else's convenience or whim.
    PVA is also concerned that marine spatial planning may become one 
more method by which the government imposes yet more costs on small 
businesses and small entities.
    Your consideration of our comments is appreciated. Please let us 
know if we can answer any questions or provide you with any additional 
information. Thank you.

Sincerely,

Captain Jay W. Spence
President
Passenger Vessel Association
                                 ______
                                 

      Statement submitted for the record by Captain Jay W Spence, 
                President, Passenger Vessel Association

    The Passenger Vessel Association (PV A) is the national trade 
association for owners and operators of U.S.-flagged passenger vessels 
of all types.
    PVA currently has nearly 550 vessel and associate members. Our 
members own and operate passenger and vehicular ferries, dinner cruise 
vessels, sightseeing and excursion vessels, private charter vessels, 
whalewatching and eco-tour operators, windjammers, gaming vessels, 
amphibious vessels, water taxis, and overnight cruise ships.
    The diverse membership of PVA includes small family businesses with 
a single boat, companies with several large vessels in different 
locations, and governmental agencies operating ferries.
    The passenger vessel is a vital and thriving segment of the U.S. 
maritime industry. It has a longstanding presence on our nation's 
oceans, coastal and Great Lakes waters, rivers, and lakes.
    Ferries are an important aspect of the nation's surface 
transportation system. They provide essential services in places as 
diverse as New York Harbor, North Carolina's Outer Banks, the offshore 
islands of Maine and Massachusetts, Delaware Bay, San Francisco Bay, 
Puget Sound, and Lake Michigan. To obtain a more comprehensive view of 
the role of ferries in the national Maritime Transportation System, PV 
A refers the Interagency Task Force to the National Census of Ferry 
Operators maintained by the Bureau of Transportation Statistics of the 
U.S. Department of Transportation and posted at www.bts.gov.
    Ferry routes and other traditional navigational lanes are located 
where they are for a reason. These are the most economical and safest 
routes by which a vessel can reach its destination. They cannot be 
arbitrarily moved for someone else's convenience or whim.
    As governments begin to implement ``marine spatial planning'' (or 
ocean zoning) as directed by a national ocean policy, it is essential 
to be aware of the needs of the maritime industry, especially ferry 
operators, to preserve and protect their routes and traditional 
navigational lanes. The passenger vessel industry and its ferry 
operators must not be considered an afterthought, inconvenience, or 
obstacle when someone proposes a new and conflicting use for waters 
traditionally used for navigation.
    Unfortunately, this is exactly what has happened in Nantucket Sound 
in Massachusetts with a proposal for a massive offshore wind energy 
development. Neither the developer nor the federal government properly 
considered the impact of the project on the safety to the vessels and 
passengers of the ferries that serve the island of Nantucket and 
Martha's Vineyard. The ferry operators and PV A are greatly concerned 
that navigational safety will be compromised. The attached letter to 
the Minerals Management Service describes PVA's concerns and includes 
the resolution adopted by PYA's Board of Directors opposing the 
proposed wind energy installation because of its deleterious effect on 
the marine safety of the area's ferries.
    As people and industry look to ocean waters for nontraditional uses 
(wind and tidal energy, artificial islands, large aquaculture 
installations, expanded sanctuaries or marine protected agencies), the 
possibility of conflicts with traditional navigational uses Increases.
    While all federal agencies involved in carrying out marine spatial 
planning through a national ocean policy must be cognizant of the needs 
of ferries and other vessel operators, the U.S Coast Guard and the 
Maritime Administration must be ``aggressive'' advocates for 
traditional navigational users when conflicting uses are proposed. The 
existing Committee on the Marine Transportation System (www.cmts.gov) 
in the Department of Transportation can play a helpful coordinating 
role.
    PVA in no way opposes offshore wind energy or other nontraditional 
ocean uses, but they must be sited in a manner that does not impinge on 
traditional vessel navigational lanes or compromise the safety of U.S. 
ferry operations. Those who promote marine spatial planning through a 
national ocean policy must ensure that navigational uses are recognized 
and protected.
    It is crucial that Congress and Federal Agencies involved in the 
development of a national ocean policy the take into account the cost 
and cumulative impact of regulation on small business. PV A members are 
greatly concerned about the economic burdens imposed by the cumulative 
impact of numerous federal laws and regulations. In recent years, 
passenger vessel operators have had to absorb costs associated with 
Coast Guard maritime security mandates, higher assumptions about 
average passenger weight for purposes of calculating vessel stability, 
new rules for serving customers with disabilities and EPA permit 
requirements for discharges incidental to the normal operation of a 
vessel.
    Nearly all vessel-operating members of PVA are small businesses or 
small entities as designated by the U.S. Small Business Administration 
(SBA). According to the SBA small businesses ``continue to bear a 
disproportionate share of the federal regulatory burden.'' The SBA 
estimates that the cumulative cost of federal regulation per employee 
for a firm with fewer than 20 employees is $10,585 per year. For a 
company with between 20 and 499 employees, the estimated annual cost 
per worker is $7,454.
    Federal regulators must also take into account that many PV A 
vessel operators have seasonal businesses, and that they frequently 
compete with land-based venues. Since the potential customer can often 
find similar services or attractions ashore, more burdensome rules 
placed on the vessel operator create a financial disadvantage, since 
the land-based competitor does not have to shoulder a similar 
regulatory burden.
    Your consideration of our comments is appreciated. Please let us 
know if we can answer any questions or provide you with any additional 
information.

                                 <all>

</pre></body></html>
